<html>
<title> - THE FUTURE OF HUMAN SPACE FLIGHT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                             THE FUTURE OF
                           HUMAN SPACE FLIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2003

                               __________

                           Serial No. 108-29

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science




89-892              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                            October 16, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    12
    Written Statement............................................    13

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    13
    Written Statement............................................    14

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    15

Prepared Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    15

Prepared Statement by Representative Nick Smith, Chairman, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    16

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    17

Prepared Statement by Representative Nick Lampson, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    18

                               Witnesses:

Dr. Michael D. Griffin, President and Chief Operating Officer, 
  In-Q-Tel, Inc.
    Oral Statement...............................................    19
    Written Statement............................................    20
    Biography....................................................    26

Dr. Wesley T. Huntress, Jr., Director, Geophysical Laboratory, 
  Carnegie Institution of Washington
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    33

Dr. Matthew B. Koss, Assistant Professor of Physics, College of 
  the Holy Cross
    Oral Statement...............................................    34
    Written Statement............................................    35
    Biography....................................................    44

Dr. Alex Roland, Professor of History, Duke University
    Oral Statement...............................................    44
    Written Statement............................................    46
    Biography....................................................    47

Dr. Bruce Murray, Professor of Planetary Science and Geology 
  Emeritus, California Institute of Technology
    Oral Statement...............................................    47
    Written Statement............................................    49
    Biography....................................................    51

Discussion
  Vision.........................................................    52
  Priorities.....................................................    52
  Support for Human Space Flight.................................    55
  Goals..........................................................    58
  Lunar Exploration..............................................    59
  China..........................................................    61
  Priorities and Funding.........................................    62
  The Space Exploration Act......................................    64
  Technical Challenges...........................................    65
  Robotic Exploration............................................    68
  NASA Culture...................................................    70
  Effects of Zero-Gravity on Humans..............................    70
  Education......................................................    73
  Exploration....................................................    75
  Free-Flying Platforms..........................................    77
  Space Station Science..........................................    78

             Appendix 1: Answers to Post-Hearing Questions

Dr. Michael D. Griffin, President and Chief Operating Officer, 
  In-Q-Tel, Inc..................................................    84

Dr. Wesley T. Huntress, Jr., Director, Geophysical Laboratory, 
  Carnegie Institution of Washington.............................    89

Dr. Matthew B. Koss, Assistant Professor of Physics, College of 
  the Holy Cross.................................................    91

Dr. Alex Roland, Professor of History, Duke University...........    99

Dr. Bruce Murray, Professor of Planetary Science and Geology 
  Emeritus, California Institue of Technology....................   104

             Appendix 2: Additional Material for the Record

Stepping Into the Future, A Workshop in Memory of the Columbia 7.   106

 
                    THE FUTURE OF HUMAN SPACE FLIGHT

                              ----------                              


                       THURSDAY, OCTOBER 16, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:18 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                             The Future of

                           Human Space Flight

                       thursday, october 16, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The Committee on Science will hold a hearing on The Future of Human 
Space Flight on October 16, 2003 at 10:00 a.m. in Room 2318 of the 
Rayburn House Office Building. The hearing will examine the rationale 
for human presence in space, the feasibility and cost of various 
potential long-term goals, and the near-term implications of 
establishing these goals.

2. Overarching Questions

    The witnesses will outline their perspectives on human space flight 
and lay out various options that could be pursued. Overarching 
questions that will be addressed are:

        <bullet>  What is the U.S. likely to gain by the proposed 
        options for human space flight and why could such gains not be 
        obtained in other ways?

        <bullet>  What is a rough estimate of the costs of pursuing any 
        of the proposed options? What is the approximate amount of time 
        that it would take to achieve the goals of the proposed 
        options?

        <bullet>  What are the technical hurdles that must be overcome 
        in pursuing the options and the steps that must be taken to 
        overcome those hurdles? (i.e., are there intermediate program 
        goals and when might these be achieved?)

        <bullet>  What are the implications of the options for the 
        current human space flight program? To what degree does the 
        current program contribute to, or impede other options that 
        could be pursued?

3. Key Issues

    In the aftermath of the Columbia tragedy and the Columbia Accident 
Investigation Board report, the Nation has a rare opportunity to re-
examine the vision and goals of the human space flight program. The 
following are some of the key issues:

Is there a compelling reason for human presence in space? The Apollo 
program to send a man to the Moon was clearly tied to a broader 
national goal, winning the Cold War. Today, NASA's human space flight 
program lacks a similar goal and is not tied to any national 
imperative. While NASA officials often argue that a human presence in 
space is necessary to carry out scientific research, even many 
advocates of human space flight suggest that science alone is not a 
compelling justification because much research can be conducted with 
unmanned probes. Instead advocates point to other rationales, including 
the human imperative to explore, a need for a strategic presence ,in 
space, the potential for technological spinoffs, and the possible 
development of human colonies in space, which they say could be 
especially important in the event of a natural or human-induced 
calamity on Earth.

What are the appropriate roles for robotic exploration and human 
exploration? Robotic spacecraft have landed on the Moon and Mars, and 
(in the case of the Soviet Union) on Venus. Robotic spacecraft have 
flown by every planet in the Solar System with the exception of Pluto, 
and NASA is currently developing a mission to that planet. Robotic 
spacecraft provide a wealth of scientific information and typically 
cost a fraction of what a human mission costs. In January 2004, NASA's 
Mars Exploration Rovers Mission will land two identical rovers, named 
Spirit and Opportunity, on the Martian surface to search for clues of 
water. This mission cost less than $1 billion. In some cases, robotic 
spacecraft and human missions work together to perform complementary 
tasks, such as when astronauts service and repair the Hubble Space 
Telescope or when robotic missions are used to scout out landing sites 
for human missions as was done before Apollo. Key issues include: What 
is the appropriate balance between robotic and human missions? What 
activities can only be accomplished with humans? Should NASA focus its 
efforts on robotic exploration until a suitable purpose can be 
developed and agreed upon for human exploration?

How would the Space Shuttle, the International Space Station and other 
aspects of the current human space flight program fit with any vision 
for NASA's future? Neither the Space Shuttle nor the Space Station has 
met its primary original goal. The Shuttle, for example, has not led to 
low-cost, routine, and reliable access to space; the Space Station is 
no longer being designed to provide a space-based platform to assemble 
and launch missions beyond Earth's orbit. Some advocates of a bolder 
mission for NASA argue that both the Shuttle and the Space Station 
consume large amounts of money simply to send humans repeatedly into 
Low-Earth Orbit (LEO) without moving toward any more ambitious or 
compelling goal. Others point out that the Space Station could 
contribute to future missions by providing data on how the human body 
reacts to prolonged stays in space. It is not clear how the Orbital 
Space Plane--the next vehicle on the drawing boards at NASA--would 
contribute to future missions. While NASA has talked about having the 
Space Plane contribute to longer-range goals, it is being designed only 
to ferry astronauts back and forth to the Space Station.

What technological barriers must be overcome? Human space flight is 
inherently dangerous. Human space exploration beyond Earth orbit is 
particularly hazardous because the radiation environment beyond the 
protective Van Allen belts\1\ is much greater than the radiation levels 
experienced on the Space Station. Furthermore, the increased distance 
from Earth makes it impractical, and in some cases impossible, to 
return quickly if a problem arises. Also, it has been clearly 
demonstrated that near-zero-gravity has a slowly debilitating effect on 
human physiology. For example, astronauts can lose between six and 24 
percent of their bone mass over the course of a year in space.\2\ 
Depending on the duration and destination of the mission, improved 
technologies for propulsion, power, and life support systems may need 
to be developed.
---------------------------------------------------------------------------
    \1\ The Van Allen Belts are layers of charged high-energy particles 
located above Earth's atmosphere (4000 to 40,000 miles up). The Earth's 
magnetic field traps the particles and protects astronauts on the Space 
Station from cosmic radiation.
    \2\ http://spaceresearch.nasa.gov/general<INF>-</INF>info/
issphysiology.html

What can we afford? The U.S. spends more than $6 billion annually on 
human space flight, including the Space Shuttle, Space Station, and 
Space Station research. This amount accounts for more than 40 percent 
of NASA's budget. Both Space Station and Space Shuttle have cost 
significantly more than originally expected and, following the Columbia 
tragedy, Shuttle costs are likely to increase. A large and sustained 
investment is likely to be necessary for any ambitious human space 
flight mission to succeed. NASA spending accounted for as much as 3.5 
percent of the entire federal budget during the Apollo program, but 
today represents less than one percent of federal spending. Is the U.S. 
prepared to make NASA a sustained funding priority?

4.  Background--Previous Studies on Future Goals for Space\3\
---------------------------------------------------------------------------

    \3\ Based on Congressional Research Service Report 95-873, Space 
Activities of the United States, CIS [the Commonwealth of Independent 
States] and other Launching Countries/Organizations 1957-1994, Marcia 
S. Smith, Specialist in Science and Technology Policy
---------------------------------------------------------------------------
    Over the last 40 years, numerous studies, commissions, and task 
forces have attempted to address the future of the U.S. civil space 
program, and the human space flight program in particular. The 
following provides a summary of several key studies.
National Commission on Space--(The Paine Commission, 1986)
    In 1984, Congress created a commission to look at the long-term 
future of the civil space program. Chaired by former NASA Administrator 
Thomas O. Paine, the 15-member panel spent a year developing a 50-year 
plan. This plan was detailed in their report Pioneering the Space 
Frontier. In summary, the Commission called for the United States to 
lead the way in opening the inner solar system for science, 
exploration, and development. The Commission envisioned the 
establishment of bases on the Moon and Mars and the creation of a 
routine transportation system among the Earth, Moon, and Mars. The 
Commission emphasized that it was not trying to predict the future, but 
rather show what the United States could do if it chose to do so. The 
Commission envisioned human exploration missions returning to the Moon 
by 2005 and going to Mars by 2015. The report detailed a program 
involving both robotic and human exploration, acting synergistically to 
achieve the goal of opening the solar system. The report did not 
provide a cost estimate for carrying out its recommendations, but 
identified three principal benefits: (1) advancement of science and 
technology; (2) economic benefit of low-cost launch systems; and (3) 
opening up new worlds on the space frontier.
Leadership and America's Future in Space--(The Ride Report, 1987)
    Astronaut Sally Ride's report Leadership and America's Future in 
Space was prepared as an internal NASA report. The report stated that 
the U.S. had lost its leadership in space and was in danger of being 
surpassed by other countries. The report argued that to regain 
leadership the U.S. space program must have two attributes: (1) a sound 
program of scientific research and technology development; and (2) 
significant and visible accomplishments. The report detailed four 
programs areas for comparatively near-term (15-20 year) activities: 
Mission to Planet Earth (now called Earth Science), robotic exploration 
of the solar system, a Moon base, and sending humans to Mars. The 
report recommended that NASA pursue programs in each of these areas. 
The report envisioned humans returning to the Moon by 2000, preceded by 
robotic probes to select a site for the Moon base. The report proposed 
one-year expeditionary missions to Mars between 2005 and 2010. The 
report concluded that settling Mars should be an eventual goal. As a 
result of the Ride report, NASA established the Office of Exploration 
to investigate long-range proposals for human exploration to the Moon 
and Mars.
President Bush's Space Exploration Initiative (SEI)--1989-1993
    On July 20, 1989, the 20th anniversary of the first Apollo landing 
on the Moon, President Bush made a major space policy address, 
endorsing the goal of returning humans to the Moon and then going on to 
Mars ``in the 21st Century.'' The program was referred to as the Space 
Exploration Initiative (SEI). At the time the President made his 
statement in 1989, the Director of the Office of Management and Budget 
suggested that the program would cost $400 billion over 30 years. While 
Congress endorsed the philosophy of the program, Congress was reluctant 
to approve the program because of the expected cost. The SEI program 
was formally terminated in 1993 and the NASA Office of Exploration was 
dismantled.

The Advisory Committee on the Future of the U.S. Space Program--(The 
        Augustine Report, 1990)
    In 1990, concerns about problems with several NASA programs (Hubble 
Space Telescope's flawed mirror, hydrogen leaks grounding the Shuttle 
for five months, and several issues with the Space Station program) 
prompted the White House to strongly encourage NASA to establish an 
outside advisory panel to reviews its programs and management. The 
panel was chaired by then-Chairman and CEO of Martin Marietta Inc., 
Norman Augustine. The panel recommended that NASA's budget increase by 
10 percent per year after inflation. The report recommended activities 
for NASA in five major areas. They were: (1) Space Science (e.g., 
Hubble Space Telescope), which the report said should be NASA's highest 
priority and be maintained at 20 percent of NASA's overall budget; (2) 
Mission to Planet Earth (now called Earth Science); (3) Mission from 
Planet Earth, which would include robotic spacecraft needed as 
precursors to human exploration. The long-term goal would be human 
exploration of Mars. No specific timetable for this mission was set. 
Instead, the panel urged NASA to adopt a philosophy of ``go-as-you-
pay;'' (4) space technology, (i.e., design of subsystems and materials 
for spacecraft) for which the report said spending should double or 
triple; and (5) development of a ``heavy lift'' unmanned, expendable 
launch vehicle to complement the Space Shuttle. The panel stated that 
if the 10 percent budget increases were not available the programs 
should be prioritized as follows: (1) Space Science; (2) Mission to 
Planet Earth; (3) heavy lift launch vehicle; (4) technology 
development: and (5) Mission from Planet Earth.

National Academy of Sciences Study--The Human Exploration of Space, 
        1997
    In 1997, the Academy undertook a study of the role of science in 
human space exploration. The study examined scientific activities that 
must be conducted before human exploration beyond Earth orbit could be 
practically undertaken and science that would be enabled or facilitated 
by human presence. The study concluded that clear goals must be set and 
that an integrated science program, with the appropriate balance of 
human and robotic missions, to collect relevant data to enable future 
missions beyond Earth orbit should be pursued.
Columbia Accident Investigation Board (CAIB)--(The Gehman Report, 2003)
    In its August report, the CAIB concluded that there was a 
problematic mismatch between NASA's missions and its budget. This 
occurred because NASA and/or Congress failed to scale back NASA's 
missions when funding did not match requested levels or when initial 
cost estimates proved to be inaccurate. The CAIB also pointed out that 
``for the past three decades, NASA has suffered because of the ``lack. 
. .of any national mandate providing NASA a compelling mission 
requiring human presence in space.'' The CAIB stated that investments 
in a ``next generation launch vehicle'' will be successful only if the 
investment ``is sustained over the decade; if by the time a decision to 
develop a new vehicle is made there is a clearer idea of how the new 
space transportation system fits into the Nation's overall plans for 
space; and if the U.S. Government is willing at the time a development 
decision is made to commit the substantial resources required to 
implement it.'' For further CAIB comments, see Attachment A.

5. Witnesses

Dr. Michael Griffin is the President and Chief Operating Officer of In-
Q-Tel. He has nearly 30 years of experience managing information and 
space technology organizations. Dr. Griffin has served as Executive 
Vice President and CEO of Magellan Systems Division of Orbital Sciences 
Corporation, and as EVP and General Manager of Orbital Space Systems 
Group. Prior to that he served as both the Chief Engineer and Associate 
Administrator for Exploration at NASA, and at the Pentagon as the 
Deputy for Technology of the Strategic Defense Initiative Organization.

Dr. Wesley T. Huntress is the Director of the Carnegie Institution's 
Geophysical Laboratory. From 1993 to 1998 he was NASA's Associate 
Administrator for Space Science. In this position he was responsible 
for NASA's programs in Astrophysics, Planetary Exploration and Space 
Physics. Previously, he was Director of the Solar System Exploration 
Division. Dr. Huntress earned his B.S. in Chemistry at Brown University 
in 1964, and his Ph.D. in Chemical Physics at Stanford University in 
1968. He is the recipient of a number of honors including the NASA 
Exceptional Service Medal.

Dr. Matthew B. Koss is an Assistant Professor of Physics of the College 
of Holy Cross in Worcester, Massachusetts. He has been the Lead 
Scientist on several Space Shuttle microgravity flight experiments 
flown on STS-62, STS-75, and STS-87. He received an AB degree from 
Vassar College in 1983 and a Ph.D. in Experimental Condensed Physics 
from Tufts University in 1989.

Dr. Alex Roland is Professor of History and Chairman of the Department 
of History at Duke University, where he teaches military history and 
the history of technology. From 1973 to 1981 he was a historian with 
NASA. He has written and lectured widely on the United States manned 
space flight program. He is past President of the Society for the 
History of Technology and of the U.S. National Committee of the 
International Union for the History and Philosophy of Science.

Dr. Bruce Murray is Professor Emeritus of Planetary Science and Geology 
at the California Institute of Technology. He was Director of the NASA/
Caltech Jet Propulsion Laboratory from 1976 to 1982, which included the 
Viking landings on Mars and the Voyager mission through Jupiter and 
Saturn encounters. In 1979, he, the late Carl Sagan, and Louis Friedman 
founded The Planetary Society. He has published over 130 scientific 
papers and authored or co-authored six books. He received his college 
education at M.I.T., culminating in the Ph.D. in 1955.

6. Witness Questions

    All the witnesses except Dr. Koss were asked to layout an option 
that they believed NASA should pursue and answer the following 
questions in their testimony:

        <bullet>  What is the U.S. likely to gain by your proposed 
        option for human space flight and why could such gains not be 
        obtained in other ways?

        <bullet>  What is a rough estimate of the costs of pursuing 
        your proposed option? What is the approximate amount of time 
        that it would take to achieve the goals of your proposed 
        option?

        <bullet>  What are the technical hurdles that must be overcome 
        in pursuing your option and the steps that must be taken to 
        overcome those hurdles? (i.e., are there intermediate program 
        goals and when might these be achieved?)

        <bullet>  What are the implications of your option for the 
        current human space flight program? To what degree does the 
        current program contribute to, or impede other options that 
        could be pursued?

    Dr. Koss was asked to answer these questions:

        <bullet>  How necessary is it to have the participation of 
        people in space for successful research in material sciences? 
        What proportion, if any, of the experiments now conducted on 
        the Space Shuttle or Space Station could be conducted 
        autonomously with unmanned systems? If researchers no longer 
        had access to the Space Shuttle or Space Station how would 
        advancement in the material sciences be affected?

        <bullet>  What alternatives exist to carry to orbit micro-
        gravity experiments that could be conducted autonomously if the 
        Space Shuttle or Space Station were not available for whatever 
        reason? If none, how much would it cost NASA to provide 
        researchers such an alternative?

        <bullet>  To what extent, if any, would a more ambitious 
        mission for NASA, such as sending people back to the Moon or to 
        Mars, be likely to provide material science researchers with 
        unique opportunities for experimentation?

7. Attachments:

        <bullet>  Attachment A: Excerpt from the Columbia Accident 
        Investigation Board Report.

        <bullet>  Attachment B: NASA's five-year budget runout.

        <bullet>  Attachment C: Editorial by Dr. Matthew B. Koss.

ATTACHMENT A

Excerpted from the Columbia Accident Investigation Board Report Volume 
        1, Chapter 9, August 2003.

``Lack of a National Vision for Space''

    In 1969 President Richard Nixon rejected NASA's sweeping vision for 
a post-Apollo effort that involved full development of low-Earth orbit, 
permanent outposts on the Moon, and initial journeys to Mars. Since 
that rejection, these objectives have reappeared as central elements in 
many proposals setting forth a long-term vision for the U.S. Space 
program. In 1986 the National Commission on Space proposed ``a 
pioneering mission for 21st century America: To lead the exploration 
and development of the space frontier, advancing science, technology, 
and enterprise, and building institutions and systems that make 
accessible vast new resources and support human settlements beyond 
Earth orbit, from the highlands of the Moon to the plains of Mars.'' 
\4\ In 1989, on the 20th anniversary of the first lunar landing, 
President George H.W. Bush proposed a Space Exploration Initiative, 
calling for ``a sustained program of manned exploration of the solar 
system.'' \5\ Space advocates have been consistent in their call for 
sending humans beyond low-Earth orbit as the appropriate objective of 
U.S. space activities. Review committees as diverse as the 1990 
Advisory Committee on the Future of the U.S. Space Program, chaired by 
Norman Augustine, and the 2001 International Space Station Management 
and Cost Evaluation Task Force have suggested that the primary 
justification for a space station is to conduct the research required 
to plan missions to Mars and/or other distant destinations. However, 
human travel to destinations beyond Earth orbit has not been adopted as 
a national objective. The report of the Augustine Committee commented, 
``It seems that most Americans do support a viable space program for 
the Nation--but no two individuals seem able to agree upon what that 
space program should be.'' \6\ The Board observes that none of the 
competing long-term visions for space have found support from the 
Nation's leadership, or indeed among the general public. The U.S. 
civilian space effort has moved forward for more than 30 years without 
a guiding vision, and none seems imminent. In the past, this absence of 
a strategic vision in itself has reflected a policy decision, since 
there have been many opportunities for national leaders to agree on 
ambitious goals for space, and none have done so.''
---------------------------------------------------------------------------
    \4\ National Commission on Space Pioneering the Space Frontier: An 
Exciting Vision of Our Next Fifty Years in Space, Report of the 
National Commission on Space (Bantam Books, 1986), p. 2.
    \5\ President George H.W. Bush, ``Remarks on the 20th Anniversary 
of the Apollo 11 Moon Landing,'' Washington, D.C., July 20, 1989.
    \6\ ``Report of the Advisory Committee on the Future of the U.S. 
Space Program,'' December 1990, p. 2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
ATTACHMENT C

Copyright 2003 The New York Times Company
The New York Times

June 29, 2003, Sunday, Late Edition--Final

                  How Science Brought Down the Shuttle

                           By Matthew B. Koss
    Matthew B. Koss is an assistant professor of physics at the College 
of the Holy Cross.

    As a scientist whose experiments were carried out on three missions 
of the Space Shuttle Columbia, I have been following with great 
interest the findings of the board looking into the Shuttle's demise. 
Though a piece of foam may be found ultimately responsible, as the 
Columbia Accident Investigation Board announced last week, on some 
level I feel personally culpable for the loss of the seven astronauts. 
In-orbit experiments like mine have been used to justify manned space 
projects like the Shuttle for decades.
    The truth is that the vast majority of scientific experiments 
conducted in orbit--including my own--do not require astronauts. The 
main reason for in-orbit experimentation is to observe how a scientific 
process works without gravity-driven influences. But almost all of 
these tests, save those that must be done on humans, can be controlled 
from the ground via computer or by robots in space. In fact, some of 
the best work is done this way when the crew is asleep, not moving 
about and causing vibrations.
    To be sure, a lot of important science has been conducted in orbit. 
For example, research on the large single crystals of silicon that are 
at the heart of computer chips arose from the many detailed studies of 
crystal growth on the Space Shuttle. But, in fact, experiments like 
these are often more efficient and yield more fruitful results when 
done without the involvement of astronauts.
    The science performed on the Shuttle can be classified as either a 
payload or a mid-deck laboratory experiment. Payload experiments are 
self-contained packages mounted in the payload bay, the wide open space 
in the back of the Shuttle. They either run autonomously or are 
controlled remotely via computers on the ground. Laboratory experiments 
are performed in the mid-deck or Spacelab module, and are done by the 
astronauts with computer assistance from the ground.
    My experiments, on the fundamentals of how liquids turn into 
solids, were originally planned for the mid-deck, where they would be 
controlled by an astronaut who was scheduled to do eight tests. But 
because of launching delays, the project was changed to a payload 
experiment that would perform tests autonomously. During the flight, 
initial data was transmitted to the ground and analyzed by me and my 
colleagues. Performing the experiment remotely, without crew 
involvement, allowed us to do 63 test runs.
    (Remote-controlled experiments may seem to contradict images we 
have grown accustomed to--of happy, busy astronauts manipulating 
scientific equipment or talking about the science on board, or 
occasionally reporting on the objectives of experiments. But this 
public image of astronauts as laboratory scientists working on their 
own experiments is a bit misleading. Since the Mercury 7 pioneers, the 
astronaut corps has served one overriding political and public 
relations purpose--to sell the space program.
    The idea of using the Space Shuttle as a scientific laboratory 
actually came about after the Shuttle's design was already in place. 
The Shuttle program was conceived in the waning days of the Apollo 
program as the best option to continue a manned space program at the 
lowest cost. However, without a place to shuttle to, and not nearly 
enough satellites that needed a Shuttle to launch or repair them, the 
Shuttle program succeeded in doing little beyond creating a human 
presence in space. The idea of the Shuttle as an in-orbit lab was used 
as a justification for investment in its future.
    Similarly, the International Space Station has been aggressively 
marketed as a science lab. In fact, the Station is seriously flawed in 
that too much crew time needs to be committed to Station maintenance, 
and too many of the planned experiments depend on crew operations when 
they could more effectively be done without them. In many cases, the 
crew is needed only to deploy an autonomous experiment.
    Because of cost overruns and budget problems, the Station's crew 
was cut back to three from the planned seven. Originally, 120 
astronaut-hours per week were to have been devoted to science; this has 
been cut back to 20 hours per week. With the Shuttle program grounded 
once again, it has become even more difficult to exchange crews, 
replace experiments or repair and refurbish equipment.
    Scientific experimentation in space can be safer and more cost 
effective using long-duration remote controlled orbital spacecraft. At 
the outset, the costs of developing this technology may appear greater 
than simply perfecting the Shuttle. But if you do not need to provide a 
safe and sustaining environment for astronauts--making sure takeoffs 
and landings aren't too fast, providing enough food and oxygen--the 
overall cost will be significantly reduced.
    If NASA is not able to convince the public of the importance of 
science in orbit without astronaut involvement, then so be it. At least 
America's refusal to support science would be honest, would not 
needlessly endanger human lives or compromise the integrity of science 
and scientists.
    We will always need astronauts to assume certain risks to develop 
the technology that allows for human exploration of space. The space 
shuttles and space stations may be necessary to fulfill that mission. 
However, we need to separate the goal of scientific experimentation 
from the desire for space exploration. I hope that the unfortunate 
death of the Columbia astronauts will forever sever the false link that 
has been created between the two.
    Astronauts do not risk their lives to perform scientific 
experiments in space. They fly to fulfill a much more basic and human 
desire--to experience the vastness of space.
    Chairman Boehlert. Now we get to the main event.
    I want to welcome the panel here today.
    On the Columbia accident, both witnesses and Members 
repeatedly made the point that NASA has suffered from the lack 
of a clear national vision for the future of human space 
flight. Over the long-term, NASA will be successful only if it 
is pursuing progress to include an agreement to pay for 
whatever vision is outlined.
    In many respects, we have the easiest task. It is easy for 
us to follow this program on a daily basis, are totally 
immersed in it, to have a grand vision, and authorize tons of 
money to help us achieve that vision, but it does no good if we 
just do our job and the appropriations don't follow, the 
Administration doesn't follow with the appropriate budgetary 
requests. NASA needs to do its part by coming up with credible 
cost estimates and schedules for projects, something that has 
been sorely lacking in recent decades, excuse me, and something 
that has not been done yet for the next human space flight 
project, the orbital space plane.
    Second, we need to keep in mind that human space flight is 
not the only NASA responsibility or, as far as I am concerned, 
the most important of its responsibilities, important though it 
is. I think the Augustine Commission got it right back in 1990 
when it listed space science and Earth science as NASA's top 
priorities and added several more activities in order of 
importance before it got to human space flight.
    Third is a related point. NASA will not have an unlimited 
budget. The Federal Government has too few resources and too 
many obligations to give NASA a blank check. Anything that 
assumes massive spending increases for NASA is doomed to fail. 
That is especially true in the near future when the focus 
should be on getting the agency's house in order to carry out 
its current task.
    Fourth, we need to be honest about the purposes and 
challenges inherent in human space flight. Our witnesses today 
are pretty honest in their testimony on this point and we thank 
them for that. The primary reason for human space flight is the 
human interest, some would say destiny, to explore. Human 
exploration is not necessarily the best way to advance science 
or technology and it certainly is the most expensive and 
riskiest way to do things. I would add that nothing about 
China's launch, and we congratulate the Chinese for the success 
of that mission, augment these statements.
    Fifth, we need to learn from the mistakes we have made over 
the past 30 years. The Space Shuttle and the Space Station are 
remarkable achievements, something we are all too prone to 
forget, but they are also extraordinarily expensive projects, 
mind-bogglingly expensive compared to the original estimates, 
and they haven't performed as advertised or done as much as 
hoped to advance human exploration or knowledge. We have to 
avoid going down the same paths in the future.
    So we need to be thoughtful and deliberate and coldly 
analytical in putting together a vision for the future of human 
space flight. It has to be a long-term vision. We are not about 
to embark on any crash program. The technical challenges alone 
are enough to prevent that.
    We have assembled today an extraordinary panel to help sort 
these issues out, and I look forward to hearing from them.
    The Chair recognizes the distinguished Ranking Member, the 
gentleman from Texas, Mr. Hall.
    [The prepared statement of Mr. Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    I want to welcome everyone here this morning to this important 
hearing. At our previous hearings on the Columbia accident, both 
witnesses and Members repeatedly made the point that NASA has suffered 
from the lack of a clear national vision for the future of human space 
flight. Over the long-term, NASA will be successful only if it is 
pursuing a clear and broad national consensus with sustained and 
adequate funding.
    As the Columbia Accident Investigation Board (CAIB) noted in its 
report, that hasn't been the case for three decades.
    Now, we ought to admit that one reason such a consensus has been 
lacking is that it's hard to reach and even harder to pursue over time. 
We need to be candid and realistic about that in our discussions today. 
And our vision can't be based on some dreamy, a historical view that we 
can recreate the Apollo era.
    I, personally, don't know yet what that vision for the future of 
human space flight should be. Today's hearing is just the beginning of 
our efforts to build a national consensus. But I do think there are 
some principles and ideas we need to keep in mind as we develop a 
consensus.
    First, any consensus has to be arrived at jointly by the White 
House, the Congress and NASA, and the consensus has to include an 
agreement to pay for whatever vision is outlined. NASA needs to do its 
part by coming up with credible cost estimates and schedules for 
projects--something that has been sorely lacking in recent decades and 
something that has not been done yet for the next major human space 
flight project, the Orbital Space Plane.
    Second, we need to keep in mind that human space flight is not the 
only NASA responsibility, or, as far as I'm concerned, the most 
important of its responsibilities. I think the Augustine Commission got 
it right back in 1990 when it listed space science and Earth science as 
NASA's top priorities, and added several more activities in order of 
importance before it got to human space flight.
    Third is a related point, NASA will not have an unlimited budget. 
The Federal Government has too few resources and too many obligations 
to give NASA a blank check. Any vision that assumes massive spending 
increases for NASA is doomed to fail. That is especially true in the 
near future when the focus should be on getting the agency's house in 
order to carry out its current tasks.
    Fourth, we need to be honest about the purposes and challenges 
inherent in human flight. Our witnesses today are pretty honest in 
their testimony on this point. The primary reason for human flight is 
the human impulse--some would say destiny--to explore. Human 
exploration is not necessarily the best way to advance science or 
technology, and it certainly is the most expensive and riskiest way to 
do so. I would add that nothing about China's launch alters these 
statements.
    Fifth, we need to learn from the mistakes we've made over the past 
30 years. The Space Shuttle and the Space Station are remarkable 
achievements--something we are too prone to forget. But they are also 
extraordinarily expensive projects--mind-bogglingly expensive compared 
to the original estimates--and they haven't performed as advertised or 
done as much as hoped to advance human exploration or knowledge. We 
have to avoid going down the same paths in the future.
    So, we need to be thoughtful and deliberate and coldly analytical 
in putting together a vision for the future of human space flight. It 
has to be a long-term vision; we're not about to embark on any crash 
program--the technical challenges alone are enough to prevent that.
    We have assembled today an extraordinary panel to help us sort 
these issues out and I look forward to hearing from them. Mr. Hall?

    Mr. Hall. Mr. Chairman, thank you for that brief statement, 
and I am going to put my statement in the record. It is one of 
the best ones I have ever read, and I am really recommending to 
the rest of the Committee and all who have access, but in the 
interest of time and because of the excellent panel that we 
have--and I was going to even quote Dr. Griffin, I will go and 
put his quote in there when he said, ``The international faith 
and credibility of the United States is tied, in part, to the 
orderly completion of International Space Station. We must 
complete its construction to include the original seven-man 
crew capability and establish a utilization plan for the 
facility that returns as much value as possible.''
    And the last thing is I believe we have the means to start 
an exciting chapter in human exploration. We just need to 
decide where we want to go and then get started.
    I would yield some time to the Chairman of the Space 
Subcommittee and yield back my time when he finishes with his 
time that I am lending him of my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Good morning. I would like to welcome the witnesses to today's 
hearing. We appreciate all of you taking the time to come to the Hill 
to help us determine where the Nation should go with its human space 
flight program.
    Today's hearing is especially timely given the successful launch 
and recovery of China's first astronaut. China is now the third nation 
to be able to send its people into space. I want to congratulate the 
Chinese people on this achievement, and I wish them well.
    I would also note that the Chinese have indicated that this week's 
launch is just the first step in an ambitious and incremental program 
of human space exploration. It seems to me that we can take a lesson 
from their evident commitment to a phased set of goals for human space 
flight. I believe that we would profit as a nation from following that 
same approach.
    Mr. Chairman, it is proper that we take some time in the aftermath 
of the Space Shuttle Columbia accident to determine the best path 
forward. However, I think we should move beyond a debate on whether or 
not we should have a human space flight program. There should no longer 
be a question of robotic versus human exploration--clearly, both will 
be needed to explore our solar system. Moreover, it has been clear 
since the early years of the Space Age that the human exploration of 
space is a fundamental expectation of the American people--indeed of 
people all over the world. Revisiting the debate over the role of human 
space flight in the aftermath of an accident is understandable. 
However, I think that it also symptomatic of our unwillingness as a 
nation to commit to a clear set of goals for. the human space flight 
program and to the resources required over the long haul to achieve 
them. We can and should do better.
    As you know, Rep. Nick Lampson on our Committee has re-introduced 
legislation that he first introduced in the 107th Congress. His bill, 
the ``Space Exploration Act of 2003'' (H.R. 3057), would establish a 
phased set of goals for America's human space flight program, whereby 
the achievement of each goal helps provide the capabilities needed to 
attain successive goals. Adoption of Rep. Lampson's bill would go a 
long way towards providing a rational framework for our human space 
exploration investment decisions. I am happy to be a co-sponsor, and I 
hope that other Members will join me in the coming days.
    However, whatever legislative approach we wind up taking, I hope 
that today's hearing will start the process of coming to some consensus 
on concrete goals.
    At the same time, we cannot allow our focus on the future to 
distract us from the needs of the present. It is clear to me that any 
talk of bold new human exploration initiatives will ring hollow unless 
we are first prepared to meet our existing commitments. In particular, 
I would echo the sentiments expressed by one of our witnesses, Dr. 
Griffin, when he states: ``. . .the international faith and credibility 
of the United States is tied, in part, to the orderly completion of the 
International Space Station. We must complete its construction, to 
include the original seven-man crew capability, and establish a 
utilization plan for the facility that returns as much value as 
possible.''
    In addition, NASA will need to ensure over the near-term that 
adequate contingency plans are in place to protect the viability of the 
Space Station in the event of further delays in the Shuttle return-to-
flight schedule. I hope and expect that such plans are in preparation.
    Mr. Chairman, budgets are likely to be tight for the foreseeable 
future. That's the reality. As a result, it is even more important that 
Congress and the Administration need to work together to come up with a 
clear set of goals for the future of the human space flight program. 
Given goals, we can then determine how much we can afford to expend on 
an annual basis towards meeting those goals. I believe we have the 
means to start an exciting chapter in human exploration. We just need 
to decide where we want to go and then get started.

    Chairman Boehlert. Are you yielding to Mr. Rohrabacher or 
Mr. Gordon?
    Mr. Hall. Well, either one.
    Chairman Boehlert. It is--the Chair recognizes the 
distinguished Ranking Member of the Subcommittee on Space.
    Mr. Hall. And I ask that my entire statement be placed in 
the record.
    Chairman Boehlert. We would not miss that.
    Mr. Hall. Thank you, sir.
    Chairman Boehlert. Without objection, so ordered.
    Mr. Gordon. Thank you, Mr. Chairman, and thank you, Mr. 
Hall, for yielding your time.
    Let me first state that I listened to the Chairman's 
remarks with interest. And I want to say that I thought they 
were thoughtful. I concur. I think that it is a good benchmark 
for all of us, and----
    Mr. Hall. Don't thank him too much. He is hard to live 
with.
    Mr. Gordon. Well, I mean this believer is right. And I 
think that if we follow that lead we will go on in a very good 
direction.
    We do need to get on and hear the witnesses, so let me just 
add my quick welcome. There are a couple of issues that I would 
like to hear discussed today. First, while I am obviously not 
an expert in these matters, it seems to me that having a base 
on the Moon would be a useful step for a variety of reasons, 
one of which certainly would be further human space 
exploration, if nothing else. Such a base would be needed to 
test many of the technologies and techniques required for human 
exploration. I would like to know your theories on that.
    Also the NASA Administrator says his vision for exploration 
is not about destinations. Instead, NASA will first develop 
technologies and then decide where to go. Somehow, that seems 
backwards to me. It seems to me that unless we are willing 
fully to commit to some concrete goals, NASA's technology 
investments will lack and be unfocused, inefficient, and wind 
up costing more than necessary. In addition, the reality is the 
technology programs that are not tied to specific and agreed-
upon mission goals become very vulnerable to budget cuts or 
even cancellation over time.
    So as you go through your remarks, I hope that you can 
address these two issues. And thank you very much for being 
here with us today.
    Chairman Boehlert. Thank you very much. And all other 
Members of the Committee are at leave to enter your remarks in 
the record at this juncture.
    [The prepared statement of Mr. Rohrabacher follows:]

         Prepared Statement of Representative Dana Rohrabacher

    I want to thank the Chairman for holding this timely hearing on the 
Future of Human Space Flight. Columbia's tragic destruction has once 
again demonstrated that the risk of human space flight include the 
ultimate sacrifice, and Columbia's courageous crew understood that. 
Their sacrifice, however, may provide this nation the needed spark to 
re-examine its requirements for exploring and conquering space. Because 
we are spending a lot of money and lives for exploration and discovery, 
the Nation must know why it is sending humans into space.
    The American space experience is about expanding human freedoms and 
having higher expectations. We do neither if we lack a clear vision of 
purpose for our national civil space program. Unlike the 1960s, today's 
NASA lacks a unifying and overarching purpose for planning human space 
flight missions beyond the Space Station. While we struggle with 
finding a compelling reason for a human presence in space, the Chinese 
Government had sent its first astronaut into orbit last Tuesday 
evening. If this flight is successful, the Chinese hope to possibly 
build a space station and explore the Moon within this decade. Recent 
scientific studies reveal that the Moon may contain five times more 
water than previously believed, as well as minerals that hold the 
promise of clear burning fuel for use here on Earth. The Chinese long-
term human space flight program suggests that the Moon is more than 
just a place for planting flags and picking up rocks.
    China's quest for reaching the stars, however, is driven by more 
than discovery. The U.S. national security community has always 
suspected that China's ballistic missile and military reconnaissance 
capabilities are major components of a ``national integrated space 
capability'' with human space flight being a key element. I fear human 
space travel that beckons China will be used to tout its communist 
system. We must seize the opportunity now to develop a new game plan 
for our human space flight program--not to mimic a foreign power's 
pursuits, but to honor those courageous individuals that sacrificed 
all, and to benefit humankind.
    The tragic episodes of Columbia, Challenger, and even the first 
Apollo mission must not weaken our resolve to meet the challenges in 
the decades to come.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Representative Nick Smith

    This is an important hearing discussing future of human space 
flight. I would also like to thank our distinguished witnesses for 
joining us.
    The real question we need to be asking is ``What is the purpose of 
NASA?'' Our last hearing revealed that there is little consensus on 
this fundamental question. Only once this question is answered, can we 
ask how human space flight contributes to that purpose.
    So what should be the purpose of NASA? One perspective is that NASA 
could continue as a scientific research program. NASA has had successes 
with a scientific research oriented policy. We have sent probes to 
Mars, Venus, Jupiter, and the outlying planets. Data, collected by the 
Galileo probe, which ended its mission last month, suggests that there 
is much room for important research to be continued in Jupiter's moons. 
The Hubble telescope is producing important insights into the nature of 
the universe. For example, just in the last six months, scientists have 
used the Hubble to confirm Einstein's hypothesis about dark energy. 
Automated and remotely controlled experiments on the Shuttle have been 
extremely fruitful. NASA has had and should have a science-first 
orientation, and it has had dramatic successes and can make substantial 
scientific advances.
    Others propose that advancing human space flight should be front 
and center of NASA's purpose. Advocates of this position argue that we 
should, in effect, continue and extend President Kennedy's vision to 
occupying the Moon, Mars, and low-Earth orbit. Kennedy wanted to 
demonstrate the superiority of American technological and economic 
power.
    I do not find this persuasive. We were not pursuing human space 
flight for the sake of human space flight. We were furthering a 
national agenda by proving the superiority of our economic and 
political system. Today, this purpose is not there, and this argument 
does not translate well to today, even with yesterday's completion of 
the Chinese mission.
    Some people have argued that we need to continue human space flight 
to support scientific research. However, both Dr. Roland and Dr. Koss 
indicate in their testimony today how little scientific benefit human 
presence provides. Only human physiological research requires humans in 
space.
    The question must be: what produces the best and most cost 
effective scientific research? The problem with manned space flight is 
that whatever mission the flight started with, the mission always 
becomes getting the people back home safely. This not only undermines 
the scientific mission, but it increases costs enormously.
    Again, I would like to thank the Chairman and Ranking Member for 
holding this hearing on the future of human space flight. It serves to 
shine a light on the important issue that this committee must grapple 
with: what is the purpose of NASA?

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to examine the range of options for the future of the 
Nation's human space flight program.
    When NASA began 45 years ago, there was a national drive and 
enthusiasm for space exploration. The Apollo program to send an 
American to the Moon by the end of the 1960s was tied to the broader 
national goal of winning the Cold War. With both the President and the 
country energized, the U.S. was able to reach new heights and 
accomplish its goal by landing on the Moon in 1969. In an era when 
Shuttle launches are commonplace, this enthusiasm has significantly 
decreased. In the aftermath of the Columbia accident and the Columbia 
Accident Investigation Board report, we have an important opportunity 
to examine the goals of the human space flight program and make 
comprehensive decisions about its future direction.
    My colleague, Nick Lampson, has taken an important first step in by 
introducing H.R. 3057, the Space Exploration Act, and I am pleased to 
be a co-sponsor. His legislation assists in establishing a vision for 
NASA's human space flight program. H.R. 3057 sets specific incremental 
goals that are challenging and build capabilities and infrastructure 
needed for an ultimate human mission to Mars. The goals established by 
the Space Exploration Act of 2003 are sequenced in terms of increasing 
difficulty and complexity. Achieving the earlier goals will provide the 
capabilities needed for humans to explore other parts of the inner 
solar system while supporting the Nation's scientific objectives. It is 
my hope the Committee will incorporate these goals in a NASA 
reauthorization bill.
    Further, as you know, China recently launched its first astronaut 
into orbit and intends to continue a long-range program of human space 
flight activities. I am interested to know how a sustained Chinese 
human space flight program will impact the United States.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    First of all, I would like to thank Chairman Boehlert and Ranking 
Member Hall for calling us together to discuss this all too important 
issue.
    The purpose of this hearing is to examine obstacles to advancing 
commercial human space travel.
    In 1961, President Kennedy set the national policy goal of landing 
an American on the Moon by the end of the decade of the 1960s.
    I have said this many times before, and I will say it again: The 
space exploration research program has been one of the most successful 
research programs in the history of this country. Research provided by 
our human space program has yielded many lifesaving medical tests, 
accessibility advances for the physically challenged, and products that 
make our lives more safe and enjoyable.
    Over 40 years ago, our leaders in the space program had the 
foresight to get us to get into this type of research. We also owe 
those leaders some homage for their foresight, and I am hoping that we 
will then have the foresight to continue this type of research.
    Currently, there is substantial debate on how our Human Space 
Flight program should continue. Some contend that human space flight is 
currently too risky and we should reduce flights or rely upon robotic 
surrogates. Others contend that the value we gain from human space 
flight warrants the risk and that we should return to flight levels we 
had before the Challenger disaster.
    But it is imperative that we stay ever so mindful of the safety 
issue. Space travel is inherently dangerous. Our success in this vital 
national endeavor depends on our never overlooking this basic truth. 
The assets and human lives that are risked in the exploration of space 
serve to underscore the value we place on the broad global benefits 
that it brings. The investment we make in their safety should equally 
underscore the value we place on them.

    [The prepared statement of Mr. Lampson follows:]

           Prepared Statement of Representative Nick Lampson

    I would like to welcome China into the human space flight club. As 
only the third nation to successfully launch a manned spacecraft, China 
truly has achieved an amazing feat with the launch of Shenzhou 5. I was 
pleased to see Yang Liwei return safely yesterday and look forward to 
future peaceful Chinese space missions.
    It has been reported that China has plans for future missions, 
including the development of a space station and human exploration of 
the Moon. While I do not believe that China's future human space flight 
plans should be interpreted as the beginnings of a 1960's era ``space 
race,'' yesterdays successful mission means that we can't continue 
business as usual at NASA.
    History has shown that great nations explore. The United States 
must not turn its back on human space exploration at this critical 
time. We must return the Space Shuttle to flight and complete 
construction of the International Space Station. At the same time, this 
Administration and this Congress must provide the American people with 
a vision and a concrete set of goals for the Nation's future human 
space flight program. It is clear that China has goals set by its 
leadership, and we need the same.
    I am attempting to push NASA in this direction with my Space 
Exploration Act (H.R. 3057). This bill requires NASA to design and 
implement a long range vision for our future in space.
    The phased series of goals over the next 20 years that I propose in 
this legislation includes human visits to the Earth-Sun liberation 
points and Earth-orbit crossing asteroids, deployment of a human-tended 
research and habitation facility on the Moon, and human expeditions to 
the surface and moons of Mars.
    Once America gets started on achieving the first of the human space 
flight goals listed in the bill, we have gotten over the highest hurdle 
to success in the entire initiative. We will once again be moving 
outward beyond low-Earth orbit. And in the process, we will revitalize 
our space program, energize our industrial and academic sectors, create 
new opportunities for international cooperation, and inspire our young 
people.
    The real obstacle we face in overcoming the drift in the Nation's 
human space flight program is not technological and it's not 
financial--it's the lack of commitment to get started.
    Yesterday China showed that they are committed to future space 
exploration--will the United States follow suit?

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    Thank you for calling this important hearing to explore the future 
of the human space flight mission of NASA. I would also like to commend 
Ranking Member Hall, as well as the Chair and Ranking Member Gordon of 
the Space Subcommittee for their leadership, and tireless work since 
the tragedy of February 1st to ensure that Congress and NASA are on the 
same page--working together to find the best way to get NASA's vital 
mission back on track.
    I am committed to the mission of NASA. NASA plays many roles, and 
means so much to America today. NASA is a source of dreams for our 
young and old alike. It provides insights into the origins and destiny, 
and wonder, of our universe. On the way to this noble goal, NASA 
develops innovations that spur on our economy and keep us on the 
cutting edge of technology.
    NASA also inspires young engineers and scientists to push their 
minds to new levels of excellence. These people become role models for 
future generations of intellectual pioneers. I believe that there is 
something about the majesty of seeing humans in space that has a unique 
capability to drive young imaginations and aspirations.
    I also believe that it will be the young scientists and explorers 
in space, looking at the universe unfolding around them, who come up 
with the next great discoveries and visions of future missions. Probes 
and robotics can do a lot, but they cannot look around and wonder, or 
dream, or be creative. That is the role of humans, and therefore, must 
be a role of the NASA human space flight mission.
    I do not want to see NASA become an exhibit in museums and history 
books, instead of being the leader in technology and exploration that 
it should be. At NASA over the past decade, there seems to be a 
fundamental disconnect between logic and policy. I feel one the 
underlying causes of this disconnect is the lack of a clear vision for 
the future of NASA. Once that vision is created, once a mission is 
designed, I believe that the needs to fulfill that mission will become 
much more obvious. As we decide the needs, I am confident that American 
policy makers, American scientists and engineers, and the American 
people will step up the plate and launch us into the next millennium. 
The first step though, must be the vision.
    Key reports--from the Paine Commission, the Ride Report, President 
Bush's SEI in 1993, and the Augustine Report--all talked of exciting 
and provocative missions, usually to Mars, or back to the Moon to set 
up a human colony. But decades later, we still are not making notable 
progress toward either of those goals.
    It seems that we are close to glory in space, but are just not 
demonstrating the necessary commitment, and boldness. That is why I 
joined my colleague from Houston, Nick Lampson, in sponsoring H.R. 
3057, which would ``restore a vision for the United States human space 
flight program by instituting a series of incremental goals that will 
facilitate the scientific exploration of the solar system and aid in 
the search for life elsewhere in the universe, and for other 
purposes.'' It would send a clear signal to the American people and to 
the world that America will be a leader in space, and that great things 
are to come.
    I thank this distinguished panel for taking the time to join us 
here today. I look forward to hearing their ideas about the role of 
humans in space exploration, and how they can fulfill that role safely. 
I think that H.R. 3057 is a strong start, but it will need to be 
refined to fit existing technology and scientific necessities. We all 
need to work together in this endeavor.
    NASA is obviously at a crossroads, and now is the time to make 
decisions and move forward.

    Chairman Boehlert. And we will go right to our very 
distinguished panel of witnesses: Dr. Michael D. Griffin, 
President and Chief Operating Officer of In-Q-Tel, Inc.; Dr. 
Wesley T. Huntress, Jr., Director of Geophysical Laboratory, 
Carnegie Institution of Washington; Dr. Matthew B. Koss, 
Assistant Professor of Physics, College of the Holy Cross; Dr. 
Alex Roland, Professor of History, Duke University; and Dr. 
Bruce Murray, Professor of Planetary Science and Geology 
Emeritus, California Institute of Technology.
    Let me say at the outset how much we appreciate all of you 
for being resources for this committee. We are here to listen. 
We are here to learn. We are here to have a dialogue as we 
develop a future vision for this important program.
    With that, Dr. Griffin, you are up first. And I would ask 
that you try to confine your opening remarks, and the Chair 
will not be arbitrary, to five minutes or so, which will give 
us ample opportunity to have the dialogue I referred to. Dr. 
Griffin.

   STATEMENT OF DR. MICHAEL D. GRIFFIN, PRESIDENT AND CHIEF 
               OPERATING OFFICER, IN-Q-TEL, INC.

    Dr. Griffin. Thank you, Mr. Chairman and Members of the 
Committee for inviting me to appear and giving me this 
opportunity to discuss the vision, the goals, and the future of 
human space flight.
    I will begin at this time to discuss what we should do and 
not what we have done wrong. I believe that the human space 
flight program is, in the long run, probably the most 
significant activity in which our nation is engaged. For what, 
today, do we recall renaissance Spain, King Ferdinand, and 
Queen Isabella? Unless one is a professional historian, the 
memory which is evoked is of their sponsorship of Columbus in 
his voyages of discovery. For what, in 500 years, will our era 
be recalled? We will never know, but I believe it will be for 
the Apollo lunar landings, if for anything at all. And this is 
entirely appropriate. Human expansion into space is a 
continuation of the ancient human imperative to explore, to 
exploit, to settle new territory when and as it becomes 
possible to do so. This imperative will surely be satisfied, by 
others if not by us.
    It may be argued that we have many difficult problems in 
greater need of immediate attention and resources than is human 
space flight. I agree with this argument. But even recognizing 
this reality, space flight is sparingly funded. In round 
numbers, fiscal year 2003 U.S. budget outlays were 
approximately $2.1 trillion while the U.S. population is 
currently just under 300 million, yielding an average liability 
of $7,000 per person, or about $20 a day for every man, woman, 
and child in the Nation. With the NASA budget at $15 billion a 
year, the civil space program costs each person in the Nation 
about $50 a year, or less than 14 cents per day. A really 
robust space effort could be had for a mere 20 cents a day from 
each person. I spend more than that on chewing gum. We, as a 
nation, quite literally spend more on pizza than we do on space 
exploration. So I don't think we are overspending on space. As 
wealthy as the United States is, it is certainly true that we 
can allocate only a small fraction of that wealth to the 
development of human space flight. But, in my opinion, we must 
allocate that fraction and we must spend it wisely. I don't 
think we are doing either.
    I think that although there are technical challenges, they 
do not seem to me to be the biggest problem that we have. We 
did not retreat from the Moon because of technical 
difficulties, we have not failed to go to Mars because of 
technical problems, and we have not taken 20 years to put a 
Space Station in orbit because of technical matters. In each 
case, the issues are matters of politics and leadership. 
Without a bipartisan, leadership-driven consensus that a 
vigorous space exploration program is essential to America's 
future, we will not have such a program, whether or not there 
are technical challenges to be overcome. It has been 40 years 
since a Chief Executive has propounded such a vision and made 
it stick, and no Congress has ever taken the initiative to do 
so. If the Nation's leaders can not say that space exploration 
is important and why, it will not occur.
    ``This new ocean,'' to use John F. Kennedy's famous phrase, 
has recently become accessible to us, albeit at great cost and 
difficulty. But despite the difficulty, it will be explored and 
exploited, it will be settled, by humans. The only questions 
are: which humans and when. While the answer to the first 
question will eventually be all humans, I am parochial enough 
to believe that those from our nation should be in the 
vanguard.
    So, recognizing that others may differ, for me, the single 
overarching goal of the human space flight program is the human 
settlement of the solar system and eventually beyond. I can 
think of no lesser purpose sufficient to justify the difficulty 
of the enterprise, and no greater purpose is possible.
    With that, I stand ready to take your questions. Thank you 
very much.
    [The prepared statement of Dr. Griffin follows:]

                Prepared Statement of Michael D. Griffin

Abstract

    Justification for the human space flight program is discussed in 
terms of the importance of U.S. leadership in this historically 
inevitable expansion. The need for a steady funding and a long-term 
commitment to the space flight enterprise is discussed. Technology 
hurdles and suggested intermediate milestones are identified.

Mr. Chairman:

    Thank you for inviting me to appear before the Committee in this 
rare opportunity to discuss the vision, the goals, and the future of 
human space flight.
    Allow me to begin, if I might, with some ``truth in advertising.'' 
I am an unabashed supporter of space exploration in general, and of 
human space flight in particular. I believe that the human space flight 
program is in the long run possibly the most significant activity in 
which our nation is engaged. For what, today, do we recall renaissance 
Spain, King Ferdinand, and Queen Isabella? Unless one is a professional 
historian, the memory which is evoked is their sponsorship of Columbus 
in his voyages of discovery. For what, in five hundred years, will our 
era be recalled? We will never know, but I believe it will be for the 
Apollo lunar landings if for anything at all. And this is entirely 
appropriate. Human expansion into space is a continuation of the 
ancient human imperative to explore, to exploit, to settle new 
territory when and as it becomes possible to do so. This imperative 
will surely be satisfied, by others if not by us.
    We know this, if not with our logic then with our intuition. We are 
all the descendants of people who left known and familiar places to 
strike out for the risky promise of better places, in an unbroken chain 
going back to a small corner of east Africa. Concerning the settlement 
of the American West, it has been said that ``the cowards never 
started, and the weaklings died on the way.'' But this has been true of 
every human migration; we are all the descendants of those who chose to 
explore and to settle new lands, and who survived the experience.
    The late Carl Sagan, and others, have argued that this biological 
imperative is soundly rooted in evolutionary biology. The divergence of 
a species throughout the broadest possible environmental range is a 
form of insurance against a local catastrophe. Sagan argued that human 
expansion into the solar system is the important next step in 
protecting the human species from known and unknown catastrophes on a 
planetary scale. The fossil record which has been unearthed in recent 
decades certainly gives credence to this view, revealing evidence of 
multiple large scale ``extinction events'' throughout the history of 
life on Earth.
    However, to be important is not necessarily to be urgent, and it 
may be argued that we have many difficult problems in greater need of 
immediate attention and resources than is human space flight. But even 
recognizing this reality, space flight is sparingly funded. In round 
numbers, FY 2003 U.S. budget outlays were approximately $2.1 trillion, 
while the U.S. population is just under 300 million, yielding an 
average liability of $7000 per person, or about $20 per day for each 
man, woman, and child in the Nation. With the NASA budget at $15 B/
year, the civil space program costs each person in the Nation about 
$50/year, or less than 14 cents per day. A really robust space effort 
could be had for a mere twenty cents per day from each person! I spend 
more than that on chewing gum. We as a nation quite literally spend 
more on pizza than we do on space exploration. So I don't think we are 
overspending on space. As wealthy as the United States may be, it is 
certainly true that we can allocate only a very small fraction of that 
wealth to the development of human space flight. But we must allocate 
that fraction, and we must spend it wisely. I don't think we are doing 
enough of either.
    ``This new ocean''--to use John F. Kennedy's famous phrase--has 
recently become accessible to us, albeit at great cost and difficulty. 
But despite the difficulty, it will be explored and exploited, it will 
be settled, by humans. The only questions are, ``Which humans?'' and 
``When?'' While the answer to the first question will eventually be 
``all humans,'' I am parochial enough to believe that those from our 
nation should be in the vanguard.
    Much in the news lately is the budding Chinese space program, which 
came of age yesterday with its first manned launch. The United States 
required only eight years to progress from our first manned space 
flight to the first lunar landing, and that while simultaneously 
developing the technology to do it. A committed nation could now 
achieve such a goal much more expeditiously. How are we going to feel 
when one of the Apollo lunar landing flags is returned to Earth and 
displayed in a museum--in Beijing? Do we really want a world in which 
the human space flight programs of other nations are on the rise, while 
ours is in decline? We are the sole factor in determining whether such 
a future comes about. No other nation can surpass us in human space 
flight unless we allow it to happen.
    So, recognizing that others may differ, for me the single 
overarching goal of human space flight is the human settlement of the 
solar system, and eventually beyond. I can think of no lesser purpose 
sufficient to justify the difficulty of the enterprise, and no greater 
purpose is possible.
    With these thoughts in mind, I offer the following in response to 
the questions posed by this committee in its formal invitation to 
appear.

<bullet>  What option should NASA pursue in human space flight?

    Accepting my premise that the proper goal of a publicly-funded 
space program is to enable the human settlement of the solar system, it 
becomes immediately clear that the relevant possibilities are few in 
number, and that we have not recently pursued any of them.
    The geography of the solar system shows us the way. Suitable and 
useful destinations for humans are limited in the near-term, given 
technologies reasonably foreseeable in the next several generations. 
They include the Moon, Mars, and certain near-Earth and main-belt 
asteroids. That's about it. Certain way-points or ``parking places''--
not physical destinations but features of the orbital geography of the 
solar system--are also useful, including low-Earth orbit (LEO), 
geostationary orbit (GEO), and possibly the lunar Lagrange points. We, 
and our grandchildren's grandchildren, will be fully and gainfully 
occupied learning to reach, survive in, and exploit these places to our 
benefit.
    It has been drolly observed that, ``if God had wanted us to have a 
space program, he would have given us a moon,'' and I believe the truth 
underlying this witticism is correct. Development of permanent lunar 
bases on the Moon, only three days away, will teach us much of what we 
need to know to press on to Mars. And in the slightly longer run, I 
believe the asteroids will be found to have immense value as a source 
of raw materials, as well as being of great scientific interest.
    So, to me, the proper sequence for exploration is the Moon, then 
Mars, and then the asteroids. It must be recognized, of course, that 
any such sequence is for initial program planning only. Once begun, 
exploration and exploitation of the Moon will continue for centuries or 
millennia, just as it will for Mars and beyond.
    The waypoints--LEO, GEO, and others--should be developed as 
necessary to enable the exploration of the Moon, Mars, and asteroids, 
and not as programmatic goals in and of themselves. For example, a LEO 
space station such as the present International Space Station (ISS) is 
of very little use in developing a lunar base, especially during the 
early phases of such development. Thus, in a human space flight program 
focused on ``settling the solar system,'' construction of a LEO space 
station would not be an early priority.
    Similarly, there has been considerable discussion concerning the 
utility of the lunar Lagrange points as transportation nodes for a 
lunar base. While I think the idea has considerable merit, it is merit 
that attaches mostly to the longer term, when a fairly robust space 
infrastructure has been put in place. In the early years, the best way 
to get to the Moon is as directly as possible, and similarly for Mars.

<bullet>  What is the U.S. likely to gain by pursuing this option, and 
why can such gains not be obtained in other way? Specifically, please 
describe why these gains could not be achieved by means of unmanned 
missions. What are the implications of the option you suggest for the 
future of the unmanned program?

    One may search in vain for an argument justifying, in any immediate 
way, the danger, difficulty, and expense of human space exploration. I 
believe we have all heard enough about technological ``spinoffs,'' 
stimulating education, maintaining the high-tech industrial base, 
conducting astronomical or geological research, developing space-based 
power systems, harvesting space resources, and so on ad nauseam. Such 
arguments are most annoying because, while they are true--the claimed 
benefit does exist--they are irrelevant. No thinking individual would 
undertake a multi-generation program of human space flight to achieve 
any of these objectives, or any other similar collateral benefit. Any 
such goal can and should be achieved more directly and efficaciously 
merely by allocating to it the resources judged to be necessary for its 
accomplishment. We do not need a human space flight program to 
stimulate our children's education, or for any similar reason. A more 
global rationale is needed for an enterprise that will occupy our 
attention for generations to come.
    What the U.S. gains from a robust, focused program of human space 
exploration is the opportunity to carry the principles and values of 
western philosophy and culture along with the inevitable outward 
migration of humanity into the solar system. Is this valuable? The 
answer must depend on one's world view, I suppose. But consider a map 
of the world today, and notice the range of nations in which English is 
spoken as a primary language, and in which variations on British 
systems of justice, politics, culture, and economics thrive today. Was 
the centuries-long development of the British Empire, based upon 
Britain's primacy in the maritime arts, a misguided use of resources? I 
believe not.
    Consider also that Great Britain's influence, achieved through its 
mastery of the oceans, was not restricted merely to affairs in the 
colonies, the new lands. By virtue of its nautical superiority, Britain 
wielded a dominant influence in the Old World as well, an influence 
hugely out of proportion to its size and other resources.
    Can America, through its mastery of human space flight, have a 
similar influence on the cultures and societies of the future, those 
yet to evolve in the solar system as well as those here on Earth? I 
think so, and I think our descendants will consider it to have been 
worth twenty cents per day.
    In the process of developing and extending human space flight into 
the solar system, we will also collect all of the ancillary benefits 
mentioned above, and many more. But I cannot imagine that these 
benefits can be attained solely through the use of unmanned scientific 
and exploration spacecraft. While such efforts are incredibly 
valuable--and I have personally spent the majority of my career in the 
engineering development of unmanned space systems--it is not credible 
to believe that they can substitute for human presence in the larger 
context that I have outlined here. Perhaps the most concise rationale 
on this point was provided by Norm Augustine in his 1990 ``Report of 
the Advisory Committee on the Future of the U.S. Space Program.'' In 
that document, Mr. Augustine points out that ``there is a difference 
between Hillary reaching the top of Everest and merely using a rocket 
to loft an instrument package to the summit.'' It cannot be said 
better, and again, I believe this difference is worth a few cents per 
day. Others may differ, but that is my view.
    To this point, there is no inherent conflict between manned and 
unmanned space programs, save that deliberately promulgated by those 
seeking to play a difficult and ugly zero-sum game. But that is not the 
game at hand. In the context of a civil space program justified 
primarily in terms of the expansion of humanity into the solar system, 
it must be understood that ``primarily'' does not mean ``entirely.'' 
Certain unmanned space systems having little connection with human 
space flight will be supported--as they are today--because of their 
inherent scientific or utilitarian value. Who today wants to return to 
life without weather satellites, global navigation, instantaneous 
worldwide communication, or high resolution overhead imaging? 
Similarly, that portion of our nation's scientific research devoted to 
using space assets to improve our understanding of Earth's environment, 
our solar system, and the cosmos beyond, will always, and should 
always, receive due attention in the allocation of resources. I 
personally worked, as a much younger engineer among thousands of 
others, on the Hubble Space Telescope, and will always be proud of 
having done so.
    Human space flight advocates are not making a case that such 
programs should be deferred in favor of manned programs. On the 
contrary, the necessary requirements of human expansion into the solar 
system cannot be met without a greatly increased program of unmanned 
scientific exploration. This can only be seen as a ``win-win'' for all 
those involved in any aspect of space exploration. In the end, it comes 
down to letting robots and humans each do what they do best.

<bullet>  What is your estimate of the costs of pursuing the selected 
option?

    The cost cannot be easily estimated, because the task is so open-
ended. A better way to think of the space enterprise is as an 
investment that will yield some benefits in the near-term, but which 
cannot fully mature for generations. The appropriate fiscal policy for 
such an investment is to allocate to it an amount consistent with both 
its ultimate value and the sobering reality that it will be a long time 
before this value is returned. Our present assessment, as a nation, 
seems to be that the space enterprise is worth about $15 B per year, or 
as I indicated earlier, about 14 cents per person per day. I think we 
could spend a little more without wasting the money.
    The Nation's space program, and in particular its human space 
flight program, is not presently focused along the lines I have 
suggested here. We are burdened with a history of several decades of, 
in my view, misguided policy decisions, the legacy of which cannot be 
easily or quickly undone. For example, though I struggle to find value 
in the effort to match its cost, the international faith and 
credibility of the United States is tied, in part, to the orderly 
completion of the ISS. We must complete its construction, to include 
the original seven-man crew capability, and establish a utilization 
plan for the facility that returns as much value as possible. Yet, we 
must not mortgage our future to ISS, losing the next two decades as we 
have lost the last two. If no additional funding can be made available, 
it will be very difficult to complete ISS and, at the same time, embark 
on the development of those other systems that are required for a truly 
valuable and exciting human space flight program.
    I would like to see an allocation of about $20 B per year to the 
U.S. civil space program. This would enable us to begin crucially 
needed programs to develop reusable space transportation systems, heavy 
lift launch, crew transfer vehicles, life support technology, and space 
power and propulsion systems that are needed to establish bases on the 
Moon and Mars.

<bullet>  How long will it take to achieve the specified goals of your 
option?

    Again, the program I have outlined is not a ``goal,'' it is a way 
of life, an essentially permanent part of our nation's technical, 
cultural, political and, yes, budgetary landscape. We will achieve 
important intermediate milestones, such as a return to the Moon, the 
first landing on Mars, and many other uplifting events. But one has 
only to fly over the United States from coast to coast to realize that, 
in a very real sense, the ``settlement'' of the America is hardly 
complete, even after five hundred years of European presence in the 
Americas. The settlement of the solar system can be expected to take a 
bit longer.
    The required time to achieve the intermediate milestones is 
irrevocably tied to funding constraints. If no new funding can be 
provided, we will spend the next several years--probably a decade--
working our way out of the Space Shuttle and International Space 
Station dilemmas, even proceeding as expeditiously as possible. It will 
be difficult, likely impossible, to begin development of (for example) 
heavy lift launch vehicles and space nuclear power systems while 
restricting NASA to today's budget levels and simultaneously respecting 
current obligations to ISS. Yet, these technologies and others are 
crucial to any permanent step beyond LEO. There is a lot of ground to 
be made up, but with a $5 B annual funding increase for NASA, I believe 
one could expect to see the first lunar base within a decade.
    What is needed is a different view of space flight in the affairs 
of men and nations than we have so far seen. Space programs in the 
United States have so far have been just that--programs. They are 
justified individually, each on its own merits, and have defined goals, 
funding, start dates and, it is hoped, completion dates. Space 
activities so far have been largely episodic, when in fact they need to 
become, again, a way of life.
    NASA and the space community generally, whether civil or DOD, 
receive frequent criticism for the high cost of what we do, the 
cumbersome pace at which it often seems to proceed, and the not 
infrequent failures which occur. This may not be entirely unfair; it is 
my own belief that the Nation is entitled to expect a higher standard 
of performance on space projects than has often been the case in recent 
years. But we in the space community--the engineers who must execute a 
multi-year vision one budget year at a time--are, I think, entitled to 
expect a higher and more consistent standard of commitment by the 
Nation, through its policy-makers, to that vision.
    As an example of the mindset I advocate, I note that the United 
States has a Navy, which institution in fact predates our present form 
of constitutional government. Even in difficult times, we do not debate 
whether or not the United States will continue to have a Navy. We do 
not debate the Navy's function; by common understanding, it is the 
Navy's purpose to provide mastery and control of the high seas for the 
benefit of the Nation. We may debate ways and means of achieving this, 
but withdrawal from the basic enterprise would be unthinkable. So it 
must be with human space flight. We are not yet to that point.

<bullet>  What technical hurdles must be overcome in pursuing the 
option, and what steps that must be taken to overcome those hurdles? 
Are there intermediate program goals, and when might these be achieved?

    I will comment on specific technical issues below, but before so 
doing I feel compelled to note that the technical challenge does not 
seem to me to be the biggest problem we have. We did not retreat from 
the Moon because of technical difficulties, we did not fail to go to 
Mars because of technical problems, and we have not taken twenty years 
to put a space station in orbit because of technical matters. In each 
case the issues are matters of politics and leadership. Without a 
bipartisan, leadership-driven consensus that a vigorous space 
exploration program is essential to America's future, we will not have 
such a program, whether or not there are technical challenges to be 
overcome. It has been forty years since a Chief Executive has 
propounded such a vision, and no Congress has ever taken the initiative 
to do so. If the Nation's leaders cannot say that space exploration is 
important, and why, it will not occur.
    And technical challenges do exist. They include both human and 
engineering elements. We have considerable experience in the 
microgravity environment, and some practical and effective 
countermeasures have shown promise in minimizing bone loss, though more 
work is clearly needed. The most practical long-term microgravity 
countermeasure may well be to design our spaceships to supply 
artificial gravity by spinning them to generate a centrifugal force. 
Planetary surfaces are another matter. We have at present no clear 
understanding of how the human organism will respond and adapt to 
fractional gravitational environments such as will be experienced on 
the Moon and Mars. The most difficult issue is likely to be that of 
cosmic heavy-ion radiation. The human effects of and countermeasures 
for heavy ion radiation, encountered in deep space but not in the LEO 
environment of the ISS, have received little attention thus far.
    On the engineering side, the first order of business is largely to 
restore capabilities that we once had, and then to make them more 
reliable and cost effective. It may not be impossible to consider 
returning to the Moon, or going to Mars, without a robust heavy-lift 
launch capability, but it is certainly silly. Our last Saturn V was 
launched thirty years ago, and while I do not necessarily advocate 
resurrecting an outdated design, this is the class of capability which 
is needed for the human space flight enterprise.
    At the same time, much cargo (including humans) does not need to be 
launched in very large packages. We desperately need much more cost 
effective Earth-to-LEO transportation for payloads in the size range 
from a few thousand to a few tens of thousands of pounds. In my 
judgment, this is our most pressing need, for it controls a major 
portion of the cost of everything else that we do in space. Yet, no 
active U.S. government program of which I am aware has this as its 
goal.
    As I have tried to indicate earlier, it is very difficult to 
comment on the nature and timing of intermediate program goals and 
milestones without reference to funding constraints.
    For interplanetary flight, something more than chemical propulsion 
is clearly needed for other than return to the Moon or, possibly, the 
first expeditions to Mars. Nuclear propulsion makes the most sense to 
me; several options are available, including both nuclear-thermal and 
nuclear-electric concepts. We once had an operating, ground-tested 
(though not flight-tested) nuclear-thermal upper stage intended for use 
on the Saturn V. The program was canceled thirty years ago, when it 
became clear that a Mars mission was not in the Nation's immediate 
future. Numerous nuclear fusion concepts potentially applicable to 
space propulsion exist, most notably those involving electrostatic 
confinement of the nuclear core, but none of these is receiving more 
than token funding. There also exist a number of promising approaches 
to electric propulsion, notably the Vasimir engine concept. In the long 
run, some form of nuclear-electric propulsion is likely to offer the 
best combination of efficiency and packaging capability for 
interplanetary flight.

<bullet>  What is the implication of this option for the current human 
space flight program? To what degree does the current human space 
flight program contribute to or impede the option you suggest? What 
recommendations do you have for the Space Shuttle and International 
Space Station programs?

    I have alluded above to some of the technical hurdles that we face 
in a commitment to a permanent program of human space exploration. 
Broadly, the tools necessary for this enterprise include:

        --  Heavy-lift launch capability, in the 100 metric ton to LEO 
        class or greater.

        --  Reliable, efficient, and cost effective transportation to 
        LEO for moderate size payloads.

        --  Compact space qualified nuclear power systems.

        --  Nuclear and nuclear-electric upper stage vehicles for 
        application to interplanetary flight.

        --  Space and planetary surface habitat and human suit 
        technology.

        --  Technology and systems for utilizing the in situ resources 
        of the Moon, Mars, and asteroids.

        --  Reliable and routine Earth-to-LEO crew transfer systems.

    These are the things we would be working on, and would have been 
working on for decades, had we a consensus that the primary purpose of 
the Nation's human space flight program was to begin the exploration of 
the solar system. The fact that we are largely not allocating the human 
space flight portion of the NASA budget to these tasks illustrates more 
plainly than any rhetoric that our space flight programs are directed 
to no useful end.
    I will repeat only briefly my remarks above concerning ISS; we 
should do what is necessary to bring the program to an orderly 
completion while respecting our international partnership agreements, 
obtaining where possible as much scientific value as we can from the 
enterprise while accommodating ourselves to the fact that such value is 
inevitably limited.
    Regarding the Space Shuttle, I have previously offered my opinion 
to this committee that we should move to replace this system with all 
deliberate speed. While the Shuttle's capabilities are extensive and 
varied, it has proven to be extremely expensive to use, unreliable in 
its logistics, and operationally fragile. It is extremely risky for the 
crews who fly it because, while its mission reliability is no worse 
than other launch vehicles, there is seldom any possibility of crew 
escape in the event of an anomaly. The Shuttle has met none of its 
original goals, despite the best efforts of some of our nation's best 
engineers to achieve those goals. Neither NASA nor the Nation as a 
whole saw, or could see, these problems looking forward in 1972, when 
the Shuttle program was approved. But, three decades later, I think we 
must admit to ourselves that it is time to move on.

                    Biography for Michael D. Griffin

    Michael D. Griffin is President and Chief Operating Officer of In-
Q-Tel, the independent, nonprofit venture group chartered to identify 
and invest in cutting-edge commercial technologies for CIA and other 
intelligence community applications.
    Mike was previously CEO of the Magellan Systems Division of Orbital 
Sciences Corporation, and also served as General Manager of Orbital's 
Space Systems Group and as the company's Executive Vice President/Chief 
Technical Officer. Prior to joining Orbital, he was Senior Vice 
President for Program Development at Space Industries International, 
and General Manager of the Space Industries Division in Houston.
    Mike has served as both the Chief Engineer and the Associate 
Administrator for Exploration at NASA, and as the Deputy for Technology 
of the Strategic Defense Initiative Organization. Before joining SDIO, 
he played a leading role in numerous space missions while employed at 
the Johns Hopkins Applied Physics Laboratory, the Jet Propulsion 
Laboratory, and Computer Sciences Corporation.
    Mike holds seven degrees in the fields of Physics, Electrical 
Engineering, Aerospace Engineering, Civil Engineering, and Business 
Administration, and has been an Adjunct Professor at the George 
Washington University, the Johns Hopkins University, and the University 
of Maryland. He is the lead author of over two dozen technical papers 
and the textbook Space Vehicle Design. He is a recipient of the NASA 
Exceptional Achievement Medal, the AIAA Space Systems Medal, and the 
DOD Distinguished Public Service Medal, and is a Fellow of the AIAA and 
the AAS. He is also a Registered Professional Engineer in Maryland and 
California, and a Certified Flight Instructor with instrument and 
multi-engine ratings.

    Chairman Boehlert. Thank you very much, Dr. Griffin.
    Dr. Huntress.

STATEMENT OF DR. WESLEY T. HUNTRESS, JR., DIRECTOR, GEOPHYSICAL 
         LABORATORY, CARNEGIE INSTITUTION OF WASHINGTON

    Dr. Huntress. Mr. Chairman, Members of the Committee, I am 
grateful for this opportunity to testify before you today on my 
view of the future of this planet's human space flight program. 
I believe that the American public wants an adventurous space 
program to new, exciting destinations in the solar system and 
beyond.
    The challenge is to move outward beyond the Earth to these 
exotic places, places where we have been given tantalizing 
glimpses from our robotic exploration program. The Shuttle and 
the Space Station are the legacy of a long-past era in which 
the space program was a weapon in the Cold War. The Apollo 
program was not primarily the science or exploration program we 
are all fond of remembering, it was a demonstration of the 
power and national will intended to win over the hearts and 
minds around the world and to demoralize the Soviet Union. 
Exploration is not what motivated Kennedy to open the public 
purse. Beating the Russians did. Apollo accomplished that and 
the Nation moved on to other priorities, which did not include 
what the space enthusiasts and much of the public thought would 
happen, lunar bases or on to Mars.
    The imperatives are very much different today. Three 
decades of wishful thinking and building space ambitions on an 
inadequate funding basis has led us into a blind alley. The 
Space Station was not the expected transportation mode for 
missions beyond the Earth that it was supposed to be. It has 
become an Earth orbital end unto itself. The Space Shuttle is 
not the low-cost, low-risk operational space transportation 
system that it was supposed to be.
    I think that the legacy of the Columbia accident should be 
to create a new pathway and a sense of purpose for human space 
flight. And if space explorers are to risk their lives, they 
should do so for challenging reasons, such as exploring the 
Moon, Mars, asteroids, and for constructing and servicing space 
telescopes. The whole point of leaving home is to go somewhere, 
not to endlessly circle the block.
    What the public wants is clarity of purpose. A Space 
Station advertised as ``the next logical step'' without filling 
in that blank ``to what'' just doesn't do it. There is a 
growing consensus that a coherent vision for human space flight 
over the next several decades is required, one that has a clear 
sense of purpose and destination.
    Sooner or later we have to have a clear destination or 
human space flight won't survive and America will be much the 
poorer for it. A new option doesn't have to be funded like 
Apollo. It can proceed at a steady pace. The country needs the 
challenge of grander exploration to justify the risk and to 
lift our sights, to fuel human dreams, and to advance human 
discovery and knowledge. We need to go somewhere.
    As a scientist, when I ask why we need such an enterprise, 
I start with very public questions, such as: Where did we come 
from, what will happen to us in the future? And these then 
define the scientific objectives required to answer them. And 
these objectives will determine what kind of exploration is 
needed and at which destinations. And my answer is there are 
four: the Sun-Earth Lagrangian point L2, the Moon, Near-Earth 
asteroids, and Mars.
    Mars is the most challenging, the most distant, and the 
most scientifically rewarding and the one place that can 
galvanize human interest like no other. It is the logical 
destination for humans in the next step of this new century. It 
is the most Earth-like of all of the planets in our solar 
system. It may have had life early in its history. It might 
possibly harbor microbial life below the surface today. And one 
day in the future, it may become a new home for humankind. It 
has fascinated humans for centuries, and it is within our 
reach.
    In pursing these destinations, do we use human or robotic 
missions? The answer has always been both. Both of these 
enterprises have coexisted and cooperated during the entire 
history of the space program. Science cost effectiveness is not 
a good metric for assessing human versus robotic modes, and 
human exploration of space is really motivated by a lot more 
than science but by more societal factors.
    And a space exploration program that the public requires 
does want humans in space. The bottom line is the human space 
flight program needs to be set on a new path that leads to a 
future that the public has been expecting for decades, a path 
that takes humans beyond orbit to new important destinations.
    We need a national vision that sets a destination for human 
exploration and that systematically pursues its fulfillment 
with both robotic and human space flight.
    Thank you for your attention.
    [The prepared statement of Dr. Huntress follows:]

             Prepared Statement of Wesley T. Huntress, Jr.

Mr. Chairman and Members of the Committee:

    Members of the Committee, I am grateful for the opportunity to 
testify before you today on my view of the future of this planet's 
human space flight program. On April 3, 2001, I testified before your 
Subcommittee on Space and Aeronautics on this same subject. The views I 
expressed at that time have only become stronger. The public wants an 
adventurous space program, a Mission From Planet Earth to new exciting 
destinations in the solar system and beyond. The public wants to know 
where we are going, how we are going to get there and wants to go along 
for the ride even if only virtually. America has the right stuff, but 
today's human space flight program isn't giving the public what it 
wants.

Old Legacies

    The challenge for NASA is to throw off the yoke of the Apollo 
program legacy and to move outward beyond Earth to exotic places in the 
solar system, those places where we have been given tantalizing 
glimpses from our robotic exploration program. The Shuttle and Space 
Station are the legacy of a long-past era in which the space program 
was a weapon in the Cold War. The Apollo program was not primarily the 
science or exploration program we are all fond of remembering, it was a 
demonstration of power and national will intended to win over hearts 
and minds around the world and to demoralize the Soviet Union. 
Exploration is not what motivated Kennedy to open the public purse. 
Beating the Russians did. It worked. Apollo accomplished what was 
intended and the Nation moved on to other priorities, which did not 
include what space enthusiasts and much of the public thought would 
happen--lunar bases and on to Mars.
    The Space Shuttle and International Space Station (ISS) are the 
products of NASA attempting over the decades to preserve the Apollo era 
of human space flight already passed by. These are complex, expensive 
projects that produce enormous strain on NASA's budget and 
corresponding stress on the heroic people who work so hard to preserve 
the enterprise. The current human space flight program is barely 
affordable with what NASA is appropriated. The Apollo era is gone, the 
imperatives for space exploration are very different now than they were 
in the 1960s, and three decades of wishful thinking and building space 
ambitions on an inadequate funding basis has led the Nation into a 
blind alley. The ISS is not the expected transportation node for 
missions beyond Earth orbit that it was supposed to be; it has become 
an Earth-orbital end unto itself. And the Space Shuttle is not the low-
cost, low-risk operational space transportation system that it was 
supposed to be.
    The legacy of the Columbia accident should be to create a new 
pathway and sense of purpose for human space flight. We should provide 
a more robust transportation system for our astronauts and a more 
rewarding program of exploration for these heroes. They should be 
assured of a reliable, safe system for transporting them a distance no 
farther than the distance between New York and Washington. And if space 
explorers are to risk their lives it should be for extraordinarily 
challenging reasons--such as exploration of the Moon, Mars, and 
asteroids, and for construction and servicing space telescopes--not for 
making 90 minute trips around the Earth. The whole point of leaving 
home is to go somewhere, not to endlessly circle the block.
    Just as for Apollo, the Shuttle and ISS were developed for 
political imperatives; not so much for space exploration but to keep 
humans flying and to serve a foreign policy agenda. The Shuttle and ISS 
have not proven to be the next steps to human deep space exploration as 
advertised, instead they have become an impediment--serving only to 
maintain a human presence in near-Earth space until society finally 
decides to undertake missions to destinations beyond Earth orbit. 
Immediately after the Columbia accident, Charles Krauthammer, a noted 
columnist put it far better than my scientist training allows:

         ``We slip the bonds of Earth not to spend 20 years in orbit 
        studying zero-G nausea, but to set foot on new worlds, learn 
        their mysteries, establish our presence.. . .After millennia of 
        dreaming of flight, the human race went from a standing start 
        at Kitty Hawk [almost exactly 100 years ago] to the Moon in 66 
        years. And yet in the next 34 years, we've gone nowhere.. . 
        .For now, we need to keep the Shuttle going because we have no 
        other way to get into space. And we'll need to support the 
        Space Station for a few years, because we have no other program 
        in place.. . .If we are going to risk that first 150 miles of 
        terrible stress on body and machine to get into space, then 
        let's do it to get to the next million miles--to cruise the 
        beauty and vacuum of interplanetary space to new worlds. . .the 
        problem is not manned flight. The problem is this kind of 
        manned flight, shuttling up and down at great risk and to 
        little end.''

New Options

    We have reached a point now where we reflect fondly on a time past 
when America shined brilliantly in human space exploration, but can 
only lament our retreat while others climb a path we pioneered and 
abandoned. We can shine again. We are a wealthy and capable nation. We 
have the resources. The required technology is at hand or just around 
the corner of development. These are not the issues. The issue is 
national will. Space exploration has become a part of our culture. The 
public believes that flying in space is part of who we are as a nation. 
``Space exploration is an element of our national being'' [Harrison 
Schmidt, former astronaut and former Senator from New Mexico]. Our 
robotic explorers generate enormous interest when they fly and land on 
other planets. But the public expectation is that these robotic 
missions are a prelude to sending humans.
    What the public wants is clarity of purpose. A Space Station 
advertised as ``the next logical step'' without filling in the blank 
``to what'' doesn't do it. There is a growing chorus of leaders inside 
and outside of government concerned that NASA's post-Columbia-
investigation posture is business as usual. The consensus of many is 
that a coherent vision for human space flight over the next several 
decades is required, one that has a clear sense of purpose and 
destination. According to Neil Lane, former NSF Director and 
Presidential Science Advisor, ``Unless we can get a clear, stated 
mission, we should step back and not risk further lives.''
    Sooner or later we must have a clear destination for human space 
flight or it will not survive, and America will be much the poorer for 
it. And a new option doesn't have to be funded like Apollo, it can 
proceed at a steady pace. The country needs the challenge of grander 
exploration to justify the risk, lift our sights, fuel human dreams, 
and advance human discovery and knowledge. WE NEED TO GO SOMEWHERE!
    There are organizations outside NASA and the U.S. Government that 
are addressing this issue. The International Academy of Astronautics is 
conducting a study entitled ``The Next Steps in Exploring Deep Space.'' 
Its purpose is to provide a logical and systematic roadmap for the 
long-term scientific exploration of the solar system beyond Earth orbit 
with a goal to land humans on Mars sometime in the next 50 years. The 
study will be completed this coming spring and envisions the 
establishment of a permanent human presence in space using an 
evolutionary approach to the development of space transportation 
infrastructure utilizing well-defined intermediate destinations as 
stepping-stones to Mars.
    In addition, a workshop this past spring run by three 
organizations--The Planetary Society (TPS), the American Astronautical 
Society (AAS) and the Association of Space Explorers (ASE)--has made 
recommendations for near-term actions to solve our post-Columbia 
problems in human transportation to Earth orbit. My testimony draws 
heavily on the results from this joint workshop and from the IAA study. 
The workshop statement and a short briefing on the interim results of 
the IAA study are attached.

The Exploration Imperative

    Fifty years ago, in 1952, we developed a national dream of space 
exploration. As a nation of people who make dreams happen, and who 
explore to provide for a better life, we didn't do too badly with 
making that mid-Century dream of space travel come true. But after the 
Apollo missions the dream to move on was put on hold. So why should we 
revive that dream to explore space in this new 21st Century? For the 
same reasons that we explored and developed air travel in the 20th 
Century. Because it challenges us! At the beginning of the 20th Century 
in America the great public adventures were exploration of the polar 
regions of Earth and powered flight through the air. A century later, 
millions of humans travel in comfort through the air to destinations 
around the planet. No one in 1900 could have dreamed it possible to fly 
in comfort from New York to Paris in just over six hours.
    And so it will be in the 21st Century. At the beginning of this 
century we know how to travel in space, but are only just on its edge. 
We fly into space on dangerous, unwieldy, bolted-together hunks of thin 
metal and bulky propellant, spinning around our own planet in a fragile 
metal can strung together with cables and trusses. In one of history's 
major anomalies, we even flew men to the Moon and back 30 years ago, 
but are unable to do it now. By the end of the 21st Century, space 
travel will be as commonplace as air travel is at the end of the 20th. 
We just can't predict the details right now, just as the Wright 
Brothers could never have imagined a Boeing 747 in 1903.
    Exploration and the drive to discover and understand are qualities 
that have allowed the humans to survive and become the dominant species 
on the planet. Human beings strive to know and understand what 
surrounds them. By exploring the unknown, humans gain security and 
dispel fear of the unknown, of what is beyond. This survival mechanism 
is encoded in our genes. Just as human civilization uses the challenge 
of exploration to hone scientific and technological skills for 
survival, and exploits the adventure to provide hope for the future, 
human populations also have a need for heroes to provide inspiration. 
This is particularly important for our youth, who need to be provided 
with a positive vision for their future. Every generation has had its 
heroes. Today, the astronaut is a hero figure because astronauts carry 
out adventurous work that achieves exciting goals, personifying the 
kind of life that our youth would like to lead. Space exploration 
presents a positive image of the future and inspires our youth towards 
achievement.

The Science Imperative

    In the 1960s, the space program was popular in the U.S. because the 
public knew precisely what the goal was, how the game was played and 
followed every play. Today, the public's innate acceptance of the 
abstract notion of exploration as a human imperative does not 
necessarily extend to their checkbook without clear articulation of 
goals and benefits. Today the public benefit can be expressed as a 
clear set of goals because science and technology has progressed to the 
point where it can dare attempt answer some of the most burning 
questions that human beings have been asking since they started gazing 
upward at the sky. Questions such as `Where do we come from?' and `What 
will happen to us in the future?' and `Are we alone in the Universe?' 
These very fundamental human questions can be recast as scientific 
challenges--goals to be achieved in the course of exploring space. And 
from these scientific goals, plans can be formulated for both robotic 
and human explorers including the destinations and the exploration 
objectives of each.
    Where did we come from? This is a question that approaches the 
contemplation of existence. Even so, astronomers can address the 
question by determining how the Universe began and evolved, and 
learning how galaxies, stars and planets formed, and searching for 
Earth-like planets around other stars. The answers require large and 
complex space telescope systems made possible by human construction and 
servicing in space.
    What will happen to us in the future? Every human wonders about the 
future. One form of this question asks if there is any threat to us 
from space, especially from Earth-crossing asteroids. The answer will 
come from surveys of the Earth-crossing asteroid population in space 
and space missions that determine their composition and structure. 
Another form of this question asks what future humans have in traveling 
to and living on other planets. Is our species destined to populate 
space? Ultimately I believe the answer is yes, and the information will 
come from exploring space and utilizing the resources we can find in 
the most promising places in space such as Mars.
    Are we alone in the Universe? Every human being wants to know the 
answer to this question. We are compelled to find its answer. Some find 
comfort in the notion that we should be alone; others are fearful of 
the potential for other life ``out there.'' Most scientists see the 
possibilities and are overwhelmed by the notion that the Universe might 
be teeming with life; at least microbial life and perhaps even 
intelligent forms. We will find the answer by searching for life in the 
most promising places in the solar system such as Mars, and by looking 
for signs of life on planets outside the solar system with space 
telescopes.

Destinations

    The IAA study starts with these public questions and defines the 
scientific objectives required to answer them. The scientific 
objectives in turn determine what kind of exploration is required at 
which destinations in the solar system. Four destinations for human 
exploration result from this exercise: the Sun-Earth Lagrangian point 
L2, the Moon, Near-Earth Asteroids, and Mars.
    Mars, the most distant and most challenging of these destinations, 
is also the most scientifically rewarding and the one place that can 
galvanize human interest like no other. It is the logical destination 
for humans in the next decades of our new century. Mars is the most 
Earth-like of all the other planets in our solar system. It may have 
had life in its early history, it might possibly harbor microbial life 
below its surface today, and one day in the distant future it may 
become a new home for human kind. It has fascinated humans for 
centuries and it is within our reach.
    A brief description of the scientific and exploration utility of 
the four identified human destinations are described below, arranged in 
order of energetic difficulty for a systematic, progressive approach to 
exploration beyond Earth orbit.
    Sun-Earth Lagrangian Point L2 (SEL2) is a point about one million 
miles from the dark side of the Earth opposite the Sun that is the site 
of choice for future space astronomical telescopes that will search for 
and image Earth-like planets around other stars. These telescopes will 
of necessity be large, complex systems requiring servicing by 
astronauts in a manner similar to the Hubble Space Telescope. SEL2 is 
easy to get to, with round trip times on the order of 2-3 weeks and 
could serve as the initial step in developing a deep space 
transportation capability.
    The Moon is a scientifically rewarding destination where we can 
obtain information on the probability for impact of asteroids on the 
Earth, on the history of the Sun and its effect on the Earth's 
environment, and perhaps on the earliest history of the Earth itself. 
The proximity of the Moon makes it attractive as a potential proving 
ground for surface systems, habitats and other technologies, possibly 
including the use of lunar resources, but it is not necessarily on the 
critical path to Mars exploration.
    Near-Earth Objects travel in orbits between the Earth and Mars and 
represent both a potential resource in space and a potential impact 
hazard to Earth. Robotic missions to these objects will be necessary to 
assess these potentials. The jury is out on whether human missions 
would be necessary for these purposes, but there is no doubt that a 
one-year human mission to a Near-Earth Object would serve as an 
excellent intermediate step before any mission to Mars. An NEO human 
mission would provide a lower-risk test flight of the systems necessary 
to reach Mars.
    Mars is the ultimate destination for humans in the first half of 
this century. It is on this most Earth-like planet that humans can 
establish a permanent presence--utilizing resources the planet has to 
offer from its atmosphere, soil and subsurface ice and water. The 
scientific goals will be to understand the similarities and differences 
between Earth and Mars, particularly the history of water and its 
distribution on Mars, the geological and climatological histories of 
Mars and a search for evidence of past or present life. The question of 
possible life on another world is probably the largest driver for 
humans in space and particularly for Mars exploration.
    Our ultimate ability to reach these destinations requires that 
architectures developed today for transportation from the Earth's 
surface to orbit have a top-level requirement to consider the future 
needs for space transportation to deep space. Otherwise, it is likely 
that a solution will be derived that is useless for the next step 
beyond Earth orbit.

The Architecture

    The IAA study proposes an architecture for enabling this vision. 
Mars is the goal, but intermediate destinations are identified that 
comprise a progressive approach to this long-term objective. The 
approach is science-based to address key questions of public interest. 
These science goals provide the context for destinations, capabilities 
and technology investments. It is a stepping-stone approach in which 
there is a logical progression to successively more difficult 
destinations. This approach requires incremental investments to 
maintain progress, rather than huge new budgets, and destinations can 
be adjusted to manage cost and risk. Major new technology developments 
early in the program are avoided to reduce cost. Solar electric and 
nuclear electric propulsion, which are already under development, along 
with improved chemical propulsion can meet early transportation needs. 
Cargo and crew are separated to minimize crew risk and flight time. 
Cargo, supplies, and exploration equipment travel slower on more 
efficient electric propulsion systems in advance of the crew, who use 
faster but less efficient chemical propulsion systems.
    The IAA study proposes development first of a chemically propelled 
Deep Space Transportation Vehicle (DSTV) initially capable of carrying 
astronauts from low-Earth orbit to SEL2. The DSTV would be equally 
capable of carrying astronauts to lunar orbit if it is decided that 
lunar missions are an important step toward Mars. Later this vehicle 
could be upgraded for the much longer trips to NEOs and Mars. A 
separate electrically propelled Deep Space Cargo Vehicle (DSCV) would 
be developed to carry equipment and supplies to these same 
destinations.
    The IAA study does not address Earth-to-orbit infrastructure 
requirements. This has been done by the TPS/AAS/ASE workshop that 
recommends the retirement of the Shuttle after the ISS has been 
completed. Both the IAA study and the TPS/AAS/ASE workshop recognize 
the potential of utilizing non-U.S. launch systems to carry crew and 
cargo to low-Earth orbit. In addition, new vehicles for Earth to orbit 
transportation, separating crew from cargo, would be developed that 
take into account crew and cargo Earth-to-orbit lift requirements for 
further exploration beyond Earth orbit.
    The Space Station is not on the critical path in the IAA 
transportation architecture. Its high inclination orbit creates a 
severe penalty for Station-launched missions to the Moon and planets. 
However, the Space Station is required in order to study the effects of 
space travel on humans and to develop the technologies required for 
human support during long-term space flight.

Robots and Humans

    So how do we implement such a plan, do we use human or robotic 
missions? The answer has always been: both. The robotic and human space 
exploration enterprises have co-existed and cooperated during the space 
program's entire history. The relevant question is whether any 
potential investigation requires using human explorers, with their 
associated cost. The argument often used to dismiss humans is that 
technology will produce a machine with sufficient intelligence and 
dexterity to render a human unnecessary. The time to develop such a 
machine, however, may be either unpredictable or too long to meet a 
reasonable schedule. No matter how clever or useful the robots we make, 
they will always be tools for enhancing human capabilities.
    There is a role for both robots and humans. The strategy is to use 
robotic means for reconnaissance and scientific exploration to the full 
extent that robots can accomplish the desired goals. At the point when 
human explorers are sent, robotic missions can be used to establish 
local infrastructure before the arrival of humans. This is implemented 
using robotic outposts, which are later occupied and utilized by the 
human explorers. During human occupation, robots provide required 
support services and become sensory extensions and tools for human 
explorers.
    In any case, science cost effectiveness is not a good exclusive 
metric for assessing human vs. robotic modes for scientific exploration 
because the decision to proceed with human exploration will not be made 
on scientific grounds alone. Human exploration of space is motivated by 
societal factors other than science. Nonetheless, when a decision is 
made to continue human exploration beyond Earth orbit, it will provide 
a tremendous opportunity for scientist-explorers and science should be 
a motivating force in defining human space exploration goals.
    A space exploration enterprise that satisfies the public requires 
humans in space. In the minds of the public, robotic exploration is an 
extension of the human experience and a prelude to human exploration 
itself. Robotic exploration is the method of choice for reconnaissance 
and scientific investigation to the extent that robots can accomplish 
the desired goals. However, only human explorers will ultimately to 
fulfill the public's sense of destiny in space.

The Bottom Line

    The human space flight program needs to be set on a new path that 
leads to a future that the public has been expecting for decades--a 
path that takes humans beyond Earth orbit to new, important 
destinations in the solar system.
    WE NEED A NATIONAL VISION THAT SETS A DESTINATION FOR HUMAN 
EXPLORATION AND SYSTEMATICALLY PURSUES ITS FULFILLMENT WITH BOTH 
ROBOTIC AND HUMAN SPACE FLIGHT.
    Drawing heavily on the IAA study, I believe this vision should 
involve:

        1.  The goal of establishing a permanent human presence in the 
        solar system with the stated objective to establish human 
        presence on Mars by the middle of this Century.

        2.  Recognition that exploration beyond Earth orbit is 
        intrinsically global, and should involve cooperation with other 
        space-faring nations.

        3.  A progressive, step-by-step approach for human exploration 
        beyond Earth orbit that does not require an Apollo-like 
        spending curve. Any requirements for increased spending can 
        then be made incrementally on an annual basis.

        4.  A set of exciting and rewarding destinations in this step-
        by-step approach to Mars including the Sun-Earth Lagrangian 
        Point L2, the Moon and Near-Earth Asteroids.

        5.  Re-invention of our Earth-to-orbit transportation and on-
        orbit infrastructure to support the goals for exploration 
        beyond Earth orbit. The current Space Shuttle and International 
        Space Station are not on that critical path other than research 
        on human physiology in space.

        6.  Development of new in-space systems for transporting humans 
        and cargo from low-Earth orbit to deep space destinations. No 
        large technological breakthroughs are necessary.

        7.  Continued use of robotic missions for scientific research 
        and preparation for future human flights. Robotic precursor 
        missions will be required to reduce the risk for human 
        explorers and to provide on-site support for humans. Human 
        explorers will be required for intensive field exploration and 
        for in-space servicing of complex systems.

    Drawing heavily from the TPS/AAS/ASE workshop, some near-term 
actions to enable this policy (specifically Number 5 above) are:

        1.  The Shuttle should be retired after flying only those 
        missions necessary to complete the International Space Station 
        in favor of a simpler, safer and less costly system for 
        transporting humans to and from Earth orbit.

        2.  Human transport to and from space, and within space, should 
        be separated from related cargo transport. New Earth-to-orbit 
        transportation systems for humans and cargo should be designed 
        and built, but not until the requirements for human exploration 
        beyond Earth orbit are understood and can be accommodated.

        3.  The U.S. should carry out its obligations to its 
        international partners to complete the International Space 
        Station. The goals of the ISS should be refocused to those 
        specific purposes required to enable human exploration beyond 
        Earth orbit.

    None of this will happen if we go on as we are. The national will 
to carry out a new option for space exploration already exists in the 
people of the United States. The Nation has the necessary wealth. It is 
only a matter of leadership by the Administration and Congress. The 
architecture advocated here does not require an immediate large 
increase in the NASA budget. It does require a commitment to the 
resources required as the space program gradually and systematically 
increases in scale and scope, but not so much in any one year as would 
be required for an Apollo-like initiative.
    WE NEED A COMMITMENT FROM THE ADMINISTRATION AND CONGRESS TO A 
MANIFEST DESTINY FOR AMERICA IN SPACE.

                 Biography for Wesley T. Huntress, Jr.
    Dr. Wesley T. Huntress, Jr., is Director of the Geophysical 
Laboratory of the Carnegie Institute of Washington. Dr. Huntress joined 
the Carnegie staff in September 1998 after a 30-year career as a 
scientist and administrator in the Nation's space program. At the 
Geophysical Laboratory he directs one of the Nation's most prestigious 
scientific establishments in the geosciences. Dr. Huntress continues 
his research at GL in astrochemistry and remains a community leader in 
the scientific exploration of the solar system.
    Dr. Huntress earned his Bachelor of Science degree in chemistry 
from Brown University in 1964 and his Ph.D. in Chemical Physics from 
Stanford University in 1968, after which he joined the science staff at 
Caltech's Jet Propulsion Laboratory. Dr. Huntress left JPL in 1988 to 
join NASA Headquarters in Washington, DC, where he served the Nation's 
space program for ten years. From 1988 to 1990 he was assistant to the 
Director of the Earth Sciences and Applications Division, from 1990 to 
1992 he was Director of the Solar System Exploration Division and from 
1993 to 1998 he served as NASA Associate Administrator for Space 
Science.
    At JPL, Dr. Huntress participated in several missions, as a co-
investigator on the Giotto Halley Comet mission, coma scientist for the 
Comet Rendezvous Asteroid Flyby mission, and as pre-project study 
scientist for the Cassini mission. He also served in a number of line 
and program management assignments at JPL. Dr. Huntress and his 
research group at JPL gained international recognition for their 
pioneering studies of chemical evolution in interstellar clouds, 
comets, and planetary atmospheres. Dr. Huntress's last year at JPL in 
1987-1988 was spent as a Visiting Professor of Cosmochemistry in the 
Department of Planetary Science and Geophysics at Caltech. In 1999 the 
Director of JPL appointed Dr. Huntress to the position of Distinguished 
Visiting Scientist at JPL.
    As Associate Administrator for Space Science at NASA Headquarters, 
Dr. Huntress was a key architect of the ``smaller, faster, cheaper'' 
mission model, and opened up new opportunities for space scientists and 
industry through new and innovative methods for carrying out Space 
Science missions. Dr. Huntress created a new, scientifically integrated 
Space Science program with a clear strategic vision for the future and 
a new strong emphasis on technology development. In carrying out this 
strategy, Dr. Huntress is responsible for starting a number of new 
missions lines including the New Millennium technology flight test 
program, a restructured Explorer program, the Discovery program of low-
cost planetary missions including the Near-Earth Asteroid Rendezvous 
and Mars Pathfinder missions, the ongoing Mars Exploration Program, and 
Solar-Terrestrial probes series. Dr. Huntress is also the architect of 
NASA's new Origins program featuring new technology development in 
spacecraft and science instrument technologies and approvals for new 
space science missions such as the Next Generation Space Telescope, the 
Space Interferometer Mission and the future Planet Finder. Dr. Huntress 
is the founder of NASA's Astrobiology program.
    Dr. Huntress is the recipient of many NASA awards including the 
NASA Exceptional Service Medal in 1988, the NASA Outstanding Leadership 
Medal in 1994, the NASA Distinguished Service Medal in 1996 and 1998, 
and the Robert H. Goddard Award in 1998. The President has honored Dr. 
Huntress three times, as Presidential Meritorious Executive in 1994, as 
Presidential Distinguished Executive in 1995 and a Presidential Award 
for Design of the Mars Pathfinder Mission. Dr. Huntress was awarded the 
Schreiber-Spence Award in 1997 for contributions to space technologies 
and applications. In 1998, the minor planet 1983 BH was renamed 7225 
Huntress on the occasion of Dr. Huntress's departure from NASA.
    Dr. Huntress is a Fellow and Past President of the American 
Astronautical Society and recipient of the Society's Carl Sagan 
Memorial Award for achievement in astronautical science. He is also a 
member of American Astronomical Society/Division of Planetary Sciences, 
current Vice-Chair, and recipient of the Division's Harold Masursky 
award for service to the planetary science community. Dr. Huntress is 
an Academician in the International Academy of Astronautics. He is also 
President of The Planetary Society.
    Dr. Huntress currently resides with his wife Roseann in Rockville, 
Maryland. They have one son, Garret, an undergraduate at the University 
of Maryland in Computer Science.

    Chairman Boehlert. Thank you very much, Dr. Huntress.
    Dr. Koss.

   STATEMENT OF DR. MATTHEW B. KOSS, ASSISTANT PROFESSOR OF 
               PHYSICS, COLLEGE OF THE HOLY CROSS

    Dr. Koss. Mr. Chairman, Members of the Science Committee, 
thank you very much for inviting me to address you here today. 
I am honored by your request.
    Like many Americans, I sat riveted to the television 
station that Saturday morning when the Space Shuttle Columbia 
and her crew failed to return home. I was stunned and saddened, 
and I was left wondering, ``How could this have happened?''
    As a scientist, I have participated in three of Columbia's 
previous missions. I have worked with several of Columbia's 
crew on their previous missions. I felt a special kinship to 
the Columbia and her crew. In a curious way, I felt that the 
Columbia was my Shuttle, and so it was a deeply shocking 
experience to watch the television that morning. But then 
another feeling sort of occurred to me. I ended up asking 
myself, as a scientist who had participated in these missions, 
in these dedicated science missions, was I, in any way, 
responsible for what had happened. And I feel I was, in some 
way, responsible. I was part of the larger NASA culture that 
contributed to these missions.
    I was responsible for not saying what I had known privately 
and I had discussed with other scientists, and that is that we 
did not need human beings to assist in the exercise of these 
physical science experiments. They ran well autonomously. I had 
worked with NASA. I had been charged by NASA to build and test 
autonomous and remote controlled systems, and they had worked 
flawlessly. And although I had presented papers and talked 
about how successful autonomous programs were, I never 
connected the dots and said, ``Well, maybe we should reconsider 
the use of humans in space.''
    I feel now that almost all of the physical science 
experiments that are performed on orbit could be done 
autonomously or remotely. I think the Columbia Accident 
Investigation Board has it right. Not only should we reverse 
the burden of proof in terms of not requiring that someone show 
that the Shuttle is not safe to fly but requiring that it is 
affirmatively proving that it is safe to fly. I think the 
science experiments need the same exact standards. If there is 
a science experiment that needs human involvement, the 
scientists backing that program need to have a preponderance of 
evidence that says so.
    If there--however, if there were no access to the Space 
Station or Space Shuttle, vital research in material science 
would be halted. It would not necessarily be halted forever, 
but it would certainly be halted, and there would be an interim 
period. And I believe the same could be said for other sciences 
in the physical science portfolio at NASA.
    At present, there are simply no alternatives to those 
platforms. I have heard a free-flyer or an autonomous platform 
discussed, but I don't believe there is any commitment to it at 
this time.
    I don't have the necessary expertise or financial knowledge 
to give you a detailed estimate of building that--what that 
facility would cost. I am an assistant professor at a small 
liberal arts college. I clearly don't know very much about 
money. I do know something about the trade-offs that would 
occur if one developed an autonomous program. And when I look 
at all of those trade-offs in sum total, I reach the conclusion 
that the trade-offs favored the development of an autonomous 
platform or remote platform for orbital physical science 
experiments.
    It is unlikely that these larger missions that my fellow 
panelists are talking about would help the physical sciences 
on-orbit program. These sciences that I represent or that I 
know about are laboratory sciences that are really concerned 
with the inner workings of, let us say, materials. I support a 
future manned program, it just is not to the betterment of the 
science I am currently pursuing.
    I think NASA has the skills to develop an autonomous 
program. I think it is important that they do. And I would like 
to see that happen.
    Again, I thank you for your invitation to address you here 
today.
    [The prepared statement of Dr. Koss follows:]
                 Prepared Statement of Matthew B. Koss

Abstract

    As a scientist whose experiments were carried out on three missions 
of the Space Shuttle Columbia, I have now concluded that the vast 
majority of scientific experiments conducted in orbit--including my 
own--do not require astronauts. The main reason for in-orbit 
experimentation is to significantly reduce or eliminate gravity-driven 
influences to better observe and understand the fundamentals of 
important scientific processes. But almost all of these tests, save 
those that must be done on human subjects, can be controlled 
autonomously via computer or remotely from the ground. Scientific 
experimentation in space can be safer and more cost effective using 
long-duration autonomous or remotely controlled orbital spacecraft. At 
the outset, the costs of developing this technology may appear greater 
than that of human tended experiments. But if you do not need to 
provide a safe and sustaining environment for astronauts the overall 
cost will be significantly reduced. We may always need astronauts to 
assume certain risks for the human exploration and development of 
space. However, the time has come to decouple the human exploration and 
development of space from the needs and benefits of conducting basic 
research in the laboratory physical sciences in low-Earth orbit. Doing 
so will benefit both the future of human space flight and the portfolio 
of basic research on orbit.

Introduction

Mr. Chairman and Members of the Science Committee:

    Thank you for the invitation to come before you and participate in 
this hearing on the Future of Human Space Flight. I am honored by your 
request.
    Like many Americans, I sat riveted to the television that Saturday 
morning when the Shuttle Columbia and her crew failed to come home 
safely. I was both stunned and saddened as I sat and watched and 
wondered, ``How could this have happened?''
    As a scientist, I have participated in research experiments that 
flew on three of Columbia's previous flights (STS-62 in 1994, STS-75 in 
1996, and STS-87 in 1997), and thus I felt a special kinship to the 
Columbia and her crew. In a curious way, I felt that the Columbia was 
my Shuttle. I had briefed and spoken with the crews of the three 
Columbia missions that I had worked on, and in doing so I had met 
Kalpana Chawla one of Columbia's crew members who had just perished. I 
felt great sadness and sympathy for the families of the astronauts who 
died.
    As I continued to watch the news coverage of the unfolding tragedy, 
I began to feel growing remorse and personal responsibility. STS-107 
was a dedicated science mission, much like those in which I had 
participated. I asked myself if I, as a participating scientist in 
prior dedicated science missions, was in any way responsible for what 
had just occurred.
    I thought back to my own time at the Marshall Space Flight Center 
in Huntsville, Alabama. While monitoring and controlling my 
experiments, my colleagues and I spoke often of the extraordinary risks 
that the Shuttle astronauts took each time they flew a mission. We knew 
that the astronauts understood the risks and accepted them willingly. 
As scientists, we believed we understood the risks, and we debated 
whether or not we bore any responsibility for the acceptance of those 
risks. Even though our experiments were part of the payload brought to 
orbit by the crew, and served as partial justification for the mission, 
we confidently concluded that we were not responsible for any of the 
risk. We reasoned that NASA created and maintains the Shuttle program 
in support of NASA's larger mission for the human exploration and 
development of space and not solely for the performance of laboratory 
science on orbit. Therefore, we concluded that we could not be 
responsible for the risks assumed.
    Although our reasoning then may have been correct technically, our 
confident conclusion now seems utterly reckless and shamefully 
inadequate. That convenient, yet obviously hollow reasoning came 
crashing down to Earth with the Columbia last February. As I sat and I 
watched, I realized that I must bear my share of the responsibility for 
the Columbia accident.
    Unlike the astronauts who either conduct or bring these experiments 
to orbit, scientists like me, with the exception of a few Payload 
Specialists, never put their own lives on the line for the work that 
they do or the rewards that can follow a successful experiment. Is this 
then the source of the scientist's culpability that we reap the rewards 
while standing on the shoulders of others who assume the risks? No, I 
think not. The scientist's culpability stems from a conceit that we 
have long acknowledged privately but have not expressed publicly:

         The vast majority of physical science experiments conducted in 
        orbit simply do not require on-board human intervention or 
        assistance.

    As penance for quietly accepting the benefits of on-orbit 
experiments without sharing the risks or expressing the alternatives, I 
need to say publicly that the cost of using astronauts to perform 
science experiments in space is too high both in dollars spent and in 
lives lost. At the risk of incurring my colleagues' wrath, I feel 
compelled to say that I, and the other scientists who reveled in the 
glory of conducting experiments aboard the Shuttle, are not blameless. 
In that spirit, I wrote an article that subsequently appeared as an op-
ed in the New York Times on Sunday, June 29, 2003 (see Exhibit 1, 
attached hereto).
    Since the publication of that article, I have heard from many of my 
colleagues, both within and outside of NASA. Most of my fellow 
scientists who responded expressed their support and agreement with my 
article, but not all. I have engaged in lively discussions with many 
who have disagreed with the opinions I expressed in my article, and 
through those discussions, we are finding and forging common ground. My 
testimony here today has benefited from these discussions.

Answers To Specific Questions Submitted By the Chair

<bullet>  How necessary is it to have the participation of people in 
space for successful research in materials science?

    There are two types of on-orbit laboratory science experiments 
performed on the Shuttle: (1) payload experiments and (2) laboratory 
experiments. Payload experiments are self-contained packages mounted in 
the payload bay of the Shuttle. They run autonomously or are controlled 
remotely from the ground by the scientists and engineers who designed 
and built them. No human intervention is required for payload 
experiments. By contrast, laboratory experiments are conducted in the 
mid-deck or Spacelab module, and were generally operated by astronauts 
with teleoperational assistance from scientists on the ground.
    Of the two varieties of experiments, payload experiments tend to be 
larger, more ambitious and robust, and historically delivered more 
useful data and results. Astronauts have limited time and capabilities 
to conduct elaborate experiments in space.
    Although rarely the subject of popular media, most of the 
experiments in materials science conducted on orbit were payload 
experiments. This simple and irrefutable fact demonstrates that it is 
not necessary to have human participation to conduct orbital research 
in materials science.
    While I do not profess to be an expert in fields other than my own, 
it follows that human participation has not been and is not essential 
to conduct orbital research in Fundamental Physics, as the majority of 
those experiments were conducted as payload experiments. In addition, 
and despite that the majority of experiments in both Fluids and 
Combustion were not conducted as payload experiments, I believe that 
the participation of people in space is not strictly necessary to 
conduct orbital research in either of these disciplines.

<bullet>  What proportion, if any, of the experiments now conducted on 
the Space Shuttle or Space Station unmanned probes could conduct 
autonomously?

    There are very few science experiments, save those on human 
themselves, that were conducted on the Space Shuttle or Space Station 
that could not have been conducted autonomously or remotely. At the 
outset, making on-orbit experiments fully autonomous or remote 
controlled will require more development time, and the experiment 
design would most likely need to be more complicated and involved, but 
it can most certainly be accomplished. Speaking immodestly, scientists 
and engineers are a creative and gifted bunch and are more than up to 
the task of finding new ways to conduct orbital research without on-
site human assistance.
    Nonetheless, with apologies to the Committee, I respectfully submit 
that we are asking the wrong question. The Columbia Accident 
Investigation Board concluded that the burden of proof must be reversed 
on any future Shuttle missions. Instead of awaiting evidence that the 
Shuttle might be unsafe to fly, on any future missions, NASA must 
instead affirmatively demonstrate that the Shuttle is safe to fly. 
Given the grave risk to human life orbital research involves, 
scientific experiments ought to meet that same exacting standard. If a 
scientist proposes an orbital experiment to be conducted by astronauts 
aboard the Shuttle or the Space Station, he or she must demonstrate by 
a preponderance of evidence that human assistance is only reasonable 
way to conduct the given experiment.
    Although some may believe me audacious for making such a sweeping 
statement, I submit here today that almost all the physical science 
experiments now conducted on the Space Shuttle or Space Station could 
be conducted autonomously or remotely. In addition, I believe that many 
life science experiments, save those using human themselves as 
subjects, could be conducted autonomously or remotely as well.
    I have made a broad and bold assertion, and one that requires some 
additional explanation. To do that, let's imagine a hypothetical 
``experiment'' where we want to compare how water and milk freeze in 
ice cube trays. The easiest way to proceed is to get a freezer, some 
ice cube trays, a camera, some thermometers, and a computer. Then, one 
after another, fill the ice-cube trays, place them in the freezer, and 
record what happens. This is simple, fast, and completely human 
dependent. If we were to repeat this experiment in a dangerous 
environment, the needs and requirements of the human operator to 
exchange the ice cube trays would be a major concern and complicating 
factor. If we were to repeat this imaginary experiment on orbit, the 
human operator is placed at extreme risk, and at a minimum requires 
significant infrastructure and support. In this imaginary experiment, 
the ease of conducting the experiment via human operators is clearly 
offset by the complexities and risk of getting the operators safely to 
orbit and back, and of sustaining them while in orbit. The added 
complexities, development time, expertise and effort to automate or 
remotely control the exchange ice cube trays and the recording of data 
is quite obviously the best way to proceed. This is very much the 
situation we are in with respect to human enabled experiments on the 
Space Shuttle or Space Station.
    In the case of the Space Shuttle and Space Station, the 
infrastructure and facilities to support humans on orbit is already 
there. So it is certainly easier to design smaller experiments to 
operate in the laboratory mode with astronauts running experiments that 
are important and compelling. However, this is an efficacy and not a 
requirement. With sufficient development time, funding, and expertise, 
virtually all physical science experiments now conducted on orbit could 
be done either autonomously or remotely. In addition, doing so would be 
consistent with the Columbia Accident Investigation Board's 
recommendation to separate humans from cargo.
    It is easy to imagine the criticisms to this analysis from those 
who believe that direct on board human engagement is required. They 
might say that intelligent response is required to deal with 
unanticipated phenomena, or that a particular instrumental dexterity is 
required, or that humans are needed to troubleshoot and repair 
instruments and equipment, or that we need human involvement to realize 
serendipitous discoveries. To be sure, all of these criticisms have an 
element of truth, but in the end, they do not withstand detailed 
scrutiny.
    The creative input of human intelligence to deal with unanticipated 
phenomena is a hallmark and a necessity of experimental science. Indeed 
in many experiments there will be contingencies that were not 
preprogrammed into an automated system. However the remote control of 
orbital experiments provides the necessary human intervention. The 
scientists on the ground who are most expert in the phenomena and the 
experimental apparatus are the most qualified to recognize the need for 
change, and to make that change. If a hardware or equipment 
modification is now called for, then a re-flight is the best way to 
make that modification.
    For the issue of instrumental dexterity, clearly humans are better 
at some tasks while computer or technology is better at others. However 
in experimental science there is no single correct way to accomplish a 
particular task. There are many ways that work and the job of the 
experiment designer is to find a way that works. That way may require 
the unique abilities or advantage of a human operator and may indeed be 
the simplest and most straightforward way to accomplish a particular 
task. However it is extraordinarily unlikely that it is the only way. 
The challenge of the design team is to figure out a way to accomplish 
the task that does not require human dexterity.
    Troubleshooting or repair of apparatus and equipment is most 
definitely an area where humans excel as compared to autonomous or 
remote control systems. However I know of no experiment so important 
that it is required that it be successful on the particular flight it 
is manifested. It seems to me that in such cases where repair is 
necessary, that the repairs could take place post flight and the 
experiment could be re-manifested and flown in due course.
    Advocates for an on board human role in physical science 
experiments often claim that the serendipitous discoveries that are 
vital to the continuing advancement of science require a human being 
with all five senses activity involved in the experiment. I certainly 
agree that serendipitous discoveries are vital to a healthy science. 
Today's directed research questions often came from yesterday's 
serendipitous discovery. However the key to these discoveries lies in 
the mind of the scientist and not in the sense instruments. In 
addition, who is more likely to make a serendipitous discovery? The 
astronaut, who no matter how extraordinary, or well trained, has many 
experiments and tasks to monitor and is not an expert in the particular 
experiment. Or the science team on the ground comprised of the experts 
who designed the experiment and are engaged with the tele-metered data 
full time? Clearly the scientists on the ground are better prepared to 
make serendipitous discoveries.
    In addition, of the five human senses, only taste and smell cannot 
be bettered via instruments. We certainly don't want astronauts using 
their sense of taste or smell in performing experiments on orbit. To 
protect the astronauts, we rightly require that every experiment be 
carefully contained and confined to ensure no breeches or leaks that 
could be inhaled or ingested. Furthermore, the apparent weightless 
environment affects the astronaut's sense of smell and taste and 
serendipitous discoveries come from the superior sensitivity of cameras 
and sensors that record precise data at high data rates. Thus, many of 
the subsequent unanticipated discoveries come later, and these 
discoveries are made by the science teams who even years later are 
still studying and analyzing the data from a flight experiment.
    To be sure, with a broad and sweeping statement such as ``almost 
all the physical science experiments now conducted on the Space Shuttle 
or Space Station could be conducted autonomously or remotely'' there 
will be exceptions. I thank the many scientists who took the time to 
discuss their concerns with me following the publication of my article. 
However, because I believe these situations will be the exception 
rather than the rule, it goes without saying that we need a well-
designed rubric to determine when an exception is warranted even if it 
has been demonstrated with a preponderance of evidence that human 
tending is absolutely required.
    First, is there sufficient probable value in the results of the 
given experiment? If it were probable, or even reasonable possible, 
that the human tending of a given experiment would yield key or 
irreplaceable results on the path to curing cancer then that experiment 
would be worth the established costs and risks. For such a seminal 
experiment even I would be able to overcome my fear of flight to 
participate in such an endeavor. However, revolutionary results of that 
dimension are extraordinarily rare in science and should not be the 
basis of policy. Science grows and develops by innumerable small and 
hesitant steps, and its power comes from, as the great philosopher of 
science Alfred North Whitehead said, ``. . .the entire transformation 
of human habits and human mentality produced by the long line of men of 
thought from Thales to the present day, men individually powerless, but 
ultimately the rulers of the world.''
    Second, as discussed above, scientists must be made to demonstrate 
that human tending of their experiment is vital to the success of their 
experiment. Put bluntly, the experiments of scientists who are 
unwilling or unable to state why their experiment could not be designed 
to run autonomously or remotely ought to not receive access to precious 
orbital research time, money, and space. Or alternately they affirm 
that the flight and the risk are bourn for other reasons and the human 
tended science experiment is a valuable add on. As the Challenger and 
Columbia tragedies have made all too apparent, science must be 
accountable for the high costs and substantial risks human-tended 
experiments entail. We scientists should no longer be given a free ride 
on these issues.
    This very change in philosophy of on-orbit scientific pursuits has 
already begun in the field of astronomy. NASA has chartered a panel to 
review agency plans for the phase out of the Hubble Space Telescope to 
the transition to James Webb Space Telescope. The Hubble Space 
Telescope however could still be further enhanced and its life extended 
by Space Shuttle servicing missions. Naturally such missions are both 
risky and expensive. Not being an astronomer, I take it as axiomatic 
that such missions would significantly contribute to astronomy, and 
that in any reasonable near-term such a mission could not be conducted 
robotically or remotely. The question then that the panel must answer 
and take ownership of is ``is the further enhancement and use of the 
Hubble Space telescope worth the risk and the expense of a Shuttle 
servicing mission?''

<bullet>  If researchers no longer had access the Space Shuttle or 
Space Station how would advancement in the material sciences be 
affected?

    If researchers no longer had access the Space Shuttle or Space 
Station, then a vital research area in the advancement in the materials 
sciences would be halted.
    With the indulgence of the Committee, I would like to briefly 
discuss my field of expertise and how orbital research has played a key 
role in promoting understanding of our physical world. One of the major 
thematic elements in the research and manufacturing of materials is 
what is termed the microstructure. The understanding and control of 
microstructure is one of the ultimate goals of both the materials 
scientist and materials engineer. A material's microstructure includes 
not only what atoms make up a material (composition), but also how are 
those atoms arranged (structure).What is the geometry of these atomic 
arrangements and what patterns emerge? Microstructure is a vital theme 
in materials science because it appears in both major paradigms of 
material science. That is, the way a material is formed determines its 
microstructure, and a material's microstructure determines how it 
behaves. This then, of course, determines whether or not a material is 
useful for a given engineering purpose.
    Historically, during the emergence and development of materials 
science, scientists were most interested in the two microstructures 
that could be completely described, perfect single crystals and 
completely disordered glasses. Nonetheless, important aspects of a 
specimen's properties depend on a range of complex microstructures that 
exist between these two extremes. They could not be addressed from a 
general scientific or engineering methodology until the description and 
behavior of those complex microstructures were better understood. For 
most materials, this analysis requires the understanding of how solids 
form from their melts. For metals and alloys, such an analysis further 
requires an understanding of what we call dendritic solidification.
    During the past fourteen years my research activities have 
concentrated in the examination of microstructure as it concerns 
dendritic solidification. Dendritic solidification is the 
transformation of a molten liquid into a complex, tree-like branching 
crystalline microstructure. Dendrites are known to appear in the 
freezing of water, molten salts, ceramic materials, organic materials, 
and most importantly in the solidification of metals and alloys. I have 
been personally involved in the experimental investigation of the 
growth of thermal dendrites. With the aid of NASA's orbital facilities 
and programs we have made substantial progress because the effective 
reduction in gravitational body forces on orbit enabled us to 
understand details of the process that we were not able to accomplish 
otherwise.
    The NASA materials science program has also made substantial gains 
in the understanding of microstructure. Currently, through its flight 
programs, NASA is the leading governmental agency in promoting and 
enabling the understanding of microstructure.
    With respect to dendritic solidification in particular, despite the 
recent advances, the following quote from 1999's National Research 
Council's (NRC's) report on Condensed Matter and Materials Physics 
makes clear there is more to be done. The report states,

         Very significant progress has been made in the last decade in 
        understanding dendritic pattern formation in crystal growth. 
        That progress, however, has yet to have a major impact on 
        efforts to predict and control solidification microstructures 
        in industrially important materials. In part, the difficulty is 
        that there remain some challenging scientific problems to be 
        solved, such as the `mushy zone.' Another part of the 
        difficulty is that there is relatively little effort in this 
        area in the United States, especially in industrial 
        laboratories.

    Work remains to be done both in understanding additional details 
about dendritic growth, and in bridging the gap between our 
understanding of an isolated isothermal dendrite and the final, as-cast 
microstructure of metals and alloys. The ``mushy zone'' during 
dendritic solidification processes is the region where solidification 
is actively occurring, and the material is part liquid and part solid 
(hence the term ``mushy zone''). This zone consists of many dendrites, 
each growing in a complicated manner, interacting with their 
neighboring dendrites. The ultimate scientific goal is to understand 
this process in its entirety. But to reach this goal, it is necessary 
to first understand how individual dendrites grow, both isolated from 
and subject to external influences. This is the substance of several 
NASA funded projects.
    The fact that NASA has been funding research on dendrites since the 
mid 1970's, both in ground and flight programs, and that the research 
is now so varied and so vibrant, is evidence of the success of NASA 
physical science in space program. Using the orbital environment to 
continue this progress in understanding dendrites is vital. If the 
access to orbit were eliminated, then the most fruitful avenue of 
advancement on this important topic will be halted. While orbital 
research is vital, I content that human tended scientific missions are 
not absolutely necessary to continued progress in our quest to 
understand more about microstructure.
    And while I have mentioned research on dendrites specifically, I am 
mindful that the research in which I participate is but one of many 
examples of productive lines of research in materials science. There 
are many additional examples of important research being done in the 
fields of Fluids, Combustion, Fundamental Physics, and Biotechnology. 
Since I cannot speak authoritatively on these fields, I refer the 
Committee to experts in those scientific fields.

<bullet>  What alternatives exist to carry to orbit micro-gravity 
experiments that could be conducted autonomously if the Space Shuttle 
or Space Station were not available for whatever reason?

    To the best of my knowledge, at this time, there are no 
alternatives for autonomous or remote operations of on orbit 
experiments if the Space Shuttle or Space Station were unavailable. 
NASA has extensive ground programs that use drop tubes, drop towers, 
and parabolic airplane flights to provide from 2 to 25 seconds of 
apparent weightlessness. These are valuable and productive programs in 
their own right, but they are not a substitute for long duration 
orbital flight experiments.
    I believe that the Office of Biological and Physical Research in 
Space has begun to discuss an autonomous or remote platform, but no 
action or commitment to such a program has been made.

<bullet>  If none, how much would it cost NASA to provide researchers 
such an alternative?

    I do not have the necessary expertise to make a specific financial 
estimate of what a free flying, on orbit, autonomous or remote 
controlled facility would cost. However, I can detail the tradeoffs 
between an autonomous/remote facility versus that of continued human 
enabled facilities. In my view, these trade-offs favor the autonomous/
remote facility.
    NASA already has the appropriate expertise at the Office of 
Biological and Physical Research in Space and at the various field 
centers to design, built, launch, operate, and recover an autonomous/
remotely controlled payload platforms. The only new feature would be 
the newly designed and built space flight hardware for these 
operations.
    If experiments had to be designed for an autonomous/remotely 
controlled facility, there would be both cost increases and savings. 
The cost increases would be to design and built autonomous or remotely 
controlled experiments in place of those that were formerly designed 
for astronaut operation. Similarly, those experiments that were built 
to operate autonomously or remotely could be scaled back some because 
of the relaxation of constraints necessary for flight aboard a human 
tended spacecraft.
    The greater cost savings would occur because there would be no need 
to launch and operate Shuttles dedicated to physical science 
experiments. There would be significantly less upmass to the 
International Space Station for physical science experiments. The Space 
Station itself could be scaled back as there would be no need for 
laboratory space dedicated to physical science experiments, and there 
would be no requirements for astronauts to be trained or travel to 
orbit to conduct these physical science experiments.
    In addition, there would be some secondary cost savings as well. 
Currently, payload experiments are designed and built to exacting 
standards so as to certify that a given experiment has a greater than 
90 percent chance of success. This high standard is necessary since the 
cost and risk of bringing that payload to orbit is so high. If a new 
unmanned autonomous or remote facility could be brought online and made 
operational at a lower cost per launch, the probability of success 
standards could be relaxed to, say, 75 percent, with a much greater 
percentage reduction is design, construction, testing, certification, 
and operating costs. This is so because if a given experiment were not 
successful, it could be modified and re-launched on a future flight 
quickly and inexpensively. In other words, a whole new design and 
operating philosophy would occur with significant cost savings.
    Lastly, with an autonomous or remote facility as described above, 
it would be significantly easier and more likely to maintain launch and 
operating schedules. The reliability of scheduling would also result in 
a cost savings and would give the program a consistency that would 
benefit all current investigators and help attract graduate students 
and post doctoral associates into the program.

<bullet>  To what extent, if any, would a more ambitious mission for 
NASA, such as sending people back to the Moon or to Mars, be likely to 
provide materials science researchers with unique opportunities for 
experimentation?

    It is very unlikely that a more ambitious mission for NASA, such as 
sending people back to the Moon or to Mars, would be likely to provide 
materials science researchers with unique opportunities for 
experimentation. Materials science is a laboratory science aimed at 
understanding and controlling the inner workings of materials. Unlike 
like observational sciences and planetary geology, the Moon and Mars 
have little or nothing to offer to the physical laboratory sciences.
    The key element of the on orbit free fall environment for materials 
science researchers is the effective elimination, or great reduction, 
in gravitational body forces. This reduction effectively eliminates the 
hydrostatic pressure in fluids, and thereby effectively eliminates 
buoyancy, sedimentation, and natural convection while giving greater 
reign to other convective processes and surface effects. This allows a 
materials scientist to try to understand fundamental phenomena in how 
materials are formed and function in a way that is simply not possible 
on an Earth based, or other planetary, laboratory.
    Naturally, if NASA had a more ambitious mission, such as sending 
people back to the Moon or to Mars, materials science would be one of 
the enabling technologies, much like the present NASA sponsorship in 
materials for radiation shielding. The need for such enabling 
technologies would benefit materials science as there would be 
increased funding for certain lines of research. However that research 
work would be the more traditional Earth-based laboratory materials 
research and is not really different than that which is taking place in 
academic, national, and industrial laboratories today.

Additional Comments Related to the Specific Questions Submitted by the 
                    Chair

    In addition to my statement directly addressing the specific 
questions posed by the Chair, I have a number of comments that 
indirectly address those questions.
    Several of the questions addresses to me were specifically directed 
to my professional experience in condensed matter and materials 
physics. I answered these questions to the best of my ability. In 
addition, when I believed my knowledge to be up to the task, I inserted 
comments about other of the disciplines under the auspices of the 
Office of Biological and Physical Research in Space.
    When colleagues heard that I was testifying here today, one said 
something like ``Don't say anything bad about Fundamental Physics.'' 
Well I won't. But I would like to do one better. I affirm the 
tremendous value of the research in combustion, fluids, fundamental 
physics, and materials science that has been done by brilliant and 
talented scientists, and it remains my fervent hope that this 
fundamental research will continue to take place on orbit. I cannot 
make, and will not attempt to make any value judgment that places one 
of these disciplines, even my own, above another.
    I say this for the real fraternity I belong to is science, and when 
one science is diminished in competition with another, all are 
diminished. It is crucial that all sciences have a path to the future. 
A while back when the crisis in science funding occurred in the Office 
of Biological or Physical Research, a fellow materials scientist 
advised me to get out there and lobby for materials the way other 
scientists are doing for their discipline. To the extent that this was 
true, it was deleterious to all the so named ``microgravity'' sciences, 
and other sciences as well. I will not engage in that. Despite any 
criticisms I have expressed, I am a committed advocate of the on-orbit 
environment as one of many vital national resources for scientific 
advancement across the disciplinary boundaries.
    Lest my advocacy for an autonomously or remotely operated facility 
for the physical laboratory sciences in low-Earth orbit be 
misinterpreted, I also favor a continued human presence in space. We 
may always need astronauts to assume certain risks human exploration 
and development of space. I agree with NASA when they say that 
``exploration is what great nations do'' and ``exploration is part of 
the human fabric.'' Space shuttles and space stations may indeed be 
necessary to fulfill that need to explore. I am only advocating that a 
better balance be found for autonomous, remote and human enabled 
programs. I fully support NASA and the country in looking for a grand 
overarching mission, including that of the future of human space 
flight. However, the time has come to decouple the human exploration 
and development of space from the needs and benefits of conducting 
basic research in the laboratory physical sciences in low-Earth orbit.
    I think that many scientists fear that if this decoupling takes 
place, that the basic laboratory physical sciences would disappear from 
NASA's portfolio in favor of the more dramatic and compelling future of 
human space flight. I share that fear, and if that came to pass it 
would be a great shame. However, the cost of using astronauts to 
perform science experiments to gain public support of science in space 
is not justified. All the orbital experiments that can be conducted 
autonomously or remotely should be done in that mode. The Office of 
Biological and Physical Research portfolio is a vibrant and vital 
program. I truly believe that moving the physical science research 
program, and as much of the biological research program as possible, to 
a fully autonomous or remote facility would benefit both the program 
itself and be a great complement to NASA's larger mission.

Conclusion

    As stated earlier, NASA already has the appropriate expertise at 
the Office of Biological and Physical Research in Space and at the 
various field centers to design, built, launch, operate, and recover an 
autonomous/remote controlled payload platform. I believe, based on the 
way NASA has created and cultivated such a robust, professional and 
productive laboratory science program on orbit, that they could 
assuredly manage a tremendously productive autonomous/remote facility 
as a vital national resource, and do so at a reasonable and reduced 
cost and at greatly reduced risk.
    Again, thank you for the opportunity to address you here today.

Exhibit 1

June 29, 2003, Sunday
EDITORIAL DESK

                  How Science Brought Down the Shuttle

                 By Matthew B. Koss (Op-Ed ) 954 words

    WORCESTER, Mass.--As a scientist whose experiments were carried out 
on three missions of the Space Shuttle Columbia, I have been following 
with great interest the findings of the board looking into the 
Shuttle's demise. Though a piece of foam may be found ultimately 
responsible, as the Columbia Accident Investigation Board announced 
last week, on some level I feel personally culpable for the loss of the 
seven astronauts. In-orbit experiments like mine have been used to 
justify manned space projects like the Shuttle for decades.
    The truth is that the vast majority of scientific experiments 
conducted in orbit--including my own--do not require astronauts. The 
main reason for in-orbit experimentation is to observe how a scientific 
process works without gravity-driven influences. But almost all of 
these tests, save those that must be done on humans, can be controlled 
from the ground via computer or by robots in space. In fact, some of 
the best work is done this way when the crew is asleep, not moving 
about and causing vibrations.
    To be sure, a lot of important science has been conducted in orbit. 
For example, research on the large single crystals of silicon that are 
at the heart of computer chips arose from the many detailed studies of 
crystal growth on the Space Shuttle. But, in fact, experiments like 
these are often more efficient and yield more fruitful results when 
done without the involvement of astronauts.
    The science performed on the Shuttle can be classified as either a 
payload or a mid-deck laboratory experiment. Payload experiments are 
self-contained packages mounted in the payload bay, the wide open space 
in the back of the Shuttle. They either run autonomously or are 
controlled remotely via computers on the ground. Laboratory experiments 
are performed in the mid-deck or Spacelab module, and are done by the 
astronauts with computer assistance from the ground.
    My experiments, on the fundamentals of how liquids turn into 
solids, were originally planned for the mid-deck, where they would be 
controlled by an astronaut who was scheduled to do eight tests. But 
because of launching delays, the project was changed to a payload 
experiment that would perform tests autonomously. During the flight, 
initial data was transmitted to the ground and analyzed by me and my 
colleagues. Performing the experiment remotely, without crew 
involvement, allowed us to do 63 test runs.
    Remote-controlled experiments may seem to contradict images we have 
grown accustomed to--of happy, busy astronauts manipulating scientific 
equipment or talking about the science on board, or occasionally 
reporting on the objectives of experiments. But this public image of 
astronauts as laboratory scientists working on their own experiments is 
a bit misleading. Since the Mercury 7 pioneers, the astronaut corps has 
served one overriding political and public relations purpose--to sell 
the space program.
    The idea of using the Space Shuttle as a scientific laboratory 
actually came about after the Shuttle's design was already in place. 
The Shuttle program was conceived in the waning days of the Apollo 
program as the best option to continue a manned space program at the 
lowest cost. However, without a place to shuttle to, and not nearly 
enough satellites that needed a Shuttle to launch or repair them, the 
Shuttle program succeeded in doing little beyond creating a human 
presence in space. The idea of the Shuttle as an in-orbit lab was used 
as a justification for investment in its future.
    Similarly, the International Space Station has been aggressively 
marketed as a science lab. In fact, the Station is seriously flawed in 
that too much crew time needs to be committed to Station maintenance, 
and too many of the planned experiments depend on crew operations when 
they could more effectively be done without them. In many cases, the 
crew is needed only to deploy an autonomous experiment.
    Because of cost overruns and budget problems, the Station's crew 
was cut back to three from the planned seven. Originally, 120 
astronaut-hours per week were to have been devoted to science; this has 
been cut back to 20 hours per week. With the Shuttle program grounded 
once again, it has become even more difficult to exchange crews, 
replace experiments or repair and refurbish equipment.
    Scientific experimentation in space can be safer and more cost 
effective using long-duration remote controlled orbital spacecraft. At 
the outset, the costs of developing this technology may appear greater 
than simply perfecting the Shuttle. But if you do not need to provide a 
safe and sustaining environment for astronauts--making sure takeoffs 
and landings aren't too fast, providing enough food and oxygen--the 
overall cost will be significantly reduced.
    If NASA is not able to convince the public of the importance of 
science in orbit without astronaut involvement, then so be it. At least 
America's refusal to support science would be honest, would not 
needlessly endanger human lives or compromise the integrity of science 
and scientists.
    We will always need astronauts to assume certain risks to develop 
the technology that allows for human exploration of space. The space 
shuttles and space stations may be necessary to fulfill that mission. 
However, we need to separate the goal of scientific experimentation 
from the desire for space exploration. I hope that the unfortunate 
death of the Columbia astronauts will forever sever the false link that 
has been created between the two.
    Astronauts do not risk their lives to perform scientific 
experiments in space. They fly to fulfill a much more basic and human 
desire--to experience the vastness of space.

Copyright 2002 The New York Times Company

                     Biography for Matthew B. Koss

    Matthew B. Koss is an Assistant Professor of Physics at the College 
of the Holy Cross in Worcester, Massachusetts (2000-present). He earned 
an AB degree from Vassar College (1983), and a Ph.D. in Experimental 
Condensed Matter Physics from Tufts University (1989). Following his 
graduate work, he was a research scientist and research professor in 
the Materials Science and Engineering Department at Rensselaer 
Polytechnic Institute (1990-2000).
    Currently, Dr. Koss is a the Co-Investigator of ``Materials Science 
as an Avenue for Interdisciplinary SMET Education,'' and ``The Study of 
Dynamics and Tip Selection in Thermal Dendrites via Pressure Moderated 
Step Changes in Supercooling.'' In addition, Dr. Koss was the Lead 
Scientist for the ``Isothermal Dendritic Growth Experiment,'' a basic 
research project on dendritic solidification that conducted successful 
Space Shuttle flight experiments on STS-62, -75, and -87 in 1994, 1996, 
and 1997, respectively. He was also the Co-Investigator of the 
``Rensselaer Isothermal Dendritic Growth Experiment'' (1999-2003), a 
continuation of his work at Rensselaer, and the Principal Investigator 
of the ``Transient Dendritic Solidification Experiment'' (1997-2003), a 
flight definition experiment that was being developed for operation on 
the International Space Station and that was ``returned to ground 
status'' in 2002.
    Dr. Koss is a member of the American Institute of Aeronautics and 
Astronautics (AIAA), the American Association of Physics Teachers 
(AAPT), the American Physical Society (APS), and Sigma Xi--the 
Scientific Research Society. Currently, he serves on the AIAA Technical 
Committee on Microgravity and Space Processes, is a Councilor-at-large 
for the New England Section of the AIAA, and is the Holy Cross 
Affiliate Representative of the Massachusetts Space Grant Consortium 
(MASGC). Dr. Koss has authored or co-authored over 50 technical papers 
and has prepared or presented over 100 technical talks and 
presentations. He also served as an AIAA Distinguished Lecturer from 
1999-2002.
    In addition to his research and professional activities, Dr. Koss 
is involved in outreach and education. He developed and organized a 
two-week workshop to introduce K-12 teachers to the sciences related to 
apparent microgravity. He continues to work to develop programs and 
materials for teachers, their students, and the community to learn 
about science, engineering, and NASA's Physical Science in Space 
Program.
    A lifelong Red Sox fan, Matthew, his wife Betsy, and his daughter 
Frederica reside in Shrewsbury, Massachusetts, approximately a one-hour 
drive to Fenway Park.

    Chairman Boehlert. Thank you very much, Dr. Koss.
    Dr. Roland.

   STATEMENT OF DR. ALEX ROLAND, PROFESSOR OF HISTORY, DUKE 
                           UNIVERSITY

    Dr. Roland. Thank you, Mr. Chairman.
    The United States may have a long-term future in human 
space flight. For the near-term, however, human space flight 
should be suspended, in my opinion, or at least drastically 
curtailed. If the Shuttle flies at all, it should fly unmanned 
or at worst with a minimal crew. The Space Station should be 
mothballed or converted to a space platform, a research 
facility to be visited periodically for refueling, maintenance, 
and changing experiments. The upcoming mission to refurbish the 
space telescope should be canceled or flown only by the 
astronauts actually conducting the repairs. For the foreseeable 
future, all orbiting scientific instruments should be designed 
to function unattended and be launched on expendable launch 
vehicles to the optimal orbits.
    The problem, of course, is the Shuttle. Humans may one day 
fly to Mars and beyond, but it won't be on the Shuttle. While 
the Shuttle is a technological marvel, it is also the world's 
most expensive, least robust, and most deadly launch vehicles. 
On average, one astronaut dies for every eight flights. I don't 
know of any transportation system, not even an experimental 
system, approved to operate with such a record. After the 
Challenger disaster, the Rogers Commission and every other body 
that studied the accident gave NASA the same advice. First, do 
not rely on the Shuttle as the mainstay of the space program; 
it is too expensive and too fragile to ever fill that role. 
Second, begin at once to develop a replacement vehicle. Sixteen 
years later, the Columbia disaster found NASA massively 
dependent on the Shuttle with no replacement vehicle in sight. 
The Shuttle has never been, and never will be, the launch 
vehicle that NASA wants it to be, yet the agency appears 
determined to return to business as usual.
    At least for the short-term, we do not need the Shuttle and 
we do not need people in space. Anything we want to do in space 
we can do more cheaply, more effectively, and more safely with 
automated spacecraft monitored and controlled from Earth. The 
reason is simple. Whenever people are put on a spacecraft, its 
mission changes. Instead of exploration or science or 
communication or weather, the mission of the spacecraft becomes 
life support and returning the crew alive. This limits where 
the spacecraft can go, how much equipment it can carry, how 
long it can stay, what risks it can take in pursuit of its 
mission. The net impact of people on a spacecraft is to greatly 
limit its range and capabilities without adding any value that 
can begin to compensate for these drawbacks. A rough rule of 
thumb, first introduced by NASA Associate Administrator George 
Low in the Apollo program, is that putting people on a 
spacecraft multiplies tenfold the cost of the undertaking.
    For more than 40 years, NASA has been sending humans and 
machines into space. It has spent about 2/3 of its funds on 
human space flight, about 1/3 on automated spacecraft. The most 
important returns, after Apollo, have come from the machines: 
the space probes, the scientific satellites, the 
communications, geodesy, weather satellites. The return on 
manned space flight has been mostly psychological, a kind of 
public entertainment based on flying the astronauts as an end 
in itself. NASA used to call this ``the next logical step,'' 
envisioning a succession of manned projects culminating in a 
human mission to Mars. Now NASA simply says that it has 
achieved a ``permanent human presence in space.'' It has not 
made clear what the people are to do there other than to take 
their own pulse in an endless round of experiments to 
understand the physiological risks of flying to Mars and back.
    Before we can fly to Mars, we must first master flight to 
low-Earth orbit. Indeed, if we were to commit tomorrow to a 
human mission to Mars, it would still cost more to get to low-
Earth orbit than it would to get all of the rest of the way to 
Mars and back. This is the real obstacle to our future in 
space. It is the obstacle the Shuttle was supposed to overcome. 
After 30 years and tens of billions of dollars, it is clear 
that the Shuttle will never be the vehicle NASA promised. We 
must recognize that reality, scrap or severely curtail Shuttle 
operations, and get on with the challenging but promising 
business of building the launch vehicle or vehicles we need.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Roland follows:]

                   Prepared Statement of Alex Roland

    The United States may have a long-term future in human space 
flight. For the near-term, however, human space flight should be 
suspended, or at least drastically curtailed. If the Shuttle flies at 
all, it should fly unmanned, or at worst with a minimal crew. The Space 
Station should be mothballed or converted to a space platform, a 
research facility to be visited periodically for refueling, 
maintenance, and changing experiments. The upcoming mission to 
refurbish the space telescope should be canceled or flown only by the 
astronauts actually conducting the repairs; for the foreseeable future 
all orbiting scientific instruments should be designed to function 
untended and be launched on expendable launch vehicles to their optimal 
orbit.
    The problem, of course, is the Shuttle. Humans may one day fly to 
Mars and beyond, but not on the Shuttle. While it is a technological 
marvel, it is also the world's most expensive, least robust, and most 
deadly launch vehicle. On average, one astronaut dies for every eight 
flights. I do not know of any transportation system, not even an 
experimental system, approved to operate with such a record. After the 
Challenger disaster, the Rogers Commission and every other body that 
studied the accident gave NASA the same advice. First, do not rely on 
the Shuttle as the mainstay of the space program; it is too expensive 
and too fragile to ever fill that role. Second, begin at once to 
develop a replacement vehicle. Sixteen years later, the Columbia 
disaster found NASA massively dependent on the Shuttle with no 
replacement vehicle in sight. The Shuttle has never been and never will 
be the launch vehicle that NASA wants it to be, yet the agency appears 
determined to return to business as usual.
    At least for the short-term, we do not need the Shuttle and we do 
not need people in space. Anything we want to do in space, we can do 
more cheaply, more effectively, and more safely with automated 
spacecraft monitored and controlled from Earth. The reason is simple. 
Whenever people are put on a spacecraft, its mission changes. Instead 
of exploration or science or communication or weather, the mission of 
the spacecraft becomes life support and returning the crew alive. This 
limits where the spacecraft can go, how much equipment it can carry, 
how long it can stay, and what risks it can take in pursuit of its 
mission. The net impact of people on a spacecraft is to greatly limit 
its range and capabilities without adding any value that can begin to 
compensate for these drawbacks. A rough rule of thumb, first introduced 
by NASA Associate Administrator George Low in the Apollo program, is 
that putting people on a spacecraft multiplies tenfold the cost of the 
undertaking.
    For more than forty years, NASA has been sending humans and 
machines into space. It has spent about two-thirds of its funds on 
human space flight, about one-third on automated spacecraft. The most 
important returns, after Apollo, have come from the machines--the space 
probes, the scientific satellites, the communications, geodesy, and 
weather satellites. The return on manned space flight has been mostly 
psychological, a kind of public entertainment based on flying the 
astronauts as an end in itself. NASA used to call this ``the next 
logical step,'' envisioning a succession of manned projects culminating 
in a human mission to Mars. Now NASA simply says that it has achieved a 
``permanent human presence in space.'' It has not made clear what the 
people are to do there, other than take their own pulse in an endless 
round of experiments to understand the physiological risks of flying to 
Mars and back.
    Before we can fly to Mars, we must first master flight to low-Earth 
orbit (LEO). Indeed, if we were to commit tomorrow to a human mission 
to Mars, it would still cost more to get to LEO than it would to get at 
all the rest of the way to Mars and back. This is the real obstacle to 
our future in space. It is the obstacle that the Shuttle was supposed 
to overcome. After thirty years and tens of billions of dollars, it is 
clear that the Shuttle will never be the vehicle NASA promised. We must 
recognize that reality, scrap or severely curtail Shuttle operations, 
and get on with the challenging but promising business of building the 
launch vehicle or vehicles we need.
    This can be done with no increase in NASA's budget. The money saved 
by stopping or limiting Shuttle operations and by moth-balling or 
converting the Space Station will free up enough funds annually to do 
what the Rogers Commission told NASA to do seventeen years ago. Of 
course, additional funding might accelerate the process, but this is 
not a race, like Apollo was. It is a simple, straight-forward research 
and development program committed to the long-term development of our 
access to space. It may take five to ten years to develop a space plane 
to shuttle astronauts to LEO. It will probably take ten to twenty years 
to develop a vehicle that will provide truly reliable and economical 
launch to LEO. There is no reason to believe that the public will lose 
interest in space if there are no astronauts in orbit. Manned space 
flight shut down through much of the 1970s while we developed the 
Shuttle. Neither Congress nor the public abandoned NASA or the space 
program in that time. Indeed, a serious research and development 
program might actually increase public interest. The Shuttle now 
captures public attention only when it flies celebrities or fails 
catastrophically.
    Another way to restore public interest in the space program during 
a sustained period of launch vehicle development is to divert some of 
the savings from Shuttle and Space Station operations to unmanned space 
flight. The international fleet of automated spacecraft currently on 
its way to Mars holds out far more promise of exciting discovery than 
does one more astronaut running a treadmill in LEO. Space science has 
been repeatedly taxed over the years to staunch the budget hemorrhaging 
in the Shuttle program. Many worthy projects await funding.

                       Biography for Alex Roland

    Alex Roland is Professor of History at Duke University, where he 
teaches Military History and the History of Technology. A 1966 graduate 
of the Naval Academy, Professor Roland served in the Marine Corps 
before taking his Ph.D. in History at Duke in 1974. From 1973 to 1981 
he was a historian with the National Aeronautics and Space 
Administration. Since returning to Duke in 1981, he has chaired the 
Department of History (1995-2000) and held the Harold K. Johnson Chair 
of Military History at the Military History Institute, U.S. Army War 
College, and the Dr. Leo Shifrin Chair of Naval-Military History at the 
U.S. Naval Academy. His books include Underwater Warfare in the Age of 
Sail (1978), Model Research: The National Advisory Committee for 
Aeronautics (1985), The Military Industrial Complex (2001), with 
Richard Preston and Sidney Wise, Men in Arms: A History of Warfare and 
Its Interrelationships with Western Society (5th ed., 1991), and with 
Philip Shiman, Strategic Computing: DARPA and the Quest for Machine 
Intelligence, 1983-1993 (2002). He has edited A Spacefaring People 
(1985) and, with Peter Galison, Atmospheric Flight in the Twentieth 
Century (2000). He is a past President of the Society for the History 
of Technology and the Vice President of the Society for Military 
History.

    Chairman Boehlert. Thank you very much.
    Dr. Murray.

 STATEMENT OF DR. BRUCE MURRAY, PROFESSOR OF PLANETARY SCIENCE 
    AND GEOLOGY EMERITUS, CALIFORNIA INSTITUTE OF TECHNOLOGY

    Dr. Murray. Thank you, Mr. Chairman and Members of this 
committee. I am very, very pleased that you are undertaking 
these hearings, because indeed the problem is one of vision, as 
I noticed this committee really has permanently imprinted on 
its walls behind you, and from that a willingness to really 
look what that means. And so I am coming from that point of 
view.
    I have been involved in space exploration for 40 years, 
mostly with the automated systems, but I have been a strong 
advocate of human space exploration of Mars. That has been hard 
to do at NASA, and so I personally have used the planetary 
society of private and non-profit advocacy as a platform.
    The reason it has been so hard to do with NASA, and this 
goes back to 1983 or '84, was you will always get the statement 
from them, ``We will think about that after Space Station is 
completed.'' NASA has had that as--it has been focused on that. 
Of course, the Shuttle is part of that. And the consequence, as 
everyone seems to agree, the U.S. is bogged down in low-Earth 
orbit.
    What is needed here is not so much technology. I don't 
think it is primarily a financial problem. It is a perspective 
problem on ourselves. It takes a realistic assessment of 
program alternatives and it takes a lot of political courage.
    Latter is the part that you can both contribute to directly 
and certainly contribute to indirectly by building public and 
governmental consensus about what to do. I believe that the way 
out of this is that--being bogged down to Earth orbit--and 
unless we really embrace a long-term destination for humans in 
space, there is no point in the long run of doing what we are 
doing now. It is that simple. We are bogged down, not just 
technically, but we are bogged down in terms of purposes. It is 
tragic when people die in that purpose. It is not tragic, it is 
sad when people die, say, in a military conflict of great 
importance, but it is very sad when they die doing something 
that isn't really worth doing with humans. The only thing that 
really advances is the idea that we are advancing as a country 
and, in that sense, the world in a broader sense out on an 
important destination which is to determine whether or not, in 
this case, Mars, which is the only potentially inhabitable 
place outside of Earth, if Mars is a potential habitat for 
human activities in the future. That is the dream. It may not 
be true. We don't know.
    We can tell a lot by robots, and we are learning many good 
things. For example, the recent Odyssey results revealing the 
presence of waterways over a much broader parts of the planet 
is really important. But we won't know whether we can make that 
a place to begin for human activities until humans go and try 
to do it. That should be their objective. It should not be to 
go demonstrate technology, go place the American flag there or 
whatever. That is the Apollo thinking from a different era. It 
was very successful then, but it was that kind of thinking 
which made the 1989 attempt, the only other attempt to do 
something like this, such a disaster politically and every 
other way because it wasn't the right reason.
    So we have to embrace the right reason. We have to embrace 
the fact that this is something that is going to take a while 
and not going to get it done in two presidential cycles or 
however many congressional ones. So that means that the program 
itself has to be composed of a lot of short-term milestones and 
efforts, each of which is enabling to the longer goal, each of 
which is affordable, and each of which is interesting and 
popular. That is the key to this dilemma. That is how we get 
out of it.
    In order for that to happen, NASA is going to have to feel 
pressure to produce an alternative to their current Space 
Station and Shuttle plan. It is clear they are as committed to 
that as they had been. They don't see a way out of it, and so 
they are going to sit there and try as best as possible to stay 
on that track. Now if they are successful, it means that human 
space flight will probably disappear either gradually by a loss 
of interest or by catastrophically when the next fatality has 
occurred either on the Shuttle or on the Station itself.
    We are that close. It would be terrible, and it is horrible 
legacy of this generation, of this political leadership of 
which you are a part, that we could lose this wonderful thing 
we started with, especially Apollo. We could lose it because we 
didn't have the political courage to recognize that we have 
gotten ourselves in an insupportable situation.
    I have written testimony, and I am looking forward to 
answering detailed questions on how to do all of this, but I 
will leave you with both thanks for having a chance to talk to 
you and saying that fundamentally the problem is your problem. 
It is a political leadership problem, a perceptual problem. It 
is not a financial problem. It is not a technical problem.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Murray follows:]
                   Prepared Statement of Bruce Murray

                   ``EMBRACING THE PROMISE OF SPACE''

Mr. Chairman and Members of the Committee:

    It is most important now that this committee is helping to develop 
consensus about where America's human space flight program should be 
headed. I am grateful for the opportunity to express my personal views 
today on that subject.
    A remarkably enduring American belief in the promise of space has 
sustained NASA human flight through seven Presidencies and twenty-one 
Congresses, through the grand accomplishment of the Apollo human 
landings on the Moon, followed by our return to more prosaic activities 
in low-Earth orbit, through the end of the Cold War and of U.S.-Soviet 
nuclear-armed rivalry, through the powerful post-Cold War trends of 
divestiture of governmental functions, through the Internet Revolution, 
and through the striking domestic cultural and attitudinal changes 
accompanying such tumultuous events.
    However, four decades and 241 human flights placing 429 individuals 
in space have also demonstrated that this popular endeavor is 
intrinsically risky and expensive. Fourteen U.S. astronauts and four 
Soviet cosmonauts have died in space. In addition, three others died in 
the Apollo 1 fire during essential tests on the launch pad in January, 
1967. Human space flight has always been the major NASA priority, 
consuming today about seven billion dollars, one-half of NASA's total 
funds and a not insignificant component of the discretionary portion of 
the federal budget.
    Now, as this hearing illustrates, many are questioning the wisdom 
of human flight itself in the wake of the Columbia disaster and of the 
CAIB Report: ``Why spend all those federal tax dollars year after year 
on just sending astronauts in orbit when we have so many other needs 
here on Earth?'' ``Where are we going in space, anyway?''

Why Human Space Exploration?

    Indeed, the fundamental problem is that we truly have no compelling 
destination in space for Americans. Since the 1970s, NASA thinking has 
been dominated by the internal dogma that the space station IS the 
destination. It was originally targeted to begin initial operations in 
the early 1990s. Instead, an ISS of limited capability is still years 
away and likely to do very little to advance human exploration of 
space. Furthermore, its promised benefits to commercial manufacturing 
and to medical research were eclipsed long ago by new technology and 
new manufacturing processes here on the ground. Most seriously for 
America now, it doesn't open the way to affordable future human flights 
beyond Earth orbit. Rather than beckoning as an orbital portal to 
expanding opportunities, space station is looking more and more like a 
costly orbital dead end.
    There is a growing sense we have lost our way in space and are 
bogged down in low-Earth orbit, driven by past domestic and political 
commitments rather than by genuine enthusiasm and excitement for the 
future. At this critical juncture we must once again infuse our human 
space flight program with a sense of exploration and adventure. We must 
once again commit ourselves to human space exploration.
    Humans have been pushing beyond familiar locales throughout history 
for a variety of reasons including survival, curiosity, power, 
idealism, and economics. The Soviet Union initiated space exploration 
for domestic and international prestige with Sputnik in 1957 and with 
Gagarin in 1961, quickly followed for the same reasons by the U.S. with 
Explorer 1 and Glenn. (This pattern currently is being repeated by 
China four decades later). The U.S. then raised the stakes in 1961 by 
initiating the Apollo project to the Moon as a Cold War priority 
presidential initiative. President Kennedy succeeded in focusing large 
resources to challenge the Soviet Union to a space race only we could 
win. The project objective was simple and clear--get an American to the 
surface of the Moon and back alive by the end of 1960s. Thus NASA was 
given a dramatic and popular human mission of exploration with the 
highest national priority and a fixed time scale.
    To its lasting credit NASA won that race to the Moon, dramatically 
demonstrating American technological superiority to the world and to 
our Soviet adversaries. Most significantly in retrospect is that Apollo 
expanded forever all humanity's sense of its own potential. We must 
similarly challenge our current visions for future human space 
endeavors.
    However, that Apollo success also removed the overriding national 
security need which had powered NASA through the 60s and early 70s. As 
a consequence, NASA was led to abandon further human space exploration 
as politically unsupportable and set off, unsuccessfully it turns out, 
to try to create a sustainable utilitarian role for humans in Earth 
orbit.

Where Should We Be Heading Beyond Earth Orbit?

    So what should be our destination beyond Earth? Where is that place 
worth the inevitable risk to human life involved, and is compelling 
enough to attract sustained public support over decades?
    Because NASA's only experience with human travel beyond Earth orbit 
ended in 1972, NASA in 1989 was not well prepared when a president 
actually did ask for a plan to go back to the Moon and on to Mars. 
NASA's backward-looking approach concerning the rational for and 
implementation of future human flights to Mars was to cast it in the 
Apollo mode--as a demonstration of U.S. capability to get humans to 
Mars and back successfully on a politically realistic time scale, 
initiated by a high profile presidential initiative involving a 
significant increase in NASA expenditures. But, there wasn't then nor 
is there now any overriding national security need for a crash program 
to send Americans to Mars or Moon or anywhere else in space. Hence a 
costly political embarrassment resulted in 1989, leading subsequent 
administrations to be antagonistic toward any NASA efforts to develop 
and promote a more thoughtful understanding of the ``how, when and 
why'' of human travel beyond Earth orbit.
    Why then should America commit now to send humans to Mars in the 
future? The Moon and Near-Earth asteroids are plausible targets for new 
human scientific expeditions during the 21st Century. Privately funded 
``adventure tourism'' probably will spread from the Mt. Everest to 
Earth orbit and eventually to the Moon. Astronauts may play an 
important role in installing crucial equipment on distant space 
observatories as they did on Hubble. But, only Mars offers a plausible 
habitat for humanity beyond Earth. Only Mars offers Earthlings another 
potential venue, richly endowed with the essentials for life easily 
accessible from its surface. Carbon, Nitrogen, and Oxygen are abundant 
in its atmosphere. The U.S. Mars Odyssey spacecraft recently discovered 
a far greater distribution of accessible ice than had ever been 
imagined previously. Space suits and sealed domes will still be 
required for humans on the surface, to be sure, but greenhouses using 
local resources are entirely feasible, as is production of liquid water 
and breathable oxygen for human use from the surface ice. Liquefied 
hydrogen and oxygen for transportation and portable energy sources are 
likewise feasible, especially as small nuclear power systems become 
available to supplement indigenous solar energy in coming decades.
    Mars has as much land area as does Earth. Mars is the true space 
frontier, the legitimate abode for the dreams of the young for many 
generations to come. America should lead the world in that grand, 
positive human endeavor, using some of our enormous and visible 
technological capability to dramatically demonstrate our enduring 
commitment to Earth's future beyond the blood and conflict which 
inevitably will make up much of the 21st Century.

How to Make Humans Going to Mars Affordable and Popular

    Firstly, American objectives for the first human expeditions to 
Mars must evolve beyond Apollo-like demonstrations of national 
technical capability, as in 1989, to leadership of a long-term 
international human space endeavor to determine directly Mars' 
habitability.
    The international program of Antarctic exploration initiated in 
1957 affords a powerful historical model of a highly successful long-
term scientific exploration with unquestioned benefit to all 
inhabitants of planet Earth, often in ways not foreseen initially. 
Likewise, the multi-national relationships and experiences of the 
International Space Station provide contemporary experience with the 
benefits and challenges of real collaboration on complex human space 
systems. The legacies of both Antarctic and ISS inevitably will 
influence international attitudes about going to Mars with humans 
eventually, and must be elucidated and fused.
    So far, almost all open discourse and study of multi-national Mars 
human exploration has been non-governmental. NASA must now help lead an 
open process involving all space-faring nations as well as the public 
and private sectors in which these various experiences and viewpoints 
can be gradually fused into some consensus on overall objectives, as 
well as identification of various approaches to how and when such a 
journey might be carried out.
    Secondly, NASA must lead a broad and open look at alternative 
technical approaches to human flight to Mars, recognizing that Apollo-
like commitments to huge and expensive new launch vehicles are 
unrealistic. The timescale for the first human missions to Mars should 
be flexible, as should be the relationship to ISS operations and any 
Shuttle replacement programs. Alternatives to previously-publicized 
NASA thinking need to be included such as 1) Orbital assembly, fueling 
and launch, 2) Synthesis of likely human landing requirements with 
current robotic science missions and planning to provide for ``Mars 
Outposts'' and associated infrastructure to support eventual human 
missions which would be emplaced by nearer-term automated launch 
vehicles, 3) Maximum use of advanced information technology, including 
tele-operated and autonomous systems, 4) Conceptual design of true deep 
space human spacecraft characterized by greater overall reliability 
than previous Earth orbital and Apollo space craft that never had to 
operate more than a few days from emergency return. Similarly, human 
deep space travel must incorporate a far greater degree of regenerative 
systems than previously, and finally 5) Plans for candidate earlier 
human flights for further scientific exploration of the Moon or of a 
Near-Earth Asteroid, or to future space observatory sites should 
conceived and organized so as to provide maximum benefit to the 
eventual Mars endeavor.
    Thirdly, NASA must develop an overall schedule for the Human 
exploration of Mars that 1) is comprised of a series of frequent 
affordable steps and milestones, 2) is not characterized by a 
significant early funding requirement, and 3) acknowledges the 
consensus of mission objectives and alternative technical approaches 
resulting from the first two items above.
    Fourthly, and most important, the political leadership of this 
country must also insist on NASA developing and presenting a range of 
realistic alternatives to its current Shuttle/Space Station plans that 
can enable a credible national commitment to a paced Mars human flight 
program. These alternatives necessarily should include multi-year 
suspensions of U.S. human flight as NASA elected to do in 1975-1981, 
when NASA suspended U.S. human flight entirely after the Apollo-Soyuz 
mission until the first Shuttle test flight in order to create the 
budget wedge enabling the Shuttle to be developed. Only by considering 
such painful alternatives can the relentless decline into mediocrity 
and irrelevance of U.S. human space flight be reversed within realistic 
budget considerations. There is no ``Business as Usual'' pathway for 
the U.S. into the future. The problems of being bogged down in Earth 
orbit will get worse. . .the choices even more painful. . .until U.S. 
human flight likely will simply disappear.

Renewing Humanity's Hope in Space

    A commitment to lead the international human exploration of Mars 
can afford the American people and the world a powerful sense of a 
hopeful, promising future in space. The near-term challenges are not 
budgetary, but conceptual and attitudinal. It is time to show everyone 
that we are not bogged down in space--or on Earth--by embracing that 
most exciting, but feasible, vision of our future in space.
    This will take realistic programmatic thinking and political 
courage.

                       Biography for Bruce Murray

    Dr. Murray, 71, is Professor Emeritus of Planetary Science and 
Geology at the California Institute of Technology in Pasadena, 
California. He has been at Caltech since 1960 and currently teaches 
courses in Planetary Surfaces and supervises graduate and undergraduate 
student research on Mars.
    He was Director of the NASA/Caltech Jet Propulsion Laboratory from 
1976 to 1982. Major projects under his term included the Viking 
landings on Mars and the Voyager mission through Jupiter and Saturn 
encounters. In 1979, he and Carl Sagan and Louis Friedman founded The 
Planetary Society, a 70,000 member international organization dedicated 
to exploring the Solar System and to the search for extra-terrestrial 
intelligence (SETI). He continues as Chairman of the Board of 
Directors.
    Dr. Murray was a member of the Mars Television Teams on Mariner 4 
(1965), Mariners 6 and 7 (1969), and Mariner 9 (1971-72). He was the 
Television Team leader for the Mariner 10 flyby of Venus and Mercury 
(1973-75). He was a member of the scientific teams of the Russian 
Phobos '88 Mission, and the unsuccessful Mars '96 Mission. He is a 
Participating Scientist on the U.S. Mars Global Surveyor mission (1997-
present). He also was a Participating Scientist on the Mars Polar 
Lander and Mars Climate Orbiter missions which failed in late 1999 and 
also on the Mars Microprobe (DS-2) which likewise failed in December 
1999. He served as a Consultant to the Mars Program Independent 
Assessment Team (``The Young Committee'') which investigated those Mars 
failures of 1999. He previously served on various government advisory 
committees including the PSAC Science and Technology Panel (1967-72), 
and the NASA Advisory Committee (1995-99) and was a Consultant to the 
Space Council (1990-92). His memoir ``Journey into Space'' (Norton, 
1989) reflects this long involvement with space exploration.
    Dr. Murray also has a long-standing interest in structured ways to 
analyze and visualize potential future outcomes of alternative societal 
and natural circumstances, beginning with his book ``Navigating The 
Future'' (Harper Row, 1975). He was a consultant to the ``2050 
Project,'' a collaboration between WRI, The Brookings Institution, and 
the Santa Fe Institute from 1991-95. From 1993 to 1999 he worked with 
the John and Mary Markle Foundation to determine how new information 
technology may be developed to facilitate deliberative discourse on 
critical issues. Currently, he is Co-Producer of the PBS Series 
``Closer to Truth'' and of the accompanying website at http://
www.pbs.orc/closertotruth/.
    Dr. Murray has published over 130 scientific papers and authored or 
co-authored six books. He received his college education at M.I.T., 
culminating in the Ph.D. in 1955. His full publication list and CV are 
available at http://www.gps.caltech.edu/bcm/HomePage/.

                               Discussion

                                 Vision

    Chairman Boehlert. Thank you, Dr. Murray.
    Everyone talks about vision. I translate that to mean a 
grand strategy, but the vision or the grand strategy doesn't 
mean anything if it isn't a shared vision. Right now, it is a 
blurred vision and we have got to bring it into sharper focus. 
And one of the things that I was taken by in the Gehman report 
and it said rather specifically that the budget didn't match 
NASA's priorities. Well, in that instance, it seems to me that 
NASA has to face the reality and rethink its priorities to 
address that. That hasn't happened.
    The research part is our part on this committee. You know, 
we can give out the grand strategy, the grand vision, and we 
can authorize money and virtually unlimited dollar amounts, but 
what good is that if it is not supported by budget requests 
from the Administration or it isn't supported by the actual 
dollars from the Appropriations Committee. So we are all 
talking about the same thing. We have got to all get on the 
same wavelength, and I am afraid we are not there yet, and we 
have got a lot of work cut out for us.

                               Priorities

    Here is a general question for all of the witnesses. In 
'90, the Augustine Commission laid out a set of priorities if 
NASA's budget was flat. Those priorities were space science, 
one, two, Earth science, we used to call it ``Mission to planet 
Earth,'' three, technology development, four, development of a 
heavy lift launch vehicle, and five, space exploration, we used 
to call it ``Mission from planet Earth.'' Do you agree with 
those priorities? If not, can you give us a new set of 
priorities and what level of funding would NASA need to begin 
to implement the vision?
    Dr. Griffin, I will start with you. That is a tall order.
    Dr. Griffin. Thank you, sir.
    Now I agree with the ultimate priority for useful things to 
do. I would not have them in that order, as I think is probably 
pretty clear from my earlier remarks. I----
    Chairman Boehlert. Would you care to share your order?
    Dr. Griffin. My order would be the chronological order in 
which I would do them. Certainly, it would be starting to 
develop a heavy lift launch capability, because without that 
there is no human exploration program, which I would then place 
second. I would place space science third, Earth science 
fourth, and possibly surprisingly, technology fifth. I don't 
really mean technology is the fifth most important thing. What 
I intend to imply is that technology advancement--and 
accomplishments, I think is wasted money. And so when one 
undertakes the--reach certain destinations or achieve certain 
goals, whatever, whether they be in space science, Earth 
science, or whatever, reaching those goals entails, usually, 
doing things we don't currently know how to do. And then we 
implement the technology programs necessary to get there. But 
developing technology absent specific goals, to me, is 
wasteful.
    Chairman Boehlert. In your testimony, you state 
specifically you need to see an allocation of about $20 billion 
per year, and then you go on to list what you hope to achieve 
with that $20 billion. And the list is pretty extensive. And do 
you think we could accomplish all of the above for $20 billion 
a year?
    Dr. Griffin. Yes, sir, I do, if the other criteria is met, 
as I often indicated in the more extensive written remarks. I 
do believe NASA needs an increment of funding over what they 
have had in real dollars. Of course it has dropped quite 
substantially over recent--or the last few decades. I think--I 
guess this is a tough--you know, the right things to be doing 
or I would not have listed them. They are the things that I 
believe the space agency was chartered to accomplish. I hear 
remarks from witnesses on this panel today that imply that we 
need to reduce or curtail space flight. It is not NASA's job to 
figure out how to do less space flight. NASA was chartered to 
figure out how to do space flight. We need to revector them so 
that they are working on the proper things, but they, in our 
view, need to be given all possible encouragement to do it.
    Chairman Boehlert. Dr. Huntress, do you want to----
    Dr. Huntress. Yes. In ten years after the Augustine report, 
I would order it similarly. I am a space scientist, and so of 
course I am going to put space science or science in general, 
in fact, from space at the top of that list, and one of the 
reasons is because before we send humans to any destination we 
might choose, we are going to require to send our robotic 
spacecraft there to understand this destination and determine 
exactly what it is that humans can do best at that destination. 
Because before we send them, we are going to do the science 
robotically, because it doesn't require the same amount of risk 
and it can be done more cost effectively. But there will come a 
point where we run out of robotic capability and we would like 
humans to conduct the investigations.
    So I would pick the science first and then follow in second 
priority with human space flight. And what derives from human 
space flight and the destinations choose all of the 
technologies you are going to need for both Earth to orbit and 
for getting from Earth orbit to the destination that you are 
going to. So I agree with Congressman Gordon's assessment of 
the order of technology here. And that is the way I would list 
them.
    Chairman Boehlert. Dr. Koss.
    Dr. Koss. I see nothing wrong with the five recommendations 
you outlined from the Augustine report. I think the issue has 
always been the proper balance. I think right now they are out 
of balance in that there is too much emphasis on human space 
flight and not enough emphasis on the autonomous and remote 
capabilities. Some of the items may have to be deferred. I 
think Dr. Roland made some very good points. He is not 
advocating the end of human space flight. He is just saying we 
need to master low-Earth orbit before we can consider more. So, 
you know, keep all of those items in one's mind, but recognize 
that the balance has to be better struck. And be very careful 
of mixing the mission of one of those objectives with the 
other. I am a physical scientist. I am more concerned about 
mission to planet Earth and what happened is that mission has 
gotten tied in with the human exploration and development of 
space. And so there are astronauts that are involved in 
physical science experiments partly to make those experiments 
easier and partly for them to gain experience of being on 
orbit. And so that mixture, I think, is something to be 
concerned with.
    Chairman Boehlert. Dr. Roland.
    Dr. Roland. I would say that development of launch vehicles 
is more important than all of the other four combined, because 
anything we want to do in space entails getting there, whether 
it is automated spacecraft or human spacecraft. And until we 
improve our launch vehicle capability, we pay a penalty at the 
beginning of every mission. NASA has repeatedly said, and the 
Department of Defense has repeatedly said, that what is 
wanted--they have been saying this for 20 years--is an order-
of-magnitude reduction in launch costs. And going along with 
that is more reliability and more safety in our launch 
vehicles. That is still true. And if we address that objective, 
then all of the other things that we want to do in space will 
become cheaper, easier, and more efficient.
    Chairman Boehlert. Thank you very much. I have run out of 
time, but I will have Dr. Murray respond briefly, if he can----
    Dr. Murray. Yes.
    Chairman Boehlert.--too.
    Dr. Murray. I want to point out that the reason we are 
having these hearings you have taking place now is human 
flight, not the NASA total program. And so the Augustine report 
put automated flight well above it in priority. So we now have 
a human flight situation, which has become a financial and 
political problem. That is why we need to deal with it. I think 
that is not solved by a heavy lift vehicle. My understanding is 
any heavy lift vehicle that is put together now will have to 
have multiple applications. You certainly don't need it for 
automated science that I know of. I don't know if the Defense 
Department has special needs with--for something that is huge 
that we are talking about or not. The reason it is important to 
think this through very carefully is there is a huge wedge at 
the beginning of any program once you say we have to have this 
new vehicle. Product improvement of the older ones is great. So 
I don't believe--the reason is for human flights to Mars or to 
other distant places, on orbital assembly is an alternative, 
which--out of the Space Station development has now. But that 
will be by far the more competitive way of doing it.
    I want to mention just before finishing up on this the idea 
of curtailing human flight. People seem to forget NASA chose to 
do it itself between 1975 to 1981. There were no Americans in 
orbit, because NASA wanted to develop the Space Shuttle. And so 
following Apollo-Soyuz in 1975, there were no astronauts in 
orbit. They built in that hiatus of six years for a Shuttle 
flight in 1981. I don't see why that is such an unacceptable 
alternative in looking at changing the program mix at the 
current situation. We shouldn't just say we have to do it the 
way it was imagined to be done in 1983 when the Space Station 
was first started.
    Thank you.
    Chairman Boehlert. Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    I agree with most of the statements that it is proper to 
take the time in the aftermath of a calamity like Columbia to 
determine the best path forward. And I certainly agree with one 
of you whoever said that--not to look for blame but to look for 
how we run a better program and look to the future. And the one 
word that keeps coming to me and one I never will abandon is 
safety and continue to pursue safety for the--whatever vehicle 
we have. And if we have another such loss or tragedy and we 
haven't undergone a venture starting to travel towards safety, 
then I dread to be a Member of Congress or to be a member of 
the NASA team. I think they better damn well get started on 
getting us some safety in the Shuttle itself. And I support the 
Shuttle system. I think we need to move beyond the debate of 
whether or not we ought to have a human space flight program. 
There should no longer be a question of robotic versus human 
exploration. Clearly both are going to be needed to explore our 
solar system. And Dr. Roland, you have at least been 
consistent. I don't agree with you, but you have been 
consistent through up to this time and will probably remain 
consistent forever like a turtle that bites. You won't let 
loose until it thunders, I have always heard.

                     Support for Human Space Flight

    But if--I wanted to say that whatever question I ask I want 
you to crank into the computer the safety, the escape nodule 
for the Shuttle. That just has to be a part of it, and I don't 
see how anybody can disagree with that. With that, Dr. Griffin 
or Dr. Huntress, you both--exploration programs many times 
around since both of you have extensive experience in trying to 
obtain resources for NASA and for a lot of the NASA programs 
from a convent that has to focus on annual appropriations and 
what we have and what we can foresee and what we can afford. I 
guess my question is how would you design your program to 
survive an inevitable ebb and flow as we call it of 
Congressional funds or political support or fiscal support over 
the time period required to achieve the goals that you propose? 
Dr. Griffin, you might answer that. If not the budget, let us 
just say it should stay flat at a level of roughly $15 billion 
for the foreseeable future, could the exploration program that 
you advocate be successfully carried out, and if so, how?
    Dr. Griffin. Thank you, sir.
    If NASA's budget were to remain flat, I think we can 
agree--have not been advisable, and if we want to do new things 
going in new directions and at the same time keep the budget 
flat, we would have to, in my view, take ourselves out of the 
number of commitments that we now have. These are commitments 
to international partners on Space Station, commitments to keep 
it going in the near-term, which implies the use of Shuttle and 
so forth. The--I would regret that, because, as I indicated in 
my written testimony, I believe in keeping--in the United 
States keeping its word. In the program of the future that I 
envision, the program of exploration, it would be a program 
that involves people from all nations. But I see the role of 
the United States to be the leader among them. It is very 
difficult to function as a leader if we do not have a history 
of keeping our prior commitments.
    With that said, if there is to be no more money available 
and if we have to undertake a program to do newer and better 
things to make better choices, then there is no opportunity 
other than--there is no possibility other than closing off some 
of the older avenues and revectoring what we do.
    Mr. Hall. Dr. Murray.
    Dr. Murray. I want to emphasize that I think the Mars 
program can----
    Mr. Hall. Come a little closer to the mike, if you will.
    Dr. Murray. It is even better if I turn it on.
    I think one of the defects in the national thinking about 
going to Mars with humans is it would try to be modeled on 
Apollo. That is not the right way. Apollo is a one shot deal. 
Enormous investments over a short time at a certain period. In 
the case of going to Mars, what counts for us now is that that 
is the acceptable destination and we are going there not to 
share the flag but to do something that has long-term 
importance. That means it could be broken up into a set of 
steps. The steps provide flexibility with budget aspects, also 
allowing for unpredictable things in the future.
    For example, this whole issue of on-orbit assembly needs to 
be understood. That may change the launch vehicle requirements 
significantly. That is a task. Another thing we could stop 
right now is we have a large automated human--automated program 
of exploring Mars scientifically, greatly. There are enormous 
resources going into that very effectively. There is no formal 
leaping of that program to the fact that we are also thinking 
we would like to have human landing flights there in the 
future. We call that the Mars outpost concept, to identify 
places from what we know now would be suitable for human 
landings and the--with Mars resources onwards with the idea of 
implementing communications, data handling, mobility, and maybe 
even chemical processing of materials to the--so that by the 
time we really get ready to go we know where we are going and 
some of the resources are already there. That cuts down the 
cargo requirements and assures a long-term situation. I can--
there is a long list of these things we can go through. But 
that kind of thinking, how do you break it up into pieces that 
are interesting, each one of which is affordable, is what is 
lacking so far and we need your help in putting pressure on the 
Administration and NASA to begin to think like that.
    Mr. Hall. Dr. Huntress, my time is almost up. That might be 
a red light there, but maybe it is just orange. May the 
gentleman have another maybe half a minute?
    Chairman Boehlert. Sure.
    Mr. Hall. All right. Dr. Huntress.
    Dr. Huntress. Well, I do agree with Dr. Griffin, and if we 
keep NASA a constant at $15 billion, even assuming that you add 
inflation into that, that we really have three choices. One is 
what Dr. Griffin talked about, which is, okay, we need a new 
vision and we are on the wrong path and let us re-engineer what 
we have done. We have got to give up our commitments to our 
foreign partners. We have to do something other than Station 
and Shuttle. Or the other path is that we continue business as 
usual, because that is all that we can afford at the moment. 
And that is unfortunate, because at some point, we are 
postponing what the public really wants us to do, and they will 
have the tendency to--the current infrastructure. And so I 
think we need to really think what path we want to go on and 
what it is really going to cost. I do believe that we can put a 
program together that is progressive, that goes step-by-step, 
that doesn't require an Apollo-like spending curve, that will 
require a minimum increase to the annual budget of NASA over a 
long period of time. I think that is possible.
    Thank you.
    Chairman Boehlert. The gentleman's time has expired.
    In your testimony, Dr. Huntress, I put exclamation points 
after this one sentence of yours. ``There is a growing chorus 
of leaders inside and outside of government concerned that 
NASA's post-Columbia-investigation posture is business as 
usual.'' Could you expand upon that a little bit and then we 
will go next to Mr. Smith?
    Dr. Huntress. Yes. By business as usual, I mean we just 
continue on our current path. We upgrade the Shuttle, we fix 
the current problem with the Shuttle and complete the Station, 
which I think to honor our Columbia members, we really must do 
in the long run. But we need to look beyond the Space Station. 
What is going to come beyond that Space Station? That is not 
business as usual and that is what requires a new vision for 
what we are going to do in space.
    Chairman Boehlert. Thank you very much.
    Mr. Smith.
    Mr. Smith of Texas. Thank you, Mr. Chairman. Thank you, 
also, for convening this hearing and also for having such 
expert witnesses today. I also want to thank Mr. Rohrabacher, 
who is the Subcommittee Chair, for allowing me to go ahead of 
him to ask some questions, because I am late to another 
appointment.
    Dr. Koss, before I get to the first question, I notice in 
the last line of your resume you say you are a lifelong Red Sox 
fan, approximately a one-hour drive from Fenway Park----
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Smith of Texas. I suspect you made a big sacrifice to 
be here today, because you missed the game last night, is that 
correct?
    Dr. Koss. That is correct, but the pilot kept us informed 
on the airplane, but the crowd didn't cheer until it was at 
least a three-run lead.
    Mr. Smith of Texas. We know where the Chairman of the Full 
Committee is on this, so we won't pursue this subject any more.

                                 Goals

    My question really for every witness today is this. It 
seems to me that we are in some sense drifting when it comes to 
what do we do in space and when do we do it. We don't have a 
vision. Dr. Huntress, you referred to this both in your 
testimony earlier and in response to a question a while ago. 
And I think we would benefit by having a specific goal. And 
really, my question to you all, each one of you, is if you were 
advising the President, what would be your recommendation to 
the President to announce in a major speech as to what our goal 
in space should be over the next five to ten years. Dr. Roland, 
for you it might be launch vehicles, developing them. Dr. 
Huntress, for you it may well be at least initiating if not 
completing the mission to Mars. But I would like to just ask 
each of the witnesses what would be your advice to the 
President either for a vision or for a goal as to what we 
should be doing in space over the next several years. Dr. 
Griffin, if you will go first.
    Dr. Griffin. In the next decade, I would want to see the 
establishment of a lunar base and the development of the 
technology necessary to support that. That includes a heavy 
lift launch vehicle. I would want to see the necessary robotic 
program undertaken to pave the way for human landings on Mars, 
very much in keeping with Bruce Murray's concepts.
    Mr. Smith of Texas. Thank you.
    Dr. Huntress.
    Dr. Huntress. Congressman, I would have one minor change to 
the challenge here, because I do believe a decade is far too 
short a time scale for having a vision for this country's space 
program. And so I would recommend to the President that we 
establish a goal to establish a permanent human presence in the 
solar system with a specific stated objective, to establish 
human presence on Mars by the middle of this century, and that 
the near-term actions required to do that would require some 
re-engineering of our current path in getting to Earth orbit.
    Mr. Smith of Texas. Thank you.
    Dr. Koss.
    Dr. Koss. Give me an idea of near-term.
    Mr. Smith of Texas. Ten years. Ten years.
    Dr. Koss. I think it is premature to have a vision right 
now. I think the Chair correctly pointed out that the vision is 
blurry. So I think a panel like this and others should go on 
with other witnesses and other discussions to focus that 
vision. There needs to be a common ground forged. And without 
common--forging that common ground, I don't think any vision is 
appropriate at this point.
    Mr. Smith of Texas. Dr. Roland.
    Dr. Roland. Mr. Smith, as you guessed, I would recommend 
launch vehicle development, but I would phrase it in terms of 
the access to space. Space has enormous potential for human 
applications, which we are unable to exploit now because it is 
so expensive and dangerous to get there. And if we could open 
up that access, it would open up countless opportunities.
    Mr. Smith of Texas. Thank you, Dr. Roland.
    Dr. Murray.
    Dr. Murray. Thank you.
    I would say what we need is a destination, a place that is 
worth risking human life and a lot of money that is imaginative 
and uplifting. And Mars is clearly that. So the President, if 
he really wanted to achieve the reversal of the decline we are 
in, he would first have to say that is where we are headed. I 
commit to the United States of America in that direction. We 
need that to be international. We need, therefore, to involve 
others. But it would have to have, therefore, some budget 
request to go over to make it believable, but it wouldn't have 
to be a lot. But I think the very fact that he has declared 
that would change an awful lot of things, including NASA's own 
attitude towards itself, which is a major problem here.
    Mr. Smith of Texas. Thank you, Dr. Murray.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much.
    Mr. Gordon.

                           Lunar Exploration

    Mr. Gordon. Thank you, Mr. Chairman.
    I--as I had mentioned earlier, I want to discuss some of 
the pros and cons of a--as you--as Dr. Griffin pointed out, a 
lunar outpost. You have some that say--would say, you know, 
done there, been that or done there, done that. And that really 
isn't a great vision. There is--as someone pointed out earlier, 
whether we like it or not, and I would say most of us on this 
committee don't like it, we are not going to have a significant 
increase in the budget. You can talk about us not having vision 
or not being--having courage, you know, all day long. But the 
fact of the matter is, that is what is--you know, we are not 
going to have a significant increase in budget. Hopefully we 
are going to see some increase.
    So we are going to have to put it in that perspective. And 
again, I would like your thoughts as to the benefits, or cons, 
of having a lunar outpost, similar--to ensure as we did 
Antarctic at one time, the lessons that could be learned there. 
And it being a potential kickoff through those lessons to maybe 
a more aggressive vision of going to Mars at a later time.
    Dr. Griffin, you started it. Why don't you tell us what you 
think?
    Dr. Griffin. Thank you, sir.
    Let me first say that if I implied it in my own remarks--
that is absolutely wrong. I agree with Wes, my former NASA 
colleague, that the vision needs to be much longer-term than 
that and is really nothing less--in my written testimony, the 
vision is nothing less than the permanent human occupation of 
the solar system. Now in the next decade or so, the things that 
we need to do first, my ordering of that might be different 
from some others. I believe that going to Mars without----
    Mr. Gordon. Sir, I have got a short period of time, and I 
would like to focus the comments on the pros and cons of the 
lunar colony.
    Dr. Griffin. The pros in support of the lunar base would be 
that that is where you learn how to survive for long periods of 
time on other planetary surfaces and be only three days away 
from home when things go wrong, as they inevitably will. The 
cons are that it is money spent in a direction not as 
interesting as Mars.
    Mr. Gordon. And that is not in the same direction?
    Dr. Griffin. I believe they are in the same general 
direction, but there will be things one needs to do, return to 
the Moon, that one would not need to do to go to Mars.
    Mr. Gordon. Well, are there other resource values?
    Dr. Griffin. I think so. We need the extraordinarily 
interesting place to set up both radio and optical telescopes.
    Mr. Gordon. Would anybody else like to comment on that 
topic?
    Dr. Murray. Well, I would like to comment that the--over 
the many decades that these debates have been going on, the 
astronomical community has been very permanent towards any kind 
of facility on the Moon. I note because I tried it one time. 
Almost all of the--they do much better off having a system out 
in deep space itself, not tied to the Moon. So I think it would 
be very difficult to build that as a case. I think the case for 
it as a stepping stone to Mars has some merit, but to the 
extent that it is financially a significant diversion, I don't 
think that will fly. So I think that--go ahead.
    Mr. Gordon. I mean, I--it just seems to me that if we are 
going to go to Mars in 30 or 40 years or whatever it might be, 
that we may want to show a little something for it on the way 
to--so the taxpayers might have the courage to continue to pay 
the bill.
    And let me ask what is going to happen if China decides 
that they are going to have a ten-year goal to go to the Moon 
and set up a base, not a base but an outpost, excuse me, or and 
Russia says in 15 years. Are we going to say good luck or are 
we going to try to catch up at that time?
    Dr. Roland. My suggestion is we could sell them the Space 
Station. But that is an option for us now because we are at a 
point where supporting the Space Station really is----
    Mr. Gordon. Okay. I don't want to get into all of that. I 
want to talk about the Moon. You know. I don't have a whole lot 
of time.
    Dr. Roland. Yeah, but my whole point is getting to low-
Earth orbit is how we can do anything in space whether it is 
the Moon or Mars or any other scientific experiments, and that 
is what we need to concentrate on that will make all of the----
    Mr. Gordon. I have got a short period of time. Would 
anybody else want to comment on the pros and cons about going 
to the Moon? Yes, sir.
    Dr. Huntress. Yes, Congressman Gordon. I think the Moon is 
sort of an off ramp on our way to Mars. And there are some 
useful things to do. There is some good scientific work that 
needs to be done there. Europe, Japan, China are all interested 
in Mars because they have never been there, and so they tend to 
focus on that. And so the only thing I worry about is that if 
we design a system to go to the Moon, that is all that we will 
be able to do. We need to design a system that can go to Mars 
and use it to go to the Moon to do whatever we need to do to 
enable Mars exploration.
    Mr. Gordon. Anybody else want to say something, and then I 
will----

                                 China

    Dr. Murray. Yes, I would want to challenge the presumption 
that because China got its first astronaut or cosmonaut or 
whatever it is in space yesterday that this leads immediately 
to a very big expansion. It is 40 years after this was done by 
the U.S. and Soviet Union. I am surprised it hasn't been done 
by Europe and by Japan by the way who could have easily. They 
had the technical capability. And the reason wasn't that 
important. The reason it is important in China is because it is 
obviously political, both domestically and especially in Asia I 
think, which is fine. I am glad they have done it. But we can't 
necessarily extrapolate from that that they are going to repeat 
the----
    Mr. Gordon. Yeah, but the hypothesis was that if they said 
they were going to do this in 10 or 12 years, would we not 
challenge that.
    Dr. Murray. I would--we did that long ago.
    Mr. Gordon. Yeah.
    Dr. Murray. We have got to do new things that we might 
build admiration with both our populous and the others. To go 
back and get drawn into 30 years ago rivalry is crazy.
    Mr. Gordon. Well, I think there is a difference between 
going to the Moon, touching base and going home than setting up 
an outpost. Did you--yes, sir?
    Dr. Koss. Returning to the Moon may have some small 
advantages requiring physical sciences to be enabling 
technologies. But in terms of a location for the physical 
sciences to benefit, it has nothing to offer.
    Mr. Gordon. Thank you for your laxity there, Mr. Chairman.
    Chairman Boehlert. Thank you very much.
    I hate to do this but I would like a quick yes or no. The 
value of the investment, is it worth it to talk in terms of an 
outpost on the Moon, Dr. Griffin?
    Dr. Griffin. Yes.
    Chairman Boehlert. Dr. Huntress.
    Dr. Huntress. Yes.
    Chairman Boehlert. Dr. Koss.
    Dr. Koss. I don't know.
    Chairman Boehlert. Dr. Roland.
    Dr. Roland. No.
    Chairman Boehlert. Dr. Murray.
    Dr. Murray. No.
    Chairman Boehlert. Wow. There is a--two and two and one 
that is--you have got three, Mr. Gordon.
    The distinguished gentleman of the Subcommittee on Space, 
Mr. Rohrabacher, better known as the governor-elect's friend.
    Mr. Rohrabacher. Did you get that blurred picture more in 
focus for us by that last question? My gosh.
    Mr. Gordon, your question reminds me of Robert Heinlein's 
famous saying, ``Once you are in the low-Earth orbit, you are 
halfway to anywhere else in the universe.'' So whatever our 
goals, whatever we talk about today, Mr. Chairman, having been 
on this subcommittee and spent some time looking at this issue, 
and having been in the White House prior to that and looking to 
space issues, that hasn't changed all of these years. I think 
Robert Heinlein must have written that 25 years ago. So does 
anyone on the panel disagree with that?

                         Priorities and Funding

    No? So Mr. Chairman, it is clear--excuse me, I have got a 
cold, obviously. But what is clear, then, is that whatever 
goals we set, the first step is what, is finding a way to get 
into low-Earth orbit at a cheaper rate. So I have been--let me 
ask this question to the panel. All of you, it seems, except, 
perhaps, Mr. Roland, would like an increase in the budget of 
NASA as we have it today rather than a flat budget and have a 
more visionary program. At what level do you want that? Mr. 
Huntress didn't exactly tell us exactly how much that was. How 
much would you suggest? And would you support that funding 
coming out of other programs that are being financed by the 
United States Government in terms of science research in 
American universities? That will tell whether you really 
believe in it or not. Mr. Griffin first and then----
    Dr. Griffin. I indicated in my written testimony to 
allocate to NASA on a steady basis was around $20 billion.
    Mr. Rohrabacher. That is $5 billion more----
    Dr. Griffin. $5 billion more a year. I think we should not 
have a big Apollo-style reinvestment.
    Mr. Rohrabacher. So you believe that--you would accept that 
that money would be coming out of the research project money 
from major universities? That would be worthwhile, taking money 
from science research in our major universities and putting it 
there? $5 billion a year.
    Dr. Griffin. I don't know that that is who I would take it 
from, but----
    Mr. Rohrabacher. Well, this--that is what you know about. 
The other places that you might not--take it from you might not 
know about. They can take it from places they don't know about. 
So is it more worthwhile to do it that way?
    Dr. Griffin. If that is the way it had to be, then that is 
the way it would have to be.
    Mr. Rohrabacher. Thank you.
    Dr. Huntress.
    Dr. Huntress. I agree with Dr. Griffin in the amount that 
would be necessary for that extra $5 billion a year. And one 
can build up to that. You don't have to add it all at once.
    Mr. Rohrabacher. Would that be enough to take it----
    Dr. Huntress. I believe it needs to be an additional 
complement to what this country does in exploration. We have 
targeted one area, which is scientific research, and I would 
not take it from there. No.
    Mr. Rohrabacher. So the answer is you don't believe it 
should be $5 billion more a year if it has to come from 
something you know about?
    Dr. Huntress. I believe it should be an extra $5 billion a 
year, but coming from the Nation's scientific research 
project----
    Mr. Rohrabacher. Okay. There you go. You don't believe it 
then.
    Yes?
    Dr. Koss. Obviously, I have a university research bias, so 
I certainly don't believe the money should come from university 
science research funds. In addition, I don't think it is 
healthy for the sciences----
    Mr. Rohrabacher. Okay. Mr. Roland.
    Dr. Roland. The United States spends more in space than all 
of the rest of the world combined. We spend plenty of money on 
space. The whole question is the pace of what we are going to 
do, and I think we can hold the budget steady and achieve our 
goals, perhaps, over a longer term.
    Mr. Rohrabacher. Okay. Very well.
    Yes?
    Dr. Murray. That is a very good question. And you are 
getting to the heart of it. I think the problem is we are 
spending $7 billion a year presently on human space flight 
without adequate return. I think we should restructure that 
program with an idea of diverting some of those funds to 
longer-term things.
    Mr. Rohrabacher. All right. I--that has helped. I have 
learned in my tenure in office to find out if somebody really 
believes in these funding proposals they are making is to ask 
them to juxtapose it to something else they think is of value. 
And I would suggest--I--you know, no one is here to hear my 
suggestions today.
    But let me ask about just one--a question about propulsion, 
and I do believe, as I say, that propulsion is the most 
important issue to get us wherever else we want to go. Would 
nuclear-powered engines and the development of this help us get 
to that low-Earth orbit or is that just while you are in space? 
Just very quickly answer that way down the line.
    Dr. Griffin. Space nuclear propulsion is for in-space use.
    Mr. Rohrabacher. But could--used to get us to low-Earth 
orbit?
    Dr. Griffin. I--you might want to----
    Mr. Rohrabacher. All right. Mr. Huntress, would you say 
anything on that?
    Dr. Huntress. Well, I agree that nuclear propulsion is the 
right way to go for in-space propulsion but not getting into 
Earth orbit.
    Mr. Rohrabacher. Okay. Mr. Koss.
    Dr. Koss. I can't answer. I'm not a rocket scientist.
    Mr. Rohrabacher. Mr. Roland.
    Dr. Roland. I don't know with technical confidence, but I 
would be worried about the public relations and safety issues.
    Mr. Rohrabacher. But what about the technical end of it? Is 
there a potential----
    Dr. Roland. I am just not technically qualified.
    Mr. Rohrabacher. Okay.
    Dr. Murray. I think the reason is that nuclear propulsion 
translates into relative low thrust----
    Mr. Rohrabacher. Right.
    Dr. Murray.--which is best----
    Mr. Rohrabacher. Well, I have heard some news recently that 
indicated that there might be some other way to do that.
    All right. Well, thank you all very much, and thank you, 
Mr.--first of all, I want to thank the Chairman for calling 
this hearing. And we need this discussion. And I thank you very 
much for putting together such a distinguished panel for us to 
base our future considerations on.
    Chairman Boehlert. Thank you very much, Mr. Rohrabacher.
    The Chair recognizes Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman.
    Monday we celebrated Columbus Day. 511 years ago, 
Christopher Columbus traveled those uncharted waters across 
what we now know as the Atlantic. I wanted to comment about the 
comment, and I am not asking a question right now. It would be 
interesting to know the number of lives that were lost per boat 
as they came across and wonder if that would have been 
considered by Amerigo Vespucci as to whether or not he should 
follow in that path. It is something worth our consideration.
    Any time we do exploration, there is going to be some risk. 
I pray that we never get to the point where we fear the lack of 
some life for what we might gain in the future for overall 
life. I also welcome China into the space flight club. I think 
it is great that they have done what they have done. I think it 
continues to increase the knowledge and awareness of our 
involvement in space worldwide.
    History has shown that great nations explore. The United 
States must not turn its back on human space exploration at 
this critical time. We must return to Space Shuttle--or the 
Space Shuttle to flight and complete construction of the 
International Space Station. And at the same time, this 
Administration and this Congress must provide the American 
people with a vision and a concrete set of goals for the 
Nation's human space flight program. It is clear that China has 
set goals and has goals that have been set by its leadership. 
And we need the same.

                       The Space Exploration Act

    And with that being said, I would like to ask both Dr. 
Griffin and Huntress if you are familiar with the Space 
Exploration Act that has been introduced both in the previous 
session and in this year. And if you are, would you please make 
some comments about it as to how it fits in with accomplishing 
just those things, the goals that we need to have and what we 
can get back in our involvement in space?
    Dr. Griffin. Yes, sir, I did read it, not within the last 
few weeks, so--but I thought it was deliberate. I am very much 
in support of it. It is in the direction that I truthfully 
believe we should go. And the only thing I would like to see is 
a little bit more of an effort to set specific time horizons 
with the funding you are planning to implement them.
    Mr. Lampson. Do you consider it--let me ask this. Do you 
consider it to be micromanaging of NASA?
    Dr. Griffin. Possibly a little, but then again, many times 
that is needed in order to get going in a path different from 
where we are.
    Mr. Lampson. Thanks.
    Dr. Huntress.
    Dr. Huntress. First of all, I think it is very important, 
because what it does is to get the sense of the Congress's 
representatives of the public squarely on the record as to what 
it believes this nation's space program ought to really do. And 
I--something like this should be a bipartisan clarion call for 
this country's space program. I see a lot of this bill that I 
really like. I support it because it is thankfully consistent 
with the kinds of future vision, you know, that I have been 
thinking about for these last several years. It speaks about a 
commitment to the future for human space flight. It talks about 
both human and robotic means to do that. It identifies margins 
for the ultimate goal but with a stepping stone approach for 
progressive and a more affordable program. It talks about 
scientific exploration as the basis for it, something that we 
need for an inspiration to our youth. If I had to find some 
criticism, it would be that I think the time scales are, 
perhaps, a bit prescriptive as well as some of the processes it 
talked about for the Administration.
    Mr. Lampson. Congressman Smith asked a while ago about 
advice for the President. Would this be reasonable advice for 
the Congress to be able to take these kinds of steps and would 
that energize our nation enough, perhaps this government 
enough, to find the kind of attention or statement that he may 
be looking for a while ago for the President? Anyone? Either of 
you two, particularly.
    Dr. Griffin. I think the language--I would say it is one 
letter--than what is the appropriate--especially coming from 
the Chief Executive or, you know, a bipartisan consent from the 
Congress. I think that the letter of detail is, again, as Wes 
said, I likely agree with what is there, but it needs to be--in 
order to try and capture it, I think, as a national vision that 
is understandable.
    Mr. Lampson. And then let me ask this about what happens. 
If you design--how would you design your program with the 
inevitable ebb and flow and political support over the time 
period required to achieve the goals that you propose? And that 
is part of what I think our problem is now. That has changed 
clearly through Administrations in the last many years.
    Dr. Huntress. I think the way you do this is by designing a 
program that is a little bit more immune to that than the one 
we have now. And the way you do that is by having intermediate 
destinations, a progressive approach in which you build the 
infrastructure slowly and more progressively instead of all at 
once so that you can adjust the time it takes to construct that 
infrastructure depending the annual budget process.
    Mr. Lampson. Thank you all. And Mr. Chairman, I would ask 
that all of my colleagues take a deep consideration to the 
Space Exploration Act. Is--it may be much--in the direction to 
achieve that we have had in this discussion this morning, and I 
thank you very much. I yield back my time.

                          Technical Challenges

    Mr. Ehlers. [Presiding.] The gentleman's time has expired.
    The Chair has asked me to take over, because I have the 
next question anyway.
    I always hate to be a wet blanket, because I like to be an 
optimist, but I am a little dismayed by some of the optimism I 
see here. I think there are a lot of problems that have been 
glossed over, and we should take a look at those.
    First of all, one thing I gathered from this as most of you 
regard the Space Station as not particularly useful for our 
long-term objectives. And someone said we shouldn't have done 
it at all. Well, that is hindering our efforts. Perhaps we 
ought to rename it the Albatross because we have to take care 
of it, we have to send crews back and forth, and that is going 
to consume a lot of our resources. But if our long-term goal is 
interplanetary exploration, it may not be that helpful. All 
right. I may be overstating it. But over at the other issues, 
the discussion on going to Mars in which the panel is precisely 
equally divided, Dr. Griffin, for example, you said human--your 
goal that you believe--or our goal should be human flight of 
the solar system and beyond. Let me just comment a bit on the 
comparisons we have had to Columbus. I don't think it is a good 
analogy at all, frankly. First of all, Columbus was not a 
scientist. He was trying to make money by finding a shorter 
trade route. And if he were much of a scientist, he would have 
known that the diameter of the Earth had been calculated some 
time before and the distance he is prepared to travel is far 
too short. However, he was lucky, as many scientists are, and 
quite a few businessmen, and he stumbled across something that 
was even better than what he had expected or what he was 
looking for. But settlement of what we now call the rest is far 
different than settlement of planets, because we have a huge 
number of resources here, better resources, in fact, from--than 
the country from which they came. No support was needed, other 
than the food, to transport the crew. They didn't need energy 
to get here. The used the wind's energy.
    I understand you know what is involved, but the general 
public thinks that we went to the Moon and the next step is 
Mars. The Moon is just a stone's throw away compared to Mars. 
It is a very, very long trip. And I personally don't think we 
are going to get there without, first of all, a--completely 
better sources of energy, far better sources of propulsion, and 
a method of induced hibernation for humans unless we are going 
to try--it might actually be easier to make bears and other 
things that hibernate into intelligent beings than it would be 
to make humans into something that can hibernate. But the 
energy involved in putting individuals into interplanetary 
travel is immense. And the human persistence requirements are 
immense. You combine the two, and it is a very long, very 
expensive, very difficult journey. I am not saying it can't be 
done.
    But I would also say that I don't think it is ever going to 
be done without an international effort, because I can tell you 
the public is not willing to spend that amount of money to put 
one person on Mars. And unless there is substantial return. 
Intermittently I think we can put together the forces to deal 
if we can cooperate. So I would be very interested in hearing 
the comments that you would like to make about that pessimistic 
view. I am not saying we shouldn't explore space. I think we 
should, but having--placing a human being on Mars I think might 
be as much of a limiting factor for our efforts to explore 
space as having the Space Station up there as limiting our 
efforts to go beyond and get--do experiments out of Earth 
orbit.
    So let us--we both have been going that way. Let us switch 
the other way around. Dr. Murray.
    Dr. Murray. Thank you.
    In terms of propulsion to get to Mars, we will send an 
automated probe. It takes very little energy beyond getting 
into orbit, getting to high orbit, to go to Mars, or even the 
Moon. There is not much. It is coasting most of the way. You 
have to choose the right time to go so it is an easy coast. So 
I don't think that--I don't see that as a showstopper itself. 
It is true the--that the----
    Mr. Ehlers. Just give me a minute to clarify.
    Dr. Murray. Yeah.
    Mr. Ehlers. And we are talking not so much the energy to 
get there but the--it--the loss of energy, potentially, you 
have to take a--to get to the surface of Mars and to get back 
off the service and to get started on the----
    Dr. Murray. Mars is the one planet that has carbon, 
hydrogen, oxygen, and nitrogen easily available. Greenhouses 
can work. There is solar energy, although presumably some 
nuclear power would be available in the future. It is the one 
place where you can go where you can grow food. It is the one 
place where you can go take some of that ice we found break it 
up and make hydrogen oxygen for propulsion systems to come 
back. That is the kind of thinking that has been going on over 
this long hiatus of exploration. So I think what is lacking is 
that we haven't had an effort under government sponsorship to 
really look at how you could do this, other than the Apollo 
way. I think that if it is difficult, as you would extrapolate 
from the Apollo experience, it does take breaking the pieces, 
as Wes has said. It does take believing in that goal. I mean, 
if that is not, you know, the goal, then it is not going to 
happen. But I don't think it is that. I don't think it has to 
cost a bundle if we do it in modules in time. I think it will 
be popular if it is done the right way. But we have not had a 
chance to develop and put forth before you a program like that.
    Mr. Ehlers. Dr. Roland.
    Dr. Roland. I have seen estimates of hundreds of billions 
of dollars just to send one mission of humans there, and that 
is not to build up an infrastructure on Mars and start to 
culminate it and build a base where you can begin to exploit 
growing food and getting fuel out of there. So I think the cost 
would be enormous and it begs the question of what would a 
human outpost on Mars return on that investment?
    Mr. Ehlers. Dr. Koss.
    Dr. Koss. I think your assessment is correct. And as much 
as I am a fan of a larger mission for NASA, I hate to see a 
single mission rob the other missions that NASA does that only 
NASA can do. And I speak most particularly to the field that I 
work in in these laboratory sciences on orbit. And on a side 
note, I might mention that on your Columbus analogy, it has 
been speculated that Columbus knew the size of the Earth, but 
he misrepresented it to get better funding.
    Mr. Ehlers. Which proves he wasn't really a scientist, 
because a scientist would never do that.
    Dr. Huntress.
    Dr. Huntress. First of all, I agree that this should and 
must be an international enterprise. I agree that no one single 
country is likely to be able to afford such a venture, and it 
should be international not just on budget reasons, but for 
good human reasons and societal reasons as well. The hundreds 
of billions of dollars that Dr. Roland quoted is the 1989 
number for a program designed by NASA to be done in the Apollo 
style. And that is certainly not the way that we really should 
do it and we probably won't do it that way. It will take much 
less if it were done in a progressive way. And I agree with Dr. 
Murray that the way to do it is we use in situ resources, what 
I would envision as single humans there quickly and fast on 
chemically propelled systems, sending their cargo separately on 
efficient electrical systems and using in situ resources on the 
surface of Mars to create the resources they need on the planet 
and to prepare fuel for their return.
    Mr. Ehlers. Actually--Dr. Griffin.
    Dr. Griffin. I agree wholeheartedly with the technical 
points made on the previous question, but I would point out 
that if it takes hundreds of billions of dollars to go to Mars, 
then we need to get new project managers, not a new 
destination. And with the nuclear experience that we, the 
United States, have, we had a space qualifiable nuclear thermal 
propulsion system 30 years ago and terminated the program 
because we were not, at that time, going to Mars. Transit time 
would have been two to three months. So I just do not agree 
that it is particularly difficult to do that. And again, I 
would probably not--if I were going to do it, I would use 
spinning spacecraft. As far--and again, I can only--the plan 
for doing it should be one that utilizes to the maximum extent 
replacement of the hardware needed to sustain people. We should 
do the program intelligently. I think that can be done. One can 
find--I think we can do better than that.
    Mr. Ehlers. I think everyone should realize what a major, 
major step this is, far greater than anything we have ever done 
as a nation. And I can--I just want--politically, it is going 
to be very, very difficult to get that support even within the 
scientific community. Many of those members will react the way 
they did to the SSC saying for the amount you are spending on 
that we can do 10,000 experiments in the life sciences that 
will be more important. So the real--I think it is politically 
unless it is very long-term, and in fact, you do develop much 
better methods of transportation and propulsion and they are 
very well thought out plans for doing it.
    The--we have all heard the bells. We are very Pavlovian in 
the Congress: the bells ring, we vote. Now we have, what, three 
votes. We have three votes, which means it will be at least a 
half-hour. And we will have to recess at this point. And 
others--I assume others have questions. Okay. We will try to 
get through one more questioner, and then we will go vote and 
there should be sufficient time for you to run downstairs and 
get some lunch while we go vote. And we will be back as soon as 
possible after the third vote.
    I am pleased to recognize the gentleman, Mr. Bell, 
Congressman Bell.

                          Robotic Exploration

    Mr. Bell. Thank you, Mr. Chairman.
    I might have to explore this subject, if I could on the 
robotics that several of you commented on during the course of 
your testimony. First of all, Dr. Huntress, you pointed out 
that you can run out of robotic capability. And if you could 
just explain how that would occur, I would like to hear your 
explanation.
    Dr. Huntress. Well, you know, first of all, the advantage 
of robots is that they are inherently expendable. You can use 
them where humans are unacceptable, the risks on humans are 
unacceptable. The problem with the balances of--the methods of 
remote control for these robotic systems are often cumbersome 
and delayed. And so we should use them where there is no clear 
advantage for human beings. And the advantage, however, that 
humans have is humans are ideally suited to tasks that require 
very complex, physical articulation, expert knowledge, 
judgment, and versatility, kind of like in the Hubbell Space 
Telescope servicing missions. And they are ideally suited for 
intensive field study, you know, where you need the real time 
observation, hypothesizing, testing in real time, synthesizing 
real construction like in the geological investigations of 
Apollo 17. So you have to figure out where that line is in an 
intelligent basis.
    Mr. Bell. And I guess the problem I have is that when this 
conversation begins, a lot of things people want to talk about 
in mutually exclusive terms that you either choose robotics or 
you choose manned space flight, but you really can't have both. 
And I take it from what you are saying is that you definitely 
believe we need both?
    Dr. Huntress. Absolutely. In fact, there never has been one 
or the other. The Apollo program was heavily supported by 
robotic missions prior to sending a man to the----
    Mr. Bell. And let me follow up with you, Dr. Roland, 
because you talked about your fear that the culture of NASA, 
perhaps, led to some of the problems and certainly that has 
been commented on and----
    Mr. Roland. Yes, quite obviously.
    Mr. Bell. And, sir, are you suggesting now that you think 
that it--we should have mutual exclusivity, that we should 
solely focus on robots and move completely away from manned 
space flight because of the dangers involved?
    Mr. Roland. No, I think Dr. Huntress has it right. We need 
a balance of--I guess we may differ, I am not sure, we haven't 
spoken about it enough, but I think I am looking for that 
balance to be more automated, remote and robotics, and I find 
that a lot of the science missions that were headed toward the 
Space Station were going to be autonomous operating 
experiments, but they were going to have to have human-enabled 
capability to absolutely be moved from the Space Shuttle to the 
Space Station. But they weren't going to have humans involved 
in their operation, and so that is sort of a silly use of human 
capability, and so I think I want to eliminate the silly and 
unnecessary uses.
    Mr. Bell. But not eliminate it altogether.
    Mr. Roland. Not eliminate it.
    Mr. Bell. Okay.
    Mr. Roland. Or eliminate it where it is absolutely not 
needed.

                              NASA Culture

    Mr. Bell. All right. Well, I just wanted to clarify that, 
because I am--I think it is important for the basis of the 
discussion going forward, and Dr. Roland, your fear seems to be 
that--you talked about returning to business as usual, and I am 
curious, I would assume you have had an opportunity to look at 
the CAIB Report, and if the recommendations made in that report 
are followed, then wouldn't you agree that it won't be business 
as usual?
    Mr. Roland. Excuse me. If they are thoroughly followed. I 
think there was a possibility, that is right, but remember that 
they are attempting to do the same thing that the Rogers 
Commission did, and my concern is what is really required is 
that--is whatever everyone is speaking of, a change in NASA 
culture, and that NASA revealed that its culture was unchanged 
in its response to the investigation. In other words, even 
before the investigation had reported, it was establishing a 
date when it was going to resume Shuttle flight operations. It 
suggests that it views the accident and the resulting reforms 
as just impediments to getting back to the same thing it was 
doing before. That is what was alarming to me.
    Mr. Bell. And did I understand your testimony correctly 
that you really do believe that we should move almost 
completely away from manned space flight?
    Mr. Roland. Until we have a better launch vehicle, because 
then, we can put people in space more safely and far more 
economically than now. It is a cost issue. For example, on what 
you were asking about space science, if you give me the same 
budget and say I want to do this science, I am going to get 
much better science, much more science, out of automated 
spacecraft than anyone can get out of a manned mission, even 
though the astronaut in situ had some marginal advantage, I can 
send four or five probes for the cost of one manned probe, and 
I can just do many more things.
    Mr. Bell. My time has expired.
    Chairman Boehlert. Thank you very much. We--here is the 
situation. We will recess for a half-hour and we have got a 
couple more votes--we will be back, and I am sorry to 
inconvenience you, but it is the way of life here on Capitol 
Hill. We are subject to the bell.
    [Whereupon, at 12:03 p.m., the Committee recessed, to 
reconvene at 12:45 p.m. the same day.]
    Chairman Boehlert. Just let me explain what is happening, 
and this is frequently the case when we are interrupted with 
unplanned activity on the Floor, a series of votes, as we have 
just had, then other Members, their schedules get all screwed 
up and they have got four other things they have to go do, thus 
you get fewer back for the second round. We haven't even 
completed the first round, but we have got to continue, and 
Members will come in and out and you understand the whole 
system. Dr. Gingrey.

                   Effects of Zero-Gravity on Humans

    Mr. Gingrey. Thank you, Chairman. Thank you, and I agree 
with you, there are a lot of other things happening and things 
that I need to be at, but I definitely wanted to come back and 
ask my question. As a physician member of the Committee, I am 
particularly interested in this question as some more people 
said it, a multiple part question and anybody that can respond 
to it, I would appreciate it. Given the debilitating effect of 
zero-gravity on human physiology, bone loss and--et cetera, are 
long-term manned space missions realistic, and are we close to 
understanding or creating technologies for life support that 
would make a long-term manned space mission feasible? What 
evidence or data do we have that the human physiology programs 
encountered on long duration space missions, such as Mars, can 
be solved, and how long do you estimate it would take to fully 
understand what is required for long duration human space 
flight missions to a destination such as Mars? Have we learned 
anything from the Space Station? Is that the only place where 
we can get the information that we need in this area? I know 
that is a lot, but you get my drift, and again, any one of the 
five, maybe all of you, could respond to that, I would 
appreciate it.
    Dr. Huntress. First, Congressman Gingrey, I am--the Space 
Station--in my mind, the utility of the Space Station is rather 
singular, and that is to learn how humans how humans can live 
in work in space for these long duration trips. That is the, in 
my view, the real value of the Space Station, and almost for 
nothing else. Can we--these flights, I think so, and long-term 
flights, there is only really two risks. They are radiation 
hazard, from solar outbursts, and the debilitating effects of 
low gravity. This latter one is--can be readily taken care of 
by providing a spin to the spacecraft and not have a lot of 
effect, at the immediate expensive of--it costs some mass to do 
that, but that will ultimately end up being the way to do it. 
If we don't find ways on the Space Station that don't require 
spin. The radiation hazard is the harder one to solve, because 
it requires some kind of shielding, which I am sure can be 
addressed in some way. I don't see any stumbling block on our 
way to these long-term space flights.
    Dr. Griffin. I would agree with that, and I would add the 
additional comment that the zero-G is not really the issue. 
First of all, the anecdotal experience would suggest that more 
recent crews have sort of ameliorated the bone loss by proper 
amounts of exercise and being very diligent with it, and there 
may be other countermeasures. Even if they don't come true, as 
was pointed out a couple times today, spinning the spacecraft 
on the way to Mars or wherever is a countermeasure for zero-G. 
The interesting question that we have is how does the body 
perform in fractional G, because when you get to Mars, you are 
going to have to live there for presumably extended periods of 
time in one third G. The question that has not been settled, 
cannot be settled on Space Station and is of interest is, what 
is the body's long-term adaptation to a fractional amount of a 
G?
    Mr. Gingrey. Doctor, excuse me for interrupting, but I 
think basically, that is the question. That is the question, 
not your zero G, but fractional G over a long period of time.
    Dr. Griffin. We don't know the answer and we don't have a 
practical way to know the answer until we really try it out. I 
mean, I cannot think of a good way to put crew in a one sixth 
or a third G environment that doesn't involve going to the 
planet where those things are.
    Mr. Gingrey. And Dr. Murray.
    Dr. Murray. I think we have to go--remember, unlike what we 
have been doing in low-Earth orbit, this is exploration, like 
Apollo was. There are many risks, and a lot of which can be 
analyzed to death in advance. The one you mentioned, which is 
what is the effect of one third G is certainly a risk of 
disorientation, probably going to have to allow a fair amount 
of time to adapt on the surface, but it is not nearly as high 
as the risk of just trying to land there in the first place. I 
mean, if you look at it rationally, and so I think we have got 
to get away from the sort of Shuttle era mentality, which is to 
make it routine and all that, to the fact that we want to go 
back to exploration, and of course, that is going to entail 
some risks. The Russians did fly cosmonauts 300 to 400 days 
several times successfully on Mir. They didn't do as much 
control by medicine as we would like, but they did, it worked, 
and so I think that this is not nearly so unknown as some of 
the other things we have to deal with.
    Mr. Gingrey. And Dr. Koss.
    Dr. Koss. You know, the issue you raised about how human 
beings do on orbit or in apparent weightlessness is important 
enough that I really, in my statement, and what I try to 
testify to is be very clear that I said that it is the--all 
physical science experiments are all experiments, save those on 
human subjects. There is probably no substitute for having a 
human subject in that condition to understand what that does, 
and so that obviously can't be automated, but all of the other 
physical science experiments can be.
    Mr. Gingrey. Dr. Roland, did you have something?
    Dr. Roland. I don't address that, because it is outside my 
technical competence, but I lose track of what the purpose of a 
Mars mission is. If it is just exploration to find out about 
Mars, we are better off sending automated spacecraft. If it is 
to establish a human outpost there, then your question is 
pertinent and we need to address it.
    Mr. Gingrey. All right, Dr. Murray.
    Dr. Murray. I would want to--I feel that issue warrants a 
little more discussion. The purpose of sending humans to Mars 
is not to do science. It never should be. They might 
supplement--the purpose is to find out whether humans can 
operate on Mars effectively and whether that is something that 
really sets a pattern for what the future might hold, so 
learning about that is one of many things. There is a lot of 
dust on Mars, there are a lot of other things about Mars that 
we don't know, and the way to find out is to go there. That 
should be the mission objectives, that is the whole point of 
it, which is not a kind of thinking we have been having, and I 
think that is the answer to your question.
    Mr. Gingrey. Gentleman, thank you for your answers.
    Chairman Boehlert. Thank you very much, Dr. Gingrey. Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. This is 
a vital and very important hearing, and I wish--my preference 
would be is that we are all sitting around in roundtables with 
policy-makers, Members of Congress and those of you who are 
experts, whether pro or con, and really seriously addressing 
what I think is a question of choices.
    Right now before the House, we are debating $87 billion in 
an emergency supplemental that is larger than any supplemental 
we have ever had in the history of this nation. We have decided 
to make a choice with respect to that provision, and so, in the 
backdrop of this hearing, we will be debating as well as making 
a final decision. If I had my druthers, I would like to narrow 
down the question to a finite number that addresses the 
questions of the needs of our troops, and begin to look at the 
other needs of this nation. Now, frankly, I believe that there 
are many, many elements to this discussion about human space 
flight, and I add my support to Congressman Lampson's proposed 
legislation on space exploration.
    One thing that I have noted about America is that when we 
face adversity, we are committed not to run and tuck our tails, 
if you will. We have faced adversity with the Challenger and 
Columbia 7, but I don't think this is the time for us to 
retract what I find to have a great deal of value. Let me just 
share some points with you. If Sir Isaac Newton had not been 
under an apple tree and seen the apple fall, would he have had 
the theory of gravity in the way that we have it? If Charles 
Darwin had not gone to the islands, would he have understood or 
at least been competitive in the question of evolution, and if 
scientists had not dropped--water and thrown a rock at--cannon, 
would we have had knowledge about botany and oceanography or 
physics, and so I think there are many questions.
    And so I think there are many questions that we need to 
address, and I do want to give credence to some of the points 
that have been raised about whether or not we are getting the 
kind of return on our investment, both in human space flight as 
well as the Space Station, but let me lay out the atmosphere 
from which two very valuable astronauts are working. They are 
two man teams. They have to perform all of the jobs astronauts, 
engineers, physicians, communications specialists, and then 
they have to sleep, eat and exercise. It is a wonder that they 
have a--degree of scientific discussion. They are required to 
be jack of all trades, and they can not train specialists, 
because we have not trained specialists, research scientists 
might make a difference. Right now, I think the key is that we 
are learning to be in space and that there is value for the 
human space flight from that very perspective.

                               Education

    So if I might, I would like to raise these questions for 
Dr. Griffin and Dr. Huntress and then I pose them to 
individuals who represent a different specialty. Over a period 
of time, what type of increase would we have to see to be 
responsible in human space flight? Secondarily, are we seeing a 
decrease in our own skill ability from students securing Ph.D.s 
in physics and chemistry and biology and sciences and math, and 
when we take the bar lower, don't give a challenge of human 
space flight opportunities to do research beyond science, are 
we decreasing the honor and the creativity that is necessary to 
be on the cutting edge? Frankly, if I put my science hat on, 
there is no way that I am going to support opposing human space 
flight when my good friends in China have just put a man into 
space. There is a certain competitive edge that I believe we 
cannot give up, and lastly, what is the value of understanding 
human capacity in space, and should we ever give that up? Dr. 
Griffin, Dr. Huntress?
    Dr. Griffin. Thank you, ma'am. Yes, it is a fact that--you 
have--has--enrollment in institutions of graduate learning is 
down. And fewer Ph.D.s are being granted than was formerly the 
case.
    Ms. Jackson Lee. In the sciences.
    Dr. Griffin. In the sciences, and certainly, I think that 
the collateral benefit of an enhanced human exploration program 
would be to help reverse that trend. I don't know if there are 
any other reasons for doing--for so doing, but I think it would 
be a collateral benefit. I think we need a competitive edge, 
although that is an aspect of my personality that not everyone 
enjoys, and I too worry about a national posture which does not 
want the United States to be the acknowledged leader in space 
exploration. Cooperation is good, but we still need to be 
leaders, and I think that should be our posture.
    Finally, how much can we--what would be a responsible 
amount, I just--after--I didn't just dream of this, after 
considerable thought, I really felt that about a 30 percent 
increase from where we are, not necessarily in the present 
year, but allocated as the continuing amount, would allow us to 
gracefully exit the current road that we are on and get onto a 
road that we like better. Frankly, as others have said, the 
current budget contains enough to do new things or different 
things that we want to do, if--the problem is that you would 
have to bring to a definitive conclusion things for which we 
have had 20 years worth of commitments, and as an American, I 
dislike doing that. It is not that I endorsed those previous 
things. In fact, I have a very, very long record of not 
supporting Shuttle and Station as programs. It is just that I 
think we look poor in the international community if we bring 
them to an abrupt halt rather than terminate them gradually. 
Thank you.
    Ms. Jackson Lee. Huntress.
    Dr. Huntress. Yeah. I agree 100 percent with Dr. Griffin, 
but the problem is not human space flight, the problem is this 
kind of human space flight, and I was a Sputnik kid, you know. 
I grew up and I was in junior high school when all that 
happened. And I remember those days and what it did to inspire 
kids of my age, kids who normally would kind of gone past the 
interest in science and math. It just rekindled everything, and 
it created the greatest rush into colleges in the history of 
this country in science and math. Now, we don't have to have 
Apollo to do that again, but we have to have a program which is 
inspiring to our youth, and we have got what it takes, but we 
are not just doing it.
    And so I think that a reinvigorated program with a clear 
understanding of the destination, what the game is and where we 
are going to go will bring people into the stadium. And as far 
as competition versus cooperation, there always has to be a 
balance between this. I mean the Chinese feat is--well, they 
should be well congratulated. They are now a part of this 
exclusive club, and there is a sense of competition there, and 
we need to lead this balance of competition versus cooperation 
by being a leader. That is how one does that. You lead, and 
that charges your competitive juices at the same time that you 
are cooperating and doing what we need to do.
    Chairman Boehlert. The Chair would call on the gentleman of 
Missouri, Mr. Akin.

                              Exploration

    Mr. Akin. Thank you, Mr. Chairman. You have given me the 
longest lunch break I have had in a week, I think. I have 
enjoyed that. And I have been fascinated by the discussion this 
morning, gentlemen. The one aspect that I haven't heard 
developed, and perhaps it is the most interesting, you made 
reference to the writings on the wall behind this concept of 
the vision, and I think a little bit about a couple of the 
people that I have done some reading on since I have been a 
little bit older and educated. One was Columbus, and why it was 
that he wanted to go around the world, and essentially, he 
spent years of his life trying to sell this idea, but his basic 
idea was he just wanted to go around the world the other way, 
and then you have the Lewis and Clark and their expedition, a 
little bit more practical about what was going on, and then 
just--we--not too long ago, this committee went to the South 
Pole, and--on the long plane ride down there, we had some time 
to read about Scott and Shackleton and some of the challenges 
of the Norwegians to the British explorers, and their different 
sort of attitudes toward exploration, but that just the 
Northwest Passage and then the South Pole, these were all 
things that from a practical point of view, these explorers had 
to come up with some sort of a logical excuse to want to do 
something, yet really in their heart, they just wanted to do 
because they wanted to it, and not so much because they had to 
be so practical about it, and so yet, it seems to me that there 
is a little bit of a pattern.
    There is something in human nature that is a little kid 
that wants to dream and wants to go out and reach out and do 
something that has not been done before, and I think that is 
something we ought to acknowledge, that we--and I think you 
were, Dr. Huntress, you were talking about, you know, the 
Sputnik era, and that is the thing that we are looking for, is 
that--is a way to explain that, some way to say, look this is 
where we are going, and there is some logical reasons, perhaps, 
why some good things may come of it, but to a certain degree, 
we just--that is in our human nature, to explore and to reach 
out and to try to do things that have never been done before, 
and so I guess my question is, and I think that that--there is 
no harm in that being informed by some amount of intellect and 
some knowledge and some thinking, of course, but some of it is 
a heart thing, it is just what do you want to do, so my 
question to each of you would be to talk to me now like you are 
a 12 year old, and just I want something that is more like boy, 
if I could just do whatever I wanted to do, you know, look out 
into space and tell us, you know, what is on your hearts to do, 
if you had a chance to sort of--you have got the magic wand. 
You can design the program. Where would you like to see us 
going? Thank you, Mr. Chairman.
    Dr. Griffin. I agree with you wholeheartedly, and as my 
opinion a 12 year old, most of my colleagues would appreciate 
it if I----
    Dr. Huntress. Well, I think I have been a 12-year-old all 
my life, and that is why I am in love with space exploration, 
and I think you are entirely right. The reason we will go to 
Mars is not for scientific reasons. The reason we are going to 
go to Mars is for exploration reasons and for the reasons that 
this--that humans want to go to there, that it is in our innate 
nature to look over the horizon to try and discover, try and 
understand and better ourselves for that. And that is the 
reason we are really going, not for the scientific reasons. 
Science will benefit, but it is not going to be the primary 
reason.
    Mr. Akin. So, Doctor, your answer is Mars is--you think 
that is the next logical, good thing to sort of set on, we 
haven't done that yet, let us go do it.
    Dr. Huntress. Yeah, and if we were to put Mars and the Moon 
at the same distance, and say which one do I want to go to, 
boy, there is a slam dunk.
    Mr. Akin. Mars, right? Because we haven't been there yet.
    Dr. Huntress. Not only that, but it is a much more 
interesting planet. It is the planet in the solar system with a 
surface environment most like our own.
    Mr. Akin. Thank you.
    Dr. Koss. I have a great respect for the vision of my 
fellow 12-year-olds, and I would like to see their vision come 
true in some way. However, I am a condensed matter physicist, 
and people don't find what I do as interesting as what they do 
generally, but my interests, what I like, what excites people 
like me is looking at the inner structure and working of 
materials, and how they work. NASA right now has a vibrant 
program in physics, in combustion, in biotechnology and fluids 
and fundamental physics. I would just hate to see the broader 
vision that is described so eloquently by members of this panel 
injure or destroy the physical science that is going on right 
now and going successfully. That is perhaps----
    Mr. Akin. Is that part of the fact that we are talking 
about here, those different viewpoints?
    Dr. Koss. Maybe it is because right now, that program is 
structured with human-enabled space flight as the majority of 
it, and with this further discussion on where the space program 
can go, that program could be dropped as not being quite 
dramatic, though it is a tremendously successful program that 
could, if you removed the humans from that loop, could be done 
at a much greater savings and a greatly reduced risk, and I 
think if you keep a program like that around, it is--will also 
inspire you, and it will complement the larger vision that NASA 
goes forward with.
    Mr. Akin. Thank you.
    Dr. Roland. Very briefly, I would just say most of the 
explorers you mentioned had practical purposes for going, and 
it is one of the concerns I have is why, for the time being, I 
am more focused on lower Earth orbit, because I think that is 
where our practical payoffs are, and also, most of them had to 
raise their own money. Columbus paid 11 percent of his, the 
cost of his own voyage. He was buying in as an investment, and 
it is hard to see what the payoff of these explorations are. 
They are very exciting, but I don't see the payoff.
    Mr. Akin. So you're saying that there is--the parallel is 
not quite the same here, right?
    Dr. Murray. Getting directly to your question, rather than 
reconstruct my own opinions at 12, I am going to tell you about 
Cal Tech students, which is who, within my work, I have for 
decades. A surprising number really want to go to Mars, but 
there is nothing there for them. They are counseled to go do 
something else. Lower Earth orbit is a dead end, and you don't 
want to take a talented person in science or engineering and 
get them bogged down in this bogged down program.
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Akin. Thank you, Mr. Chairman.
    Chairman Boehlert. But if you have one quick comment, Mr. 
Akin.
    Mr. Akin. I was just going to followup on that last answer. 
I don't--you say that the idea of going to Mars, that is 
something that the students are--did you say they are 
interested in it, but what did you mean when you said there is 
nothing there for them?
    Dr. Murray. NASA has no program. There is no goal, there is 
no destination, and instead, we are bogged down in low-Earth 
orbit.
    Mr. Akin. So, you think that we need to hold that vision 
out there.
    Dr. Murray. That is my feeling.
    Mr. Akin. And your students would get excited about it.
    Dr. Murray. Yes.
    Mr. Akin. Thank you, Mr. Chairman.
    Mr. Smith of Texas. I wonder if the question might be more 
challenging if it was how would you feel as a 70 year old, and 
you are being told that your Social Security payments are going 
to be dramatically cut, as well as your pension from whatever 
you earned, and where do you want the Federal Government to 
spend its money. I mean, that is the challenge that this 
country is facing very dramatically, and so part of what I have 
heard Dr. Roland and Dr. Murray is there has got to be some 
return on that investment. What is the practical return, and 
certainly, my opinion as Chairman of the Subcommittee on 
Research of this Science Committee is that stimulating and 
exciting you in math and science is part of it. I don't think 
Dr. Huntress, the excitement of Sputnik is still there. I mean, 
this program has been going since the '60s, it has lost some of 
its allure, it seems to me. Our challenge, now, with half of 
our graduate students coming in from foreign countries to do 
our research, that is sponsored through the National Science 
Foundation, should scare the hell out of us. Let me get--it 
seems to me that NASA--and strike the word hell, without 
objection, so ordered--NASA has been sort of oriented to 
scientific research in the past, and I think it should continue 
that way, and to the extent that we can justify it as far as 
research endeavors that result in better products or better 
ways to produce, more efficient ways to produce those products, 
then certainly, we can support that.

                         Free-Flying Platforms

    Dr. Koss, in terms of your suggestion for satellites or, if 
you will, free flyers up there, and in terms of doing some of 
the scientific research more effectively, more cost 
effectively, what would be the cost of one of these satellites, 
compared to a traditional satellite that we have been putting 
up? Is the cost of robotics and the nanotechnology and the 
communications system to conduct this research substantially 
going to increase the cost of those platforms?
    Dr. Koss. I believe that the cost of autonomous science 
platforms has savings over the Shuttle or Station in performing 
those experiments, and so by doing more autonomous and remote 
experiments, even in the creation of a new facility for doing 
so, you save money by reducing the number of Shuttle or Station 
resources that need to go to performing those science 
experiments, which will free up funds for the broader vision 
that NASA has.
    Mr. Smith of Texas. Do you think there is a vehicle--Dr. 
Murray?
    Dr. Murray. I want to comment, I am 71 years old, living on 
pension funds, and so I share that view strongly. I am also a 
deep believer in human space exploration, so I am caught, in a 
sense, and that seems to me to lead this painful thing I have 
said, we have got to restructure the existing program, and get 
money of that, to enable developing the vision you are talking 
about into something a little more real.

                         Space Station Science

    Mr. Smith of Texas. Well, it is my job, Dr. Roland, you 
suggested that maybe, I mean we know that the platform, the 
Space Station is way over budget. The prospects are that it is 
going to very--it could very double again. In terms of its 
effectiveness as a research lab, it would--should we separate 
the microgravity research from how humans can exist in outer 
space type of research, and decide where we could go there--
from there in terms of manned and unmanned.
    Dr. Roland. Right. I agree. I agree with Dr. Koss that the 
only--the best science on the Space Station is the human 
physiology science, but in my mind, we are a long way from 
facing the prospect of long-term manned space flight, and that 
is not our greatest priority, so we ought to be using the Space 
Station as a space platform to conduct automated experiments, 
and then get on with making access to space more practical.
    Mr. Smith of Texas. Dr. Koss.
    Dr. Koss. The Columbia Accident Investigation Board 
concluded, or one of their conclusions is that we need to 
separate humans from cargo, and I would submit that many of the 
basic science experiments, all of the physical sciences ones 
and many life science ones don't involve human beings, are 
essentially cargo, and can be separated from the human element 
to great cost savings.
    Mr. Smith of Texas. Dr. Griffin and Dr. Huntress, would you 
even agree that in terms of exploring outer space, it is more 
reasonable to do that with unmanned space exploration?
    Dr. Griffin. I think it depends on the kind of question 
that you are trying to answer. There, again, as Dr. Huntress 
and others have said, for a long time, there has been this 
feeling of the division between manned and unmanned space 
exploration, whereas in practice, it has not been that way. 
Pretty much when can people can automate something, they have 
done so, and when people are needed, people are used, for 
exploration, the very nature of exploration suggests that 
humans have to be involved, in the sense that Drs. Murray and 
Huntress and I have been talking, except that in our--in recent 
testimony, the--our administrators of NASA said that we could 
very easily do the shuttling with unmanned space flight. I have 
no problem at all, in fact, I strongly recommended that 
transport of crew and transport of cargo not be linked. I think 
that is the key to the vulnerability of the Shuttle. But that 
does not imply that once the cargo--humans--that----
    Mr. Smith of Texas. That--and do I understand, then, that 
you and Dr. Huntress are--disagree with the idea that the 
scientific research could be done more efficiently on platforms 
with--more efficiently, in terms of cost and productivity of 
those research programs, rather than continuing the completion 
of the Station?
    Dr. Huntress. Let me try that, and I agree that most of the 
science which is done on Shuttle space lab flights or on the 
Space Station, with the singular exception of research on human 
physiology in space is probably more cost-effectively done on 
unmanned platforms or remotely operated vehicles or human-
tended ones, and so I believe that the Station's good utility, 
if it has one, is in research on human physiology in space.
    Mr. Smith of Texas. Well, and so what you feel is the long-
term economic advantage to this country as far as the human's 
physiological reactions to outer space?
    Dr. Huntress. Well, the only reason that anyone would care 
about human physiology in space is to prepare--for humans 
before humans go further in space. If one is not--if one is 
inherently not interested in human exploration of and expansion 
into the solar system, then there is no reason to study human 
physiology in space.
    Mr. Smith of Texas. And do I understand from your response 
that you think that that is--that that is--a policy goal that 
we should have, that is--whether or not it is driven by the 
economics of this planet?
    Dr. Huntress. I believe with--yes, I believe the policy 
goal of the United States, policy being can expand human 
presence into the solar system.
    Mr. Smith of Texas. And for what reason?
    Dr. Huntress. In my earlier testimony that I truly believe 
in this program. What we are as humans to want to do that. I 
have no better reason. I acknowledge that we cannot afford to 
spend a lot of money on it, and I think I have pointed out that 
we in fact don't spend much money on it, but that it has to be 
done.
    Mr. Smith of Texas. Gentlemen, I am going to offer my 
thanks and turn it back to the Chairman. Thank you.
    Chairman Boehlert. Thank you very much, Mr. Smith. I 
appreciate it. I am going to wrap this up. One question I am 
going to ask, and I am going to ask that you give some thought 
to it, obviously. You have given thought to everything you have 
said here today, but respond in writing if you would, and this 
is the basic question and we will give it to you in writing. 
Could each of you outline with some degree of specificity what 
you think NASA ought to be doing and not doing over the next 
five years in pursuit of your vision. All right.
    And then--now, this is one--hearing today, and listening to 
you and the exchange and the dialogue you have had with our 
colleagues here, I have come up with some statements, and I 
would like to ask each of you, you know, a quick yes or no. Do 
you agree with the statements and I will ask them one by one, 
and now, a lot of it is in the asking of the questions, and I 
know there are nuances, but I am trying to get a general 
feeling. The current NASA human flight program is not moving us 
toward any compelling objective--the word current is the 
operative word--and we should make a transition out of the 
Shuttle and Space Station program as soon as possible. Dr. 
Griffin.
    Dr. Griffin. Yes. I agree with it.
    Chairman Boehlert. Dr. Huntress.
    Dr. Huntress. Yes.
    Chairman Boehlert. Dr. Koss.
    Dr. Koss. Yes.
    Chairman Boehlert. Dr. Roland.
    Dr. Roland. Yes.
    Chairman Boehlert. Dr. Murray.
    Dr. Murray. Yes, yes.
    Chairman Boehlert. Thank you. The primary reason for human 
exploration is the impulse to explore, rather than any more 
utilitarian goal that you can quantify and measure immediately, 
although there may be collateral benefits. Dr. Griffin.
    Dr. Griffin. Yes.
    Chairman Boehlert. Dr. Huntress.
    Dr. Huntress. Yes.
    Chairman Boehlert. Dr. Koss.
    Dr. Koss. Yes.
    Chairman Boehlert. Roland.
    Dr. Roland. Yes.
    Chairman Boehlert. Dr.--ambitious goals without massive 
increases in the NASA budget. Instead, we need small increases 
sustained over a longer period of time. Dr. Griffin.
    Dr. Griffin. Yes.
    Dr. Huntress. Absolutely. Yes.
    Dr. Koss. Yes.
    Dr. Roland. Yes, except I don't think we need any increase, 
but long-term, yes.
    Dr. Murray. Yes.
    Chairman Boehlert. You could see an increase for inflation, 
wouldn't you?
    Dr. Roland. Yes.
    Chairman Boehlert. Okay. We should avoid sacrificing other 
NASA programs to achieve our human space flight goals. Dr. 
Griffin.
    Dr. Griffin. Yes.
    Chairman Boehlert. Dr. Huntress.
    Dr. Huntress. Definitely, yes.
    Chairman Boehlert. Dr. Koss.
    Dr. Koss. Yes.
    Chairman Boehlert. Roland.
    Dr. Roland. Yes.
    Chairman Boehlert. Dr. Murray.
    Dr. Murray. Yes.
    Chairman Boehlert. The long-term good of the human space 
flight program should be getting to Mars, and preferably 
starting colonies in space. Dr. Griffin.
    Dr. Griffin. Yes.
    Chairman Boehlert. Dr. Huntress.
    Dr. Huntress. Yes.
    Dr. Koss. No.
    Chairman Boehlert. Roland.
    Dr. Roland. No.
    Chairman Boehlert. Dr. Murray.
    Dr. Murray. Ask for clarification what the words colonies--
I don't understand what colonies in space means.
    Chairman Boehlert. Well, outstations, like we were talking 
about.
    Dr. Murray. Okay. Yes.
    Chairman Boehlert. Yes. All right. So it is three two--on 
that one? All right. I want to thank you all very much, and we 
could keep you here all day, and it just wouldn't be fair to 
you. We have got a million questions. I would appreciate it if, 
in a timely manner, you could respond to that one specific 
question I asked, and I will repeat it. The long--wait a 
minute--identify with some degree of specificity what you think 
NASA ought to be doing and not doing over the next five years 
in pursuit of your vision of what we should have in the future 
of human space flight.
    Now, I don't expect you to micromanage and tell us chapter 
and verse on how they should do everything, but I think you 
sense what I am asking for. Thank you so very much. I really 
appreciate it, and this hearing is now adjourned.
    [Whereupon, at 1:21 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, President and Chief Operating Officer, 
        In-Q-Tel, Inc.

Questions submitted by Chairman Sherwood Boehlert

Q1.  Please outline with some degree of specificity what you think NASA 
out to be doing--and not doing--over the next five years in pursuit of 
your vision.

A1. NASA should first initiate development of a heavy lift launch 
vehicle having a payload capacity of at least 100 metric tons to low-
Earth orbit (LEO). Such a vehicle is the single most important physical 
asset enabling human exploration of the solar system. New manned 
vehicles for Earth to LEO transport, and for flight beyond LEO, are 
equally essential. Beyond these immediate requirements, development of 
nuclear propulsion systems must be re-initiated to allow efficient 
travel beyond cislunar space. Compact space qualified nuclear power 
systems are required for extended human presence on the Moon and Mars. 
The efficient establishment of permanent human bases do the Moon, Mars, 
and certain asteroids requires the use of in situ resources as soon as 
possible, to minimize the amount of material and equipment which must 
be brought from Earth. The technology for such exploitation has yet to 
be developed. Finally, space and planetary surface habitat and suit 
technology is at present wholly inadequate to the needs of an extended 
program of human space exploration.

Q2.  If we are to send Americans on ambitious space missions, we are 
going to have to accept much higher levels of risk than those attendant 
in the current human space flight programs. What level of risk do you 
think is acceptable? How long is it likely to take to develop a program 
that could operate at an acceptable level of risk and how will we know 
what the risk level is? How can we ensure that the American people will 
accept a higher level of risk?

A2. Such a question calls for what can only be a personal opinion, and 
equally demands acknowledgement that the opinions of others may well be 
different. That said, I agree with the assertion that truly ambitious, 
exploratory space missions are dangerous almost by definition. I 
believe that for planning purposes we should strive for--and openly 
accept--a crew-loss risk of one percent, and a mission risk of five 
percent. This level of risk is, in my opinion, consistent with the 
actual level we have today in the present Space Shuttle program, and 
with the Mercury, Gemini, Apollo, and Skylab missions of the past. It 
will always be difficult, if not actually impossible, to ``know'' that 
a given level of risk has been achieved, especially if that level is 
low. The methods of descriptive statistics are not well suited to 
providing accurate assessments of risk levels when the database is as 
small as that which exists for human space flight at present; e.g., a 
few hundred ``samples'' at best. Analytical methods such as 
``probabilistic risk analysis'' are somewhat more informative, but 
depend very strongly on underlying assumptions which are, in essence, 
impossible to verify. So, in the end, we can estimate risk levels but 
cannot know them accurately.
    We can, however, know with some confidence that space exploration 
cannot really be ``safe'' in comparison with more conventional 
activities, and we can present this assessment clearly and honestly to 
the American people. In my opinion, few interested citizens would 
suppose otherwise, no matter what public posture was assumed. Other 
than via public opinion polls, we cannot ``know'' that the American 
people will accept such risks, but my own belief is that they will, 
provided the available information is honestly portrayed.

Q3.  At the hearing, you identified the development of a heavy lift 
launch capability as your top priority. The context with which the 
question was asked was in relation to the priorities laid out by the 
Augustine commission in 1990. Since 1990 however, the U.S. has 
developed expendable vehicles capable of carrying nearly 50,000 pounds 
to Low-Earth Orbit. Given these developments, do you think even larger 
vehicles are required? If so, what are these larger vehicles needed 
for? If such heavy lift is required, would it be possible, or even 
desirable, to use the current fleet of vehicles and launch in segments 
to spread the risk out and to avoid the investment in an entirely new 
launch system?

A3. Launch vehicle payload capacity in the range of 50,000 pounds (23 
metric tons) to LEO is indeed adequate for most Earth orbital missions. 
However, looking beyond Earth orbit to the requirements of manned 
lunar, asteroid, and Mars missions, substantially greater payload 
capacity is needed if operations are to be conducted efficiently. Even 
a minimal manned lunar return capability will require on the order of 
50 metric tons of payload to be emplaced on a lunar transfer 
trajectory. A 50 metric ton translunar payload implies a roughly 100 
metric ton payload in LEO, assuming a lox/hydrogen upper stage having a 
specific impulse of 450 seconds is used for the translunar injection 
maneuver. For comparison, the Apollo lunar missions required 40 metric 
tons on translunar trajectory, and provided support for two people for 
three days. Any future missions must reasonably be expected to improve 
on these parameters. Human support requirements are not easily scaled 
below certain minimum thresholds.
    If we accept that at least 100 metric tons is required in LEO to 
effect a basic manned lunar return capability, it is seen that at least 
four launches of an EELV-class vehicle having a 23 metric ton payload 
capacity would be required to achieve this threshold for each lunar 
mission. It is my opinion that the logistical difficulties of such an 
operation would be impractical to the point of being essentially 
impossible. While EELV-class vehicles may have a role in Earth-to-LEO 
transportation, in my opinion they have no significant application for 
human missions beyond LEO.

Q4.  Would a system based on the Shuttle's Solid Rocket Motors and 
External Tank, the so-called ``Shuttle-C'' concept, meet your 
requirement for heavy lift? Do you believe the Shuttle-C concept is the 
best approach to meeting heavy lift requirements? If not, what would be 
your recommended approach? If so, what technical issues would need to 
be addressed to implement the Shuttle-C concept, how much would it 
cost, and how long would it take?

A4. I do think it likely that Shuttle-derived vehicles, using Shuttle 
components such as the solid rocket boosters and external tank, could 
offer an expeditious approach to meeting the heavy-lift requirements 
for manned lunar return missions. The ``Shuttle-C'' concept refers to 
one of several such vehicle designs which have been advocated over the 
years, and carries the particular connotation of an unmanned side-
mounted payload replacing the Shuttle Orbiter. I do not favor this 
particular design approach. It dogs not represent the most efficient 
use of the ``Shuttle stack''. The payload is of the order of only 80 
metric tons and is not easily scaled to significantly larger values. Of 
equal importance is the fact that the payload fairing diameter must 
remain comparable to that of the present Shuttle, a significant 
limitation for exploration-class vehicles. More conventional ``in 
line'' Shuttle-derived vehicle configurations, notably the Marshal 
Space Flight Center's ``Magnum'' design, have also been studied, and in 
my opinion offer a much more reasonable alternative for meeting near-
term heavy lift launch requirements.
    There are no significant technical issues to impede the development 
of a heavy-lift Shuttle-derived vehicle. I cannot supply credible cost 
or schedule estimates for the recommended development, but my top-level 
assessment is that it could be done within two-three years for a few 
billion dollars at most.

Questions submitted by Representative Ralph M. Hall

Q1.  A major focus of this hearing is on potential gods of the human 
space flight program. However, goals without adequate resources never 
become real programs.

Q1a.  Why do you think that it has proven so difficult to get a 
commitment to and sustained funding for a human exploration initiative 
in the three decades since Apollo?

A1a. Apollo was initially sponsored for reasons that, even by the time 
it had achieved its goals, were largely moot. By 1969, the Soviet Union 
had effectively retired from the competition in space which had served 
as a symbol of clashing Cold War ideologies. By the time of the last 
few lunar landings, Apollo itself had evolved from a quasi-militaristic 
project into a scientifically focused exploration. But in the view of 
the public, the press, and our legislative and executive branches, the 
original motivation served to characterize the program: Apollo vas a 
race to the Moon, the U.S. had won, the other runner had fallen by the 
wayside, and the world had moved on to other priorities. The Vietnam 
War, not the Cold War, occupied American and world attention. The war's 
aftermath, with its accompanying ``stagflation'' and re-evaluation of 
America's place in the world, did not encourage exploratory ventures.
    Had we retained the Apollo infrastructure--the Saturn launch 
vehicles, the Apollo command and lunar modules, and the tooling for 
these things--my own belief is that we would have used them again, 
possibly after the passage of a few years and quite likely in modified 
form. The lunar module was easily adaptable to an unmanned, one-way 
``cargo mode,'' which would hive allowed the steady, incremental 
emplacement of lunar base assets. The Apollo command module, modified 
to serve as an Earth-to-LEO transport vehicle, could have carried a 
half-dozen or more people and been quite substantially reusable. And it 
goes without saying that the world has yet to see a family of launch 
vehicles with the proven reliability and robustness of the Saturn 
family.
    But the Apollo-era infrastructure that was developed and built at 
such great expense was not maintained; in fact, it was deliberately put 
aside in favor of the Shuttle. While the wisdom of this decision can 
and has been questioned, it is not necessary to do so in order to 
observe that the Apollo infrastructure, once lost, could not be easily 
or cheaply rebuilt. Had we retained the capability, even in a lightly 
``mothball'' status, any Administration or Congress could have pressed 
for a resumption of lunar exploration, or even a Mars mission, at 
reasonable cost. But with the basic transportation elements gone, no 
Administration since Kennedy's could or would argue the ``need'' for 
sending humans beyond Earth orbit. In this assessment, they have been 
aided by NASA, which has for nearly three decades been unable to admit, 
or even to recognize, the essentially futility of developing space 
hardware which is inherently restricted to LEO.
    Yet, it is important to note that Americans afire not against, and 
in fact are moderately supportive of, space exploration. Surveys have 
consistently shown that such support is broad but shallow; i.e., a 
majority of Americans favor continuing human space exploration (and 
robotic exploration as well, but regard it as a discretionary activity, 
one upon which they do not believe too much money should be spent. 
However, survey data also consistently shows that Americans believe the 
NASA civil space program to be much larger than it is; i.e., comparable 
to military spending in its magnitude, rather than a number which is in 
reality only a few percent of the Defense budget. So, more money could 
be spent on space exploration without violating the desires of the 
citizenry to maintain it in its rightful place, as the discretionary 
activity of a wealthy nation.

Q1b.  What specifically do you think will have to The done to get such 
a commitment from the White House and Congress?

A1b. We need to begin with an honest public debate about the proper 
role of space exploration in American life, initially along the lines I 
have indicated above. We need knowledgeable spokesmen from the 
Executive and Legislative branches of government, from industry and 
academia, to state openly that we are where we are today based upon 
poor decisions made mere than three decades ago, and never corrected. 
We need to advocate an intelligently planned architecture, along the 
lines that I and others have suggested, which putt the human 
exploration and exploitation of the solar system, by Americans along 
with others, ``front and center'' at NASA. More money for such a 
program would be nice, but is not truly essential. The essential 
requirement is simply to agree, all together, that we have been 
spending the money we have on the wrong things.
    I personally find it interesting to observe that the space policy 
decisions which have led us to our present conundrum were largely, if 
not entirely, made by the Nixon Administration. Subsequent 
Administrations have simply declined to repudiate those earlier 
decisions. But little else from that era receives endorsement from 
those in public life today; indeed, a host of governmental ``reforms'' 
were undertaken to prevent the recurrence of certain excesses from that 
time. Why is it that we have not questioned the space policies 
promulgated during the Nixon era?

Q2.  The Chinese recently launched their first astronaut. They have 
indicated that they intend to follow up that mission with a sustained 
and ambitious human space flight program.

     How should the United States respond to the Chinese human space 
flight initiative?

A2. We should regard the Chinese as serious-minded, long-term 
competitors for superpower status in the global community. We should 
recognize that the achievement and continued advancement of human space 
flight by China acts, and acts strongly, to enhance such status. We 
should realize that much of the world, perhaps most of the world, does 
not share our Western ideals concerning the value of personal liberty, 
pluralistic democratic systems, and a free and open society. We should 
understand that, while we are indeed very far from a perfect society, 
the ideals of Western thought and culture which we hold so dear cannot 
endure, and certainly cannot prevail, unless America can lead the way. 
In future centuries, it will be seen, and seen to be obvious, that 
leadership of the human expansion into space is, by itself, the single 
factor guaranteeing pre-eminence in human society to the Nation or 
nations possessing it. Despite our setbacks, Americans today still 
leads the world in its mastery of space flight. This leadership was 
largely purchased with a sustained investment during the 1960s, an 
investment approaching four percent of the Federal budget in some 
years. It should be recognized that the Chinese intended to wrest this 
leadership away from the United States; the only uncertainty in their 
vision concerns the time scale. Do we really wish to allow this to 
occur?

Q3.  The most recent U.S. human space flight program--the International 
Space Station--involves a partnership of 15 nations.

Q3a.  Should international cooperation be an intrinsic part of any 
future human space flight initiative, or do you think that a future 
initiative would be better managed as a U.S.-only undertaking?

A3a. I discussed in my written testimony the fact that the United 
States today spends a trivial portion of its wealth on space flight--an 
amount equivalent to less than 15 cents per person per day. Increasing 
this amount by about 30 percent together with re-orienting today's 
program would, in my view, provide the proper basis for a sustained 
program of human space exploration. But, as I have noted above, even 
today's $15 B annual funding for NASA is sufficient to accomplish much 
of what is needed, if programmatic priorities could be properly 
redefined. So, as a ``bottom line,'' and in a strictly technical sense, 
it is clear that the United States does not ``need'' international 
partners to accomplish any goal in space.
    But I have argued, here and elsewhere, that space policy is among 
other things an extension of foreign policy, and in the long run is the 
most significant aspect of that policy. To a large extent, leadership 
in space in the twenty-first century and beyond will convey the same 
benefits to the Nation possessing it as did mastery of the air in the 
twentieth century, or mastery of the seas in the eighteenth and 
nineteenth centuries. So the United States must lead. But leaders must 
have followers, and even more importantly, they must have allies and 
partners.
    The United States can act unilaterally to achieve any desired goal 
in space, and can achieve it before any competitor can hope to do so. 
But we should set out to achieve such goals in company with those who 
share the vision and the ideals which shape our society.
    It should be noted that America's record as a leader in 
multilateral space enterprises is mixed, at best. We have much work 
ahead of us to demonstrate the reliability and constancy of purpose 
that partners are entitled to expect in such an effort.

Q3b.  What are the pros and cons of international cooperation on future 
human space flight projects?

A3b. An international project will, almost inevitably, take longer and 
be accompanied by a substantial degree of frustration as the parties 
attempt to overcome political, cultural, linguistic and fiscal barriers 
to effective cooperation.

Questions submitted by Representative Bart Gordon

Q1.  The Hubble Space Telescope, like the Chandra and SIRTF space-based 
observatories, could have been designed to work without the capability 
to be serviced by humans. Is servicing scientific spacecraft an 
appropriate task for humans in space? Is it an appropriate risk for 
humans in space to accept?

A1. With specific regard to the Great Observatories, including Hubble, 
Chandra, and SIRTF, my own answer must be that servicing these 
platforms is worth the risk of life. Lives are risked, and sometimes 
lost, in any large construction project. Lives were lost in the 
building of the famous Mt. Wilson Observatory. But from that 
observatory, Edwin Hubble measured and later explained the galactic 
redshift that has led to our present understanding of the universe. The 
Great Observatories have allowed, and will allow, us to make new and 
equally fundamental observations. And, while it may be possible in 
theory to build such complex machines so well that they need no human 
interaction, I personally do not know how to do it, nor do I know 
anyone who can claim with any confidence to know how to do it.
    More generally, the risk of space flight is not a reason for humans 
to abstain from space missions, it is a reason for us to strive to 
learn how to do our jobs better. Almost by definition, there is always 
risk to be found on a frontier, and space is today's frontier.

Q2.  In what ways, if any, would a base on the Moon contribute to our 
ability to send humans to Mars?

A2. On Mars, we will need surface suits, habitats, rovers, power 
sources, and a host of other tools, technologies, and processes that we 
do not have today. To test them for the first time on Mars, many months 
from home, with our last experience beyond LEO having occurred in 
December 1972, seems to me to be very foolish indeed. It is certainly 
true that some things needed for the first missions to Mars will not 
have a useful lunar analog. But, wherever possible, we should test on 
the Moon those things we will need to do to survive for weeks or months 
on Mars.

Q3.  As of three years ago, development of a low-cost, highly reliable 
reusable launch capability to low-Earth orbit was viewed as a central 
goal of the human space flight program that would enable a wide range 
of new options. In the last year or so, NASA seems to have decreased 
the priority of that goal. How high an investment priority do you think 
that goal should be for NASA?

A3. As I have indicated in other forums, including prior testimony to 
this committee, I regard the pursuit of low-cost, reliable, reusable 
space launch capability to LEO to be a central goal of the Nation's 
civil space program. In this era, after more than four decades of space 
flight, far more progress toward this goal should have been made than 
has been observed. More effective space transportation is the enabling 
technology needed by the United States if it truly desires to master 
space flight.

                   Answers to Post-Hearing Questions

Responses by Wesley T. Huntress, Jr., Director, Geophysical Laboratory, 
        Carnegie Institution of Washington

Questions submitted by Chairman Sherwood Boehlert

Q1.  Please outline with some degree of specificity what you think NASA 
ought to be doing--and not doing--over the next five years in pursuit 
of your vision.

A1. In the next five years NASA needs to make progress in the hardest 
problem; a less costly, lower risk system for access to low-Earth orbit 
by crew and separately by cargo. Devise the simplest and safest systems 
separately for crew and cargo transport to low-Earth orbit.

Q2.  If we are to send Americans on ambitious space missions, we are 
going to have to accept much higher levels of risk than those attendant 
in the current human space flight programs. What level of risk do you 
think is acceptable? How long is it likely to take to develop a program 
that could operate at an acceptable level of risk and how will we know 
what the risk level is? How can we ensure that the American people will 
accept a higher level of risk?

A2. Higher risk will be acceptable if the public perceives that our 
astronauts are exploring, not acting as plumbers and electricians 
trying to keep the ISS afloat. Risk is hard to measure, but it is easy 
to perceive. We know that capsule return systems riding on top, not on 
the side, of launch vehicles are safer than the Shuttle design. We 
proved it before Shuttle and the Russians have demonstrated it since 
1961. Go back to it. You don't need wings and joysticks in space; only 
on X-planes.

Questions submitted by Representative Ralph M. Hall

Q1.  A major focus of this hearing is on potential goals for the human 
space flight program. However, goals without adequate resources never 
become real programs.

Q1a.  Why do you think that it has proven so difficult to get a 
commitment to and sustained funding for a human exploration initiative 
in the three decades since Apollo?

A1a. It has been difficult to get a commitment for a human exploration 
initiative because the U.S. government has lost its long-term view of 
the health of the Nation. Bogged down in near-term issues, mainly war-
fighting, in the past 30 years the Nation has turned introspective and 
xenophobic. Industry, commerce and government have become throttled by 
the Wall Street mentality--all effort focused on the next quarter 
rather than some effort invested on the long-term future. The 
Administration and Congress no longer look beyond the next election. 
There are no statesmen and leaders.

Q1b.  What specifically do you think will have to be done to get such a 
commitment from the White House and Congress?

A1b. To get a commitment the public has to demand it. And this won't 
happen until our astronauts actually do something in space; they've 
done nothing in 30 years while the robotic program has dazzled 
everyone. Or unless the public perceives that others are passing us 
while we wring our hands.

Q2.  The Chinese recently launched their first astronaut. They have 
indicated that they intend to follow up that mission with a sustained 
and ambitious human space flight program.

     How should the United States respond to the Chinese human space 
flight initiative?

A2. We should respond to the Chinese by welcoming them to the club, 
dropping our stand-off attitude, establish strong cooperation in space 
with them and inviting them to join in the International Space Station.

Q3.  The most recent U.S. human space flight program--the International 
Space Station--involves a partnership of 15 nations.

Q3a.  Should international cooperation be an intrinsic part of any 
future human space flight initiative, or do you think that a future 
initiative would be better managed as a U.S.-only undertaking?

A3a. Future exploration, especially beyond Earth orbit, should be a 
global enterprise of cooperating nations. I think the U.S. should be 
the instigator and the leader, but not insist as it has in the past to 
be solely in control.

Q3b.  What are the pros and cons of international cooperation on future 
human space flight projects?

A3b. The pro of international cooperation is that it will bring the 
nations of the world together in a multi-cultural, engaging enterprise. 
The con of international cooperation is that it will be harder to 
manage, take longer and will cost more. Its well worth it.

Q4.  You mentioned in your testimony that ``Exploration is not what 
motivated Kennedy to open the public purse, beating the Russians dad.'' 
What is a comparable motivation for our time and place?

A4. Kennedy's motivation was nationalistic and covertly military. There 
is no comparable motivation today. Instead it should be international 
and peaceful cooperation--a method not to demonstration national power 
and will, but to demonstration international magnanimity and good will.

Question submitted by Representative Bart Gordon

Q1.  The Hubble Space Telescope, like the Chandra and SIRTF space-based 
observatories, could have been designed to work without the capability 
to be serviced by humans. Is servicing scientific spacecraft an 
appropriate task for humans in space? Is it an appropriate risk for 
humans in space to accept?

A1. Space telescopes will soon reach a size that cannot be launched on 
a single rocket and will require in-space assembly. Their complexity 
will mean higher cost, so that servicing an expensive facility is more 
cost efficient than reproducing it. This kind of construction and 
servicing of delicate instrumentation is best done by humans, as 
demonstration by Hubble servicing. The spectacular results from these 
space telescopes most certainly justify a certain amount of risk for 
astronauts; it has been among the most valuable work that Shuttle 
astronauts have done.

                   Answers to Post-Hearing Questions

Responses by Matthew B. Koss, Assistant Professor of Physics, College 
        of the Holy Cross

Questions submitted by Chairman Sherwood Boehlert

Q1.  Please outline with some degree of specificity what you think NASA 
ought to be doing--and not doing--over the next five years in pursuit 
of your vision.

A1. 

Introduction

    In Imagined Worlds, physicist Freeman Dyson ruminates about the 
non-destined future determined and informed by science and technology. 
Dyson introduces his eloquent set of essays with two remembrances of 
things past.
    Dyson remembers his wife's uncle Bruno, a country doctor in a big 
house in a small village. Uncle Bruno inherited his house and his 
practice from his father and expected to do likewise with his 
offspring. Dyson recalls,

         When I admired the large oak tree that stood in front of the 
        house, Onkel Bruno said in a matter-of-fact tone, ``That tree 
        will have to come down; it has passed its prime.'' So far as I 
        could see, the tree was in good health and showed no signs of 
        imminent collapse. I asked him how he could dare to chop it 
        down. He replied, ``For the sake of the grand children. That 
        tree would last my time, but it would not last theirs. I will 
        plant a tree that they will enjoy when they are as old as I am 
        now.'' He expected his grandchildren to inherit his practice 
        and live their lives in his home. That is the way it was in the 
        world that he knew.. . .Horizons are long, and it is normal and 
        natural to look ahead a hundred years, the time an oak tree 
        takes to grow.

    Dyson also recalls that when he was a student, his college also 
identified long-term issues that required immediate decisions and 
actions as an investment in the future. Here he says,

         The driveway to Trinity on the river side came through a 
        magnificent avenue of elms planted in the eighteenth century. 
        The elms were still beautiful but past their prime. The college 
        decided, like Onkel Bruno, to sacrifice the present for the 
        sake of the future. The avenue was chopped down and replaced by 
        two rows of scrawny saplings. Now, fifty years later, the 
        saplings are growing toward maturity. The avenue is again 
        beautiful, and it will grow to full height as the twenty-first 
        century goes by. Trinity College has been a great center of 
        learning since it was founded in the sixteenth century, and it 
        intends to remain a great center of learning in the twenty-
        first.

    So when I am asked to identify what NASA should be doing over the 
next five years in pursuit of a vision of the future of human space 
flight, I take Dyson's parables to heart.
    The single most important task NASA needs to address in the next 
five years to realize a future for human space flight is to formulate 
and begin to enact a vision for next 100 years.

Importance of Vision

    Prior to even the Wright Brothers and Kitty Hawk, we had the dreams 
of space flight from the science fiction visions of Jules Verne and 
H.G. Wells. Such dreamers and visionaries did more then just entertain. 
They inspired. It is said that the space age began on March 16, 1926 in 
Auburn Massachusetts (about one mile on the other side of Pakachoag 
Hill from my office at Holy Cross) with Worcester native Robert H. 
Goddard's instauration of the ``Space Age'' by launching the first 
liquid fueled rocket 184 feet over what was then his ``Aunt Effie's 
Farm,'' and what is now the Pakachoag golf course.
    As a boy, Goddard read Verne and Wells, and inspired by their 
fiction, became the physicist who launched the space age. However, 
unlike other early and equally inspired rocket scientists, such as 
Konstantin Tsiolkovsky and Hermann Oberth, Goddard combined Tsiolkovsky 
and Oberth's book learning of rocket dynamics with American know how to 
actually design, build and operate a working rocket.
    Throughout the years the artistic visions of Chesley Bonestell as 
published in Life helped a nation envision human space flight, while 
the fiction of Arthur C. Clarke, Robert Heinlein, Issac Asimov, among 
others, and television shows like Star Trek, continue to entertain, 
inspire, admonish, provide expression, and encourage thinking about the 
future. More recently and after the fact of the Apollo Moon landing, 
physicist Gerald O'Neill combined more hard science and a little less 
science fiction in imagining and advocating for giant rotating 
artificial gravity generating hollow cylindrical space colonies at the 
Earth-Moon L5 and other Lagrangian points. O'Neill's intellectual 
progeny and current source of utopian views and space advocacy are 
embodied in organizations like The Mars Society and The Space Frontier 
Foundation.
    Such visionaries and those inspired by them form a vast human 
capital sustaining tremendous faith in technologically imagined 
futures, and in the generation of grand visions and ideas, some of 
which may be novel and useful. The next H.G. Wells and Robert Goddard 
may come from these ranks and those inspired by them. We need their 
vision, their energy, and their evangelical zeal to form and sustain a 
long-term vision. However, the long term vision NASA needs to weave in 
order to conduct near term activities must be somewhat less ambitious, 
less contentious, and more rooted in proven or near-term technologies 
and practicalities. The Space Studies Board (SSB) of the National 
Research Council (NRC), The Planetary Society (TPS), the International 
Academy of Astronautics (lAA), to name but a few, embody this type of 
bold, clear, imaginative, and yet pragmatic and realistic thinking.

Constraints On The Vision

    A recent Zogby International poll indicated that a vast majority of 
Americans are in favor of human space flight despite the assumptions of 
inherent risks. At the same time, a Houston Chronicle Poll indicated 
that a majority believes that the Shuttle program should be held in 
abeyance until a vision of the future of human space flight has been 
promulgated. Clearly the public is still dedicated to a human future in 
space, but desire clarity of purpose and a detailed articulation of 
that purpose. Lastly, the public appears to stand ready to participate 
in and support the necessary change in space policy to realize that 
purpose.
    The chief task for NASA in the next five years is to lead the 
Nation in forming a long-term consensus vision for the agency regarding 
our future in space, and begin the programmatic changes to towards that 
realization.
    However we must be mindful that no matter how compelling or 
exciting the vision or how large a majority support it, there are 
scientific, engineering, and economic realities that need to be 
reckoned. We can't vote on the truth.
    Chairman Boehlert, in his opening statement for the October 16th 
hearing on the future of human space flight succinctly and properly 
identified five constraints within with a vision needs to be formed. 
Based on Boehlert's statement we have the following constraints:

        1.  There must be a consensus arrived at jointly by NASA, the 
        White House, the Congress.

        2.  Human space flight is not the only NASA responsibility, or, 
        even maybe the most important of its responsibilities.

        3.  There must be an agreement to pay for the agreed upon 
        vision even though and in consideration that NASA will not have 
        an unlimited budget.

        4.  We need to be open and honest about the purposes and 
        challenges of human space flight.

        5.  We must be cognizant and informed from the mistakes we've 
        made over the past 30 years.

Possible Visions

    NASA's overall mission to improve life here, to extend life there, 
and to find life beyond, as only NASA can, is proper and correct. The 
challenge occurs in the details when that overall broad mission has to 
be focused down to actual programs. It is then that the vision becomes 
blurry, and thus we now need to refocus and refine that vision.
    The key reports mentioned in the Charter of the October 16th 
hearing on the Future of Human Space Flight, from the 1984 Paine Report 
to this year's CAM report, have much to tell us about what our vision 
needs to include, how to accomplish that vision, and what to be wary 
about. Furthermore, using and modifying the recommendations of these 
reports is consistent with the imperative to incorporate the lessons 
learned from the last 30 years of human space flight. However, in 
addition to the reports listed in the hearing charter, we should add 
the post-Sputnik I Introduction to Outer Space prepared by a committee 
lead by James R. Killian, Jr., and the Wiesner report released just 
months prior to Yuri Gagarin's first human-in-space orbital flight. 
Both reports advocated for the primacy of unmanned spacecraft in the 
exploration of the solar system and beyond.
    Although both of these early reports largely advocated for NASA to 
lead a scientific exploration of space with a limited role for human 
space flight, it was decided then that the symbolic and geopolitical 
need to demonstrate technical superiority and virtuosity over the 
Soviets then trumped the scientific visions of the Killian and Wiesner 
reports. Now however, that particular goal was completed when Apollo 11 
returned safely to Earth in July of 1969. We had then demonstrated to 
the world our technical virtuosity. We had won that battle. It is now 
time, over 30 years later, to return to many of the ideas of those 
earlier visions that better balanced resources and goals for both 
remote/autonomous and human tended missions.
    In addition to not being a rocket scientist, I am not a visionary. 
I was invited to the hearing on the Future of Human Space Flight and 
asked to prepare this written response for the record because I saw 
something that was wrong with the status quo, forthrightly called it 
out, and asked NASA to change it. Nevertheless, although I cannot 
formulate a vision, I can recognize the merit in the visions of others. 
In fact, the other panelists at the October 16th hearing, by their very 
statements, enunciated and identified a common ground for the future of 
human space flight.
    There was general agreement, solicited by the concluding questions 
form the chair, that: the human impulse to explore is the chief reason 
to do so although there may be collateral benefits, we can take on 
ambitious goals for the future of human space flight with reasonably 
small and consistent budgets, we need to avoid sacrificing other NASA 
programs to do this, and we most definitely need to make a transition 
from the current Shuttle and Station programs. There may even be a 
consensus that the long-term goal is the colonization of Mars, provided 
that that destination is the product of a larger public consensus and 
envisioned in a reasonable timeframe.
    In detail, I think that Dr. Huntress, based on his work with the 
IAA, best expresses the common vision in terms of actionable goals and 
thoughtful observations:

        1.  The goal of establishing a permanent human presence in the 
        solar system with the stated objective to establish human 
        presence on Mars by the middle of this Century.

        2.  Recognition that exploration beyond Earth orbit is 
        intrinsically global, and should involve cooperation with other 
        space-faring nations.

        3.  A progressive, step-by-step approach for human exploration 
        beyond Earth orbit that does not require an Apollo-like 
        spending curve. Any requirements for increased spending can 
        then be made incrementally on an annual basis.

        4.  A set of exciting and rewarding destinations in this step-
        by-step approach to Mars including the Sun-Earth Lagrangian 
        Point L2, the Moon and Near-Earth Asteroids.

        5.  Re-invention of our Earth-to-orbit transportation and on-
        orbit infrastructure to support the goals for exploration 
        beyond Earth orbit. The current Space Shuttle and International 
        Space Station are not on that critical path other than research 
        on human physiology in space.

        6.  Development of new in-space systems for transporting humans 
        and cargo from low-Earth orbit to deep space destinations. No 
        large technological breakthroughs are necessary.

        7.  Continued use of robotic missions for scientific research 
        and preparation for future human flights. Robotic precursor 
        missions will be required to reduce the risk for human 
        explorers and to provide on-site support for humans. Human 
        explorers will be required for intensive field exploration and 
        for in-space servicing of complex systems.

What to Do, Now!

    It was clearly pointed out by Dr. Roland that the Space Shuttle has 
been our most dangerous and deadly vehicle. The CAM report clearly 
recommends that we separate humans from cargo. Thus it seems 
inescapable that we need to start a robust and continuing program to 
design, build and operate new Earth-to-orbit transportation systems for 
humans and cargo. The success of any long term goal or vision will 
require routine and reliable access to low-Earth orbit (LEO). When and 
if the requirements and needs for human exploration beyond Earth orbit 
are agreed upon, understood, and begun, an infrastructure to reach LEO 
will stand ready and able.
    To develop a simpler, safer and less costly system for transporting 
humans and cargo to and from LEO we need to deal with the current Space 
Shuttle and International Space Station Programs. The Shuttle should be 
retired after flying only those missions necessary to complete a 
suitably modified and scaled back International Space Station. The 
goals of the ISS should be refocused to those specific purposes 
required to support NASA's suitably chosen long term vision, and the 
ISS itself should be modified appropriately to those goals and the 
program held in abeyance until those goals are formed and articulated.
    To be sure, the U.S. has obligations to its international partners 
to continue to work with them, but there is absolutely no obligation to 
complete a pre-Columbia International Space Station plan since it has 
been determined that that plan is in need of modification. Good and 
fair partners will recognize that changes are necessary, and they will 
be anxious to work with the U.S. to help form the new long-term vision, 
and to participate with us on its implementation.
    All this must be done while maintaining and balancing the needs of 
other NASA programs. NASA is bigger and more important than any single 
program. NASA was formed from several existing agencies, including the 
National Advisory Committee of Aeronautics (NACA). So while NASA must 
certainly lead in the human exploration and development of space, it 
must continue to lead in the development and aeronautics and science 
where NASA has a unique and special role. The programs that involve 
human space flight must be scaled back. We can no longer afford for the 
human space flight programs, despite their romance and appeal, to 
dominate or diminish other NASA programs.
    Lastly, these immediate actions and plans need to be woven into the 
developing, long-term, and consensus vision of what NASA should do. 
NASA needs to immediately, forthrightly, and openly, get on with the 
business of discussing, debating, and deciding what should be done.

Additional Issues and Comments

    In order to best achieve both any immediate and long-term goals, we 
must to heed the constants listed above. Let me illustrate this with 
the discussion of some additional issues.
    No goal, either long-term or in the here and now, should require an 
Apollo-like, or any other crash program. There is no overarching 
security, technological, or symbolic need to accomplish anything 
quickly that would require such a crash program. We are charged to 
learn from the past, and indeed we must. However learning from the past 
does not mean we should try to relive the successes of the past. The 
Apollo program was unique and successful, but did not lay the 
foundation for what comes next. Let's celebrate and remember the Apollo 
program for what is was, but at the same time, let's move on. At this 
time, a crash program for its own sake is lunacy.
    We must have sufficient change in NASA in both its vision and its 
conduct. The CAM report made this clear. However this change is beyond 
just the fixing and tinkering with current programs. No single program 
or pallet of programs will do. As Drs. Murray and Griffith made clear, 
we need a new way of thinking about the future of NASA and the future 
of human space flight. We need to think of it as a new ``way of life.'' 
No step or program should be a terminal one where once completed we 
declare success without knowing what to do next. Rather every step or 
program should be part of a new forward looking ``way of life'' where 
the completion of one step or one program leads to the next. No mere 
footprints, flag, and celebration will do.
    As we are required to learn from our mistakes, we must also 
endeavor to learn from our successes and from our history too. The 
voyage of Columbus or the expedition of Lewis and Clark come to mind as 
oft cited examples. However, we must be careful to not be too selective 
in taking the lessons from the past, from mythology, or from deftly 
made catch phrases or high sounding rhetoric. These stories of the past 
carry many meanings, and we should attempt to see in them both 
similarities and differences to our current situation, as well as 
inspiration and warning.
    For example, to be sure the development of the West depends on 
Columbus' voyages. However his arrival in the new world owed a great 
deal to luck, financial backing with an eye to profits, some 
exaggerated claims for the chance of success, and in addition to its 
benefits wreaked havoc and death to the indigenous population. To 
propel his ships across the ocean Columbus did not need to take a 
source of energy with him, but had the warm power of the wind, and when 
he found land, it was a rich and nurturing one. Lastly, even with these 
advantages, continuous European settlements in the ``new world'' did 
not commence for well over 100 years after the ``new world's'' 
discovery to Europe.
    In addition, the ``undaunted courage'' of Lewis and Clark was aided 
and abetted by the knowledge and courage of native guides. Yes indeed, 
Lewis and Clark did not take with them most of what they needed for 
sustenance, but the land they explored turned out to be perhaps the 
richest of lands. So we may take a lesson from the Lewis and Clark 
Expedition about the prospects for future colonies on Mars as opposed 
to the Moon, or a Lagrangian point, but we should not see in Lewis and 
Clark's success or the Nation's return on investment, an analogous 
reason for a manifest destiny in space.
    As another example, John F. Kennedy's phrase ``this new ocean'' 
captured the romance and human capacity and drive for exploration, but 
the comparison to that old ocean are not always so apt. Likewise, 
Heinlein's phrase, ``halfway to anywhere'' as a description of LEO, or 
the shores of ``this new ocean'' is correct in terms of energy 
accounting, but not so in terms of time or risk. The time to go 
anywhere beyond LEO are orders of magnitude greater than the minutes 
required to reach LEO. The greatest risk to reach and return to LEO are 
chiefly those of safely obtaining and dissipated enough energy, while 
the risk of being in orbit are in bringing to orbit enough food, water, 
air, and energy to sustain life and counteract the effects of apparent 
weightlessness. To go beyond LEO increases the risk of these 
requirements, and adds to them the considerable risks of radiation 
beyond the safety of the Van Allen Belts. Thus the shores of ``this new 
ocean'' beckon, but are not such that we can easily wade in, and the 
idea of ``halfway to anywhere'' is only halfway true, if that much.
    I mention these examples not to advocate for any position but that 
of careful and logical thought and analysis in the charting of a course 
for the future. History and catch phrases can and should inspire us, 
but they do not and should not direct us to any particular course or 
vision. Rather they indicate to us how we should evaluate and pursue a 
chosen course or vision.
    In addition, we need to continuously remind ourselves that the 
vision is not the goal. The goal is to set a 100-year vision. The 100-
year vision is needed to organize, direct and sustain our current and 
near future activities. We must be wary that we don't substitute the 
vision for the goal so that the vision becomes fossilized and incapable 
of change. As the saying goes, ``prediction is difficult, especially 
about the future.'' The further out we go, the less accurate and useful 
our initial vision will become. We must be able to change and modify 
the vision as we encounter a future that we have planned for but that 
hold some surprises as well.
    This is not to say that our vision should be so malleable or 
amorphous that it can be easily changed or abandoned. No, the truth is 
far from that. The vision must be constructed to resist change while at 
the same time be open to the right type of change for the right type of 
reasons. The change can only come from knowledgeable, weighty and 
involved sources that have respect for the vision they wish to modify, 
and base the modifications and the need for modification in the ``teeth 
or irreducible and stubborn facts.'' We need our 100-year vision to be 
like a good scientific theory. That is, although resistant to changes 
and the direction in which the wind blows, our vision needs to be 
flexible enough to grow and undergo minor modification, and if after a 
full life, it eventually dies, it dies gracefully, and leaves a 
descendant rather then a wholly new vision.
    There has been some discussion about the role of technology versus 
the role of mission in delineating what NASA does or attempts to do. 
NASA Administrator Sean O'Keefe has said that NASA should develop 
technologies and then determine where to go while critics argue that 
without concrete goals, technological investments will be unfocused, 
inefficient and vulnerable. Both positions are essentially correct and 
can be usefully combined. We need a concrete long-term vision so as to 
direct and sustain technological development programs, but we need 
already developed technology to determine where to go and what missions 
to perform in the short term. There should be no dichotomy between the 
two views what comes first, technology or mission.
    This issue and the issue of flexibility and the modification of 
long-term visions as well as that of the benefit of crash programs are 
combined in the issue of technological breakthroughs. Technological 
breakthroughs, even if strived for and seeded for with generous funded, 
cannot be predicted. Burton Richter beautifully discusses this in his 
September 1995 Physics Today article, The Role of Science in Our 
Society, where he points out that ``the road from scientific discovery 
to new technology is a wayward one.'' Thus, unless there is no 
reasonable alternative, crash programs are inefficient, ill advised and 
generally only successful when there is short term definitive goal that 
is a final step and not a first step, i.e., like the Apollo program or 
the Manhattan project. This is inconsistent with the ``new way of 
life'' that is recommended for the future of human space flight.
    Nevertheless, though unpredictable, the results and benefits of 
technological breakthroughs can be managed and incorporated if done the 
right way. Take the example of the revolutionary changes brought from 
the invention (based or detailed and well supported basic research) of 
the point contact transistor. Robert Park in his book Voodoo Science: 
The Road From Foolishness to Fraud relates a story about a vision of 
science fiction author, engineer, and futurist Arthur B. Clarke with 
regards to the development communication satellites and transistor-
based microelectronics. Park says,

         Arthur C. Clarke, who is probably best known as the author of 
        2001: A Space Odyssey, predicted in a 1945 article in Wireless 
        World that artificial satellites in geosynchronous orbits would 
        one day be used to relay radio messages around the world. A 
        satellite in a geosynchronous orbit, which is at an altitude of 
        about twenty-three thousand miles, has an orbital period of 
        exactly twenty-four hours, just matching the rotation of the 
        Earth. To an observer on Earth, the satellite thus appears to 
        remain stationary. Communications experts scoffed; in 1945 the 
        idea of an ``artificial moon'' was still science fiction. It 
        would be another twelve years before the Soviets would shock 
        the world with the launch of Sputnik I.

         It was a brilliant insight. Today, there are nearly two 
        hundred communications satellites; it's a $15 billion per year 
        business and still growing, but it's doubtful that 
        communications satellites as envisioned by Clarke would have 
        been practical. His satellites were manned space stations, with 
        living quarters for a crew whose principal task was to replace 
        vacuum tubes as they burned out. Arthur C. Clarke foresaw 
        communications satellites, but he did not foresee 
        microelectronics--no one did. Just two years after he described 
        his dream of space stations, the transistor was invented, and 
        soon after, the integrated circuit. No larger than Volkswagens, 
        each of today's communications satellites flawlessly relays 
        millions of times as much information as the huge manned space 
        stations Clarke proposed, and today's satellites have no need 
        for a crew.

         Science is a wild card. The further we try to project 
        ourselves into the future, the more certain it becomes that 
        some unforeseen, perhaps unforeseeable advance in science or 
        technology will shuffle the deck before we get there. Often, as 
        in the case of semiconductor electronics, science provides us 
        with a future far beyond our dreams; other times it reveals 
        unexpected limits. Science has a way of getting us to the 
        future without consulting the futurists and visionaries.

         The historian Arnold Toynbee once explained his phenomenal 
        productivity: ``I learn each day what I need to know to do 
        tomorrow's work.'' Science advances in much the same way. With 
        each hard-won insight, the scientist pauses just long enough to 
        plot a new course, designed to take advantage of what has just 
        been learned. Before some distant goal can be realized, new 
        discoveries may render it less desirable or reveal a more 
        attractive alternate. Science keeps offering new futures to 
        choose from and crossing old ones off the list.

    There is a wonderful irony here that I'm using Park's words to 
defend a vision for the future of human space flight and the benefits 
of physical science research on orbit. Park is perhaps the most ardent, 
articulate and harsh critic of NASA's human space flight and on-orbit 
laboratory science programs. However, if science and the history of 
science teach us anything, it is to judge a person's arguments and not 
their autobiography. In the story Park relates above, and with respect 
to the use of humans in space, he has both good facts and a cogent 
argument that commands our attention, respect, and perhaps even some 
concurrence. In the case of Park's criticism of laboratory physical 
science contained elsewhere in his book and his public statements, I 
find his logic correct but based on wrong data and false ``facts.'' 
Thus his argument there fails to hold. So even Park himself, in a way, 
is defending the key objectives of basic research on-orbit. And who 
knows, maybe a technological breakthrough from science in LEO will have 
consequences for the human exploration and development of space even 
though its principal objectives are geared to improve life here.

Summary/Conclusions

    To repeat, and in conclusion, what should NASA do over the next 
five years? They should:

        <bullet>  Form the focused, long-term, consensus vision.

        <bullet>  Change institutional culture per the CAIB report.

        <bullet>  Start perfecting access to LEO.

        <bullet>  Learn from the successes and errors of the past.

        <bullet>  Plan to phase out the Space Shuttle in accordance 
        with a modified and scaled back plan for the ISS.

        <bullet>  Maintain and modify the good work of NASA's overall 
        mission including basic research on orbit.

Q2.  At the hearing, you did not concur that the long-term goal of the 
human space flight program should be going to Mars. Please explain why 
you do not think this is the right goal to pursue. What do you think 
the long-term goal should be?

A2. Although personally I think that the long-term goal of NASA's human 
space flight program should be going to Mars, I feel more strongly that 
the long-term goal should be fully supported by the Nation. If the 
Nation as a whole feels, based on an informed discussion of the costs 
and benefits, that human space flight should be curtailed, I would 
support that decision. If the decision where to go to Mars, in the 
proper way cognizant of the constraints discussed above, I would more 
happily support that decision.
    In references to my research as part of NASA's physical science in 
space program, I feel that if the general public is not convinced by 
the full weight of the arguments in it favor of the importance of 
science on orbit so as to fund it, then so be it. The Nation's refusal 
to support science would be honest, and we would need to accept it 
until we can change the perception or the opinion via better or more 
education on the matter. I feel likewise with the goal of Mars as part 
of the human space flight program. The long-term goal is to have and 
support the consensus.

Q3.  If we are to send Americans on ambitious space missions, we are 
going to have to accept much higher levels of risk than those attendant 
in the current human space flight programs. What level of risk do you 
think is acceptable? How long is it likely to take to develop a program 
that could operate at an acceptable level of risk and how will we know 
what the risk level is? How can we ensure that the American people will 
accept a higher level of risk?

A3. The decision to accept risk, and how much risk to accept, can only 
be made by those who assume the risk. As a patient with Multiple 
Myeloma, I face risk analysis decisions frequently. Prior to any risky 
medical procedure, I am briefed fully on the risks and the benefits of 
a procedure. At the conclusion of the briefing, I am required to sign a 
consent form indicating both my understanding of and consent to the 
procedure, despite the associated risks. I have accepted procedures 
with specified mortality rates as high as two percent to five percent. 
I did so knowingly, and based on an informed assessment that being 
young and otherwise healthy, my risk was probably less then two 
percent, and that the risk of not doing the procedure is far greater in 
the long run. This does not remove the responsibilities of my attending 
medical care providers. They must commit themselves to take due 
diligence and to attempt to minimize risk whenever possible. The formal 
signing procedure merely indicates that all parties are fully informed 
as to the risks and benefits of the procedure and our responsibilities 
to each other. However, in all cases, the decision to assume the risk, 
no matter how much it affects my wife and daughter, remain my own. This 
is as it should be.
    In the human space flight program, the astronauts understand the 
risks involved in their work, and accept them willingly. Perhaps the 
astronauts who fly make Faustian bargains and accept grave risks in 
exchange for an experience they value greatly, or for the benefit 
derived professionally, or for the contributions, both symbolic and 
concrete, to humankind, or perhaps for all these reasons. For whatever 
the reasons, the decision to assume the risk needs to be theirs and 
theirs alone.
    Our responsibility as a nation, NASA as the agency in charge, and 
mine as a scientist, is to do due diligence to both minimize the risk 
for the task that is being undertaken, and to ensure that the risk is 
fully understood and not underestimated by those who assume the risk. 
Lastly, we need to be scrupulously honest about the true goals and 
rewards for which that risk is being taken. Similarly, I think that the 
American people will allow astronauts to accept a higher level of risk 
provided that the details of the goals, risks, and the consent to 
assume the risks are all publicly discussed and acknowledged by all 
parties. This does not specify what the particular risk-taking goal is 
or should be, but only that the goal itself is acknowledged fully.

Questions submitted by Representative Ralph M. Hall

Q1.  A major focus of this hearing is on potential goals for the human 
space flight program. However, goals without adequate resources never 
become real programs.

Q1a.  Why do you think that it has proven so difficult to get a 
commitment to and sustained funding for a human exploration initiative 
in the three decades since Apollo?

A1a. Representative Hall is correct in saying that goals without 
adequate resources never become real programs, and that is certainly 
part of the explanation for why three decades after Apollo there is no 
sustained funding for human space flight. The very first post-Apollo 
program, the Space Shuttle Program (SSP), started the trend where we 
committed ourselves to the program we could afford. Thus, there was no 
clarity of purpose or vision since a program decision was made for 
completely economic considerations and not scientific or technological 
ones. Furthermore, the funds and efforts required to meet the overly 
optimistic plans and promises of an overly compromised SSP, and later 
the ISS, starved other and better NASA programs and plans. Lastly, the 
Apollo program, although a great success, is not the model for future 
successes.

Q1b.  What specifically do you think will have to be done to get such a 
commitment from the White House and Congress?

A1b. The House Committee on Science has already begun a process to get 
a commitment to and sustained funding for a human space flight from the 
White House and Congress. The committee is asking the right questions, 
and is getting the right answers. I have no idea how one gets the 
necessary commitment for the rest of Congress and the White House, but 
hope that an honest and open discussion, with honest disagreements, 
continues to part of the process. I greatly appreciate my opportunity 
to participate in this process, and hope I am able to continue to do 
so.

Q2.  The Chinese recently launched their first astronaut. They have 
indicated that they intend to follow up that mission with a sustained 
and ambitious human space flight program.

     How should the United States respond to the Chinese human space 
flight initiative?

A2. We have, as we should, already welcomed the Chinese to the club of 
human space-faring nations. Beyond that, I neither know of or can think 
of any technological, symbolic, or security issues that require that we 
repeat history to better the Chinese at any of their articulated goals. 
At this time, we should and can vigorously pursue our vision for NASA's 
future without reference to what the Chinese space program. If, at any 
time in the future, this analysis needs to change, we can do so. At 
this time, we have a detailed history behind us, and some issues and 
challenges ahead for which we are engaged.

Q3.  The most recent U.S. human space flight program-the International 
Space Station involves a partnership of 15 nations.

Q3a.  Should international cooperation be an intrinsic part of any 
future human space flight initiative, or do you think that a future 
initiative would be better managed as a U.S.-only undertaking?

Q3b.  What are the pros and cons of international cooperation on future 
human space flight projects?

A3a,3b. I have heard said that perhaps the best thing about the 
International Space Station is the word international. In fact, the 
current grounding of the Space Shuttle fleet is only possible since the 
ISS can be supported by Russian launches. Thus, international 
cooperation should continue to be a part of our nation's future in 
human space flight. For the future of human space flight, this lowers 
our costs, makes available the best in international science and 
technology, and contributes to good international relations. The only 
con to this is that the decision making process on certain elements may 
be more unwieldy since there is no single decision making authority.

Question submitted by Representative Bart Gordon

Q1.  The Hubble Space Telescope, like the Chandra and SIRTF space-based 
observatories, could have been designed to work without the capability 
to be serviced by humans. Is servicing scientific spacecraft an 
appropriate task for humans in space? Is it an appropriate risk for 
humans in space to accept?

A1. The human servicing of scientific spacecraft is not appropriate if 
the spacecraft could have been designed to work autonomously or 
remotely. It would only be appropriate for humans to service scientific 
spacecraft provided it has been affirmatively demonstrated that human 
tending is the only reasonable way for a platform to be operated and 
that the benefits yielded from that platform are deemed to be worth the 
risks. Or alternatively, there is goal or an acceptable decision for 
humans to be in space, whatever it is, and it is determined that while 
they are there achieving that goal, they might as well service the 
spacecraft. As stated previously, the appropriateness of the risk 
depends on the full acknowledgments and acceptance by all parties of 
the nature of the risk and the goal requiring that risk.

                   Answers to Post-Hearing Questions

Responses by Alex Roland, Professor of History, Duke University

Questions submitted by Chairman Sherwood Boehlert

Q1.  Please outline with some degree of specificity what you think NASA 
ought to be doing--and not doing--over the next five years in pursuit 
of your vision.

A1. Over the next five years, NASA should concentrate on launch vehicle 
development. The Space Shuttle is the weak link in the United States 
space program. It renders the Space Station untenable. The United 
States should retire the Space Shuttle or fly it unmanned. If manned 
flights are deemed essential before the availability of a replacement, 
human-rated launch vehicle, the Shuttle should be used sparingly and 
with minimum crews. If it does fly with people aboard, all extent 
anomalies that threaten crew safety should be resolved to the 
satisfaction of an external panel of experts, not one appointed by 
NASA.
    The nature of the launch vehicle development program should be 
driven by a national consensus on what the country wants to do in 
space. If returning to human space flight is a priority, then the first 
development should be a space plane to ferry astronauts to and from 
low-Earth orbit. But I see no compelling urgency in returning American 
astronauts to space. So launch vehicle development might better focus 
on lowering the cost of access to space. If one or more new launch 
technologies can be developed to increase the efficiency and 
reliability of placing payloads in orbit, then all space activity, 
manned and unmanned, will eventually benefit.
    During this period of launch vehicle development, NASA should 
exploit its current capabilities in automated space flight. This year's 
missions to Mars are good examples of unmanned missions with the 
potential to capture the public imagination. More arresting still would 
be the mission that has been possible for years but never funded: an 
automated, roving, return mission. This spacecraft would fly to Mars, 
land softly, dispatch a roving vehicle to explore the planet under 
remote control from Earth, return to the lander, and fly aboard it back 
to Earth. The country that first returns to Earth with a Martian soil 
sample will secure its reputation as the world's leader in space 
exploration.

Q2.  At the hearing, you did not concur that the long-term goal of the 
human space flight program should be going to Mars. Please explain why 
you do not think this is the right goal to pursue. What do you think 
the long-term goal should be?

A2. There are two compelling reasons for not going to Mars in any 
foreseeable future. First, we do not have the technology to do this 
safely and economically. In the absence of a new launch vehicle, we 
would have to rely on the Shuttle for this undertaking. The Shuttle has 
demonstrated that it is not equal to the task. Estimates for a manned 
Mars mission have reached $400 billion. I do not know of any space 
mission that has ever come in under cost. More recent estimates that a 
quick-and-dirty mission can be completed for $60 billion or even $30 
billion should be treated with the same credibility that we now attach 
to projections for an $8 billion space station.
    Even if the Nation were prepared to spend $400 billion on a manned 
Mars mission, we would still want to know why. What purpose would be 
served by such an adventure? Scientific exploration can be done more 
thoroughly, more reliably, and more cheaply with automated spacecraft. 
Is there some economic payoff to be derived from flying men to Mars and 
back? I don't know what it is. Are we proposing to colonize Mars? What 
for? What purpose would a colony serve? Whose colony would it be? As 
signatories to the Space Treaty, we have forsworn claims on extra-
terrestrial bodies. At a time when the world community is divided on 
whether and how to sustain a manned presence at the South Pole, it is 
hard to imagine how we would justify the staggering expense, to say 
nothing of the risk, of sustaining a human presence on Mars. If we are 
going to Mars, as we went to the Moon, just to prove we can do it, just 
to complete a feel-good mission, then what will we do when we come 
home? For thirty years now we have been unable to find a compelling 
reason to send humans back to the Moon. There will be still less reason 
to send men back to Mars. Then we will be where we are now, having 
flown a historic but ultimately empty mission, the completion of which 
leaves us with the same nagging question: What next? Proposals to send 
humans to Mars, such as those by Bruce Murray and the Planetary 
Society, envision the mission as an end in itself, just as the Apollo 
missions were. They will not lead to anything useful. They will be 
followed by calls for sending humans to one of the Martian moons or one 
of the Lagrangian points or some other place in our solar system, not 
because there is anything for people to do there but just because it 
makes some people feel good. Let those who will feel good pay for it.

Q3.  At the hearing, you identified the development of launch 
capability as your top priority. The context with which the question 
was asked was in relation to the priorities laid out by the Augustine 
Commission in 1990. Since 1990 however, the U.S. has developed 
expendable vehicles capable of carrying nearly 50,000 pounds to Low-
Earth Orbit. Given these developments, do you think even larger 
vehicles are required? If so, what are these larger vehicles needed 
for? If such heavy lift is required, would it be possible, or even 
desirable, to launch in segments to spread the risk out and to avoid 
the investment. in an entirely new launch system?

A3. My recommendations for launch vehicle development are not so much 
for lifting capacity as for economy. Only one space activity has ever 
paid for itself satellite communications. All other space activity is 
too expensive to be conducted by the private sector. Government 
subsidies are required to support space science, weather satellites, 
even the quasi-commercial imaging of Earth from space. Manufacturing 
and tourism have never approached commercial viability. Even the armed 
services maintained that space-based missile defense, should the 
country ever attempt it, would require an order of magnitude decrease 
in launch costs. Space science is insulated from normal peer-reviewed 
competition for research funds because the payoff from even the best of 
missions could seldom justify their cost in competition with the most 
compelling Earth-based proposals. For all the wonderful achievements of 
space science, its costs would embarrass most scientists. For most of 
the last thirty years NASA has spent almost as much on space science as 
the National Science Foundation spends on all other scientific research 
save medical and nuclear. There is no question which investment has 
provided the highest returns.
    NASA said when it first began to develop the Shuttle that for a 
space station and other such ambitious undertakings in space to be 
practical, launch costs had to be reduced by an order of magnitude, the 
same goal identified by the Department of Defense. The Shuttle did not 
decrease launch costs; it increased them. Incremental refinements of 
expendable launch vehicles over the last two decades have improved 
efficiency, but we still operate on a plateau that may perhaps 
represent the upper limits of chemical rockets. NASA should either push 
chemical technology beyond that plateau or turn to other launch 
technologies. Many proposals have been advanced. Few have received more 
than meager support. Unless there is a dramatic reduction in costs to 
low-Earth orbit, then America's and the world's future in space will be 
practically limited to what we have seen for the last forty-five years: 
one commercial success in Earth orbit; many important military programs 
conducted at enormous costs; and a large number of state supported 
space activities conducted pro bono publico. More ambitious activities, 
such as human exploration and habitation, commercialization, mining, 
tourism, and other potential realms of human space activity will remain 
impractical. No segment of our space program is more important than 
reducing launch costs and increasing reliability.
    It should be noted that this economic reality could be transformed 
by large-scale demand for space activity. If, for example, the 
economics of energy generation on Earth ever deteriorated to the point 
where large solar collectors in Earth orbit became feasible, then the 
demand for energy could support the construction of huge, orbital 
infrastructure, probably in geosynchronous orbit. Once that 
infrastructure was paid for by the consumer, additional activities in 
space would have to pay only the marginal costs of moving beyond the 
infrastructure. In other words, a large transportation system carrying 
payload and personnel to solar collectors in geosynchronous orbit could 
readily add tourists and planetary travelers for acceptable marginal 
costs. But it is hard to see that happening within the next twenty-five 
years, or even fifty years. And even if it did, the enterprise would be 
vastly more affordable and practical if it could draw upon new launch 
technology. Indeed, new launch technology might speed the day when 
cheap, clean energy from space could be delivered to Earth to 
substitute for dwindling supplies of fossil fuels.

Q4.  If we are to send Americans on ambitious space missions, we are 
going to have to accept much higher levels of risk than those attendant 
in the current human space flight programs. What level of risk do you 
think is acceptable? How long is it likely to take to develop a program 
that could operate at an acceptable level of risk and how will we know 
what the risk level is? How can we ensure that the American people will 
accept a higher level of risk?

A4. I believe that America's tolerance for risk in the space program is 
comparable to our tolerance for casualties in war. It is a myth that we 
are casualty-intolerant in war. Many recent studies have confirmed that 
Americans are willing to accept risk if they believe the casualties are 
necessary to ensure our nation's security. Americans will similarly 
accept risk to astronauts if they believe the resulting casualties 
serve vital national interests. The skepticism being heard in the wake 
of the Columbia accident suggests that Americans are not as convinced 
as they once were that flying astronauts in low-Earth orbit has been 
worth the loss of life. The polite fiction that our astronauts have 
been conducting essential scientific experiments or that they are the 
essential trailblazers of some far-reaching program of exploration and 
expansion has been belied by the sorry record of manned space flight 
since Apollo. Truth be told, astronauts such as those aboard the ill-
fated Columbia have been carrying out the same tired agenda repeated 
endlessly over the last three decades: fly into low-Earth orbit, float 
around in near weightlessness, smile for the upbeat television 
interview, exercise relentlessly to retard the deleterious effects of 
weightlessness, and return to Earth to spend most of your working life 
talking to tourists in Florida or Houston or making public appearances 
at high school career fairs. The public is hard pressed to identify 
anything going on that is worth the risk.
    The public might be willing to tolerate more risk in a human 
mission to Mars. But most Americans have given little thought to the 
prospect of accident or illness aboard a spacecraft beyond rescue or 
succor from Earth. In the last two years we have seen dramatic rescue 
missions of scientists who fell ill at the South Pole. These were more 
difficult and dangerous than most of us would have expected. Imagine 
the ordeal of watching an astronaut or an entire crew succumb to 
misadventure or disease while the world looks on helplessly. There will 
surely be questions of whether the light was worth the candle. I, 
personally, feel no obligation to protect astronauts from risks that 
they undertake voluntarily, but recent experience suggests that the 
astronauts have not always known the dangers to which they were being 
subjected. So it is not just their bravery and willingness that are at 
issue, but rather the national trauma when we support an ill-advised 
undertaking that runs afoul of the law of averages.

Questions submitted by Representative Ralph M. Hall

Q1.  A major focus of this hearing is on potential goals for the human 
space flight program. However, goals without adequate resources never 
become real programs.

Q1a.  Why do you think that it has proven so difficult to get a 
commitment to and sustained funding for a human exploration initiative 
in the three decades since Apollo?

A1a. There are at least five reasons why the country has not supported 
a human exploration initiative since Apollo. First it, is too 
expensive. Anything that we want to do in space with our current launch 
technology costs ten times as much if humans participate. No one, to my 
knowledge, has completed a cost-benefit study demonstrating that the 
value added by humans in situ begins to compensate for the added cost 
of sending them.
    Second, if the goal is exploration, automated spacecraft can do it 
far more safely, reliably, and efficiently that humans. The notion that 
humans have to be physically present for exploration to take place is 
an anachronism that weighs down the space program and hinders 
development of a rational, feasible, and imaginative program of space 
exploration.
    Third, human space flight to date has proved to be a feel-good 
program with little demonstrable payoff. We got our money's worth out 
of Apollo, because the payoff was psychological, a competition for the 
hearts and minds of the world's people in the depths of a frightening 
Cold War. Since then only a vocal minority of Americans have cared much 
about human space flight one way or the other; most are simply 
indifferent.
    Fourth, they are indifferent because it has proved to be boring. 
Nothing is happening in our manned space flight program. The public 
takes an interest only when there are celebrities on board or there is 
a disaster. We are doing what we did thirty years ago. To most 
Americans, going to Mars sounds too much like going to the Moon; an 
expensive stunt leading to another dead end.
    And fifth, the American public appears to have greatly diminished 
faith in NASA. When someone as mainstream as Bryant Gumbell calls NASA 
the gang that can't shoot straight, then one can be sure that the 
agency's reputation has sunk from its Apollo highs to the lowest levels 
of American cynicism about bureaucratic government programs that suck 
up tax dollars and deliver little in return. The most reliable feature 
of NASA's performance in the last thirty years is that its programs are 
always late, over cost, and under specifications. There is little 
wonder that public and Congressional support for ambitious new human 
initiatives in space is limited to the true believers who have a 
spiritual commitment to human space flight that transcends the harsh 
reality of NASA's record.

Q1b.  What specifically do you think will have to be done to get such a 
commitment from the White House and Congress?

A1b. I doubt that Congress or the White House will back a major new 
human initiative in space until we have safe, reliable, and economical 
access to low-Earth orbit. A fair bench mark will be an order-of-
magnitude reduction in launch costs and 99 percent reliability for any 
human-rated launch vehicle. And the launch costs and reliability will 
have to be certified by a competent, independent oversight body, such 
as the National Academy of Sciences. NASA claims about safety and 
economy have lost all credibility. If this benchmark is achieved, then 
an enormous range of opportunities will open up in space. These will 
include space commercialization, so that space activity begins to pay 
for itself instead of always depending on government subsidy. And it 
would also include practical human space flight.

Q2.  The Chinese recently launched their first astronaut. They have 
indicated that they intend to follow up that mission with a sustained 
and ambitious human space flight program.

     How should the United States respond to the Chinese human space 
flight initiative?

A2. The Chinese are now doing what we did forty years ago. Their 
program poses neither threat nor challenge to the United States. We 
should wish them well. Indeed, I believe that we should seriously 
consider trying to sell them the Space Station. It is a white elephant 
that they might want for prestige and we cannot support because of the 
fatal weaknesses of the Shuttle. If we offered the Space Station for 
sale, we could give our Station partners first refusal to buy us out. 
If they declined, we could offer the Chinese the opportunity to take 
our place. In either case, we could then offer the new owners access to 
the Shuttle at cost, if they wished to accept the risk of flying it 
until they or we have developed a next-generation, human-rated launch 
vehicle. In fact, the U.S. might want to retain a ten percent share of 
the Station in the interests of international cooperation. We could 
afford that, and we could use the income from the sale to speed up 
development of our next-generation launch vehicles.

Q3.  The most recent U.S. human space flight program--the International 
Space Station--involves a partnership of 15 nations.

Q3a.  Should international cooperation be an intrinsic part of any 
future human space flight initiative, or do you think that a future 
initiative would be better managed as a U.S.-only undertaking?

A3a. Internationalization of space activity is a sound principle. It 
promotes cooperation. It spreads the financial burden. And it comports 
with our commitment in the Space Treaty not to make any national claims 
on space or its resources. The Space Station, however, provides an 
unfortunate example of how not to conduct an international space 
project. Our international partners make only token contributions, and 
they receive access out of proportion to their shares. Furthermore, 
when something goes wrong, as in the crisis precipitated by the 
Columbia accident, they exert political pressure to sustain a program 
that continues to suit their purposes but no longer suits ours. We have 
made ourselves hostage to our international partners without achieving 
any benefit commensurate with the mortgage that they hold on our future 
plans.

Q3b.  What are the pros and cons of international cooperation on future 
human space flight projects?

A3b. The U.S. disposes about one third of the world's wealth. In multi-
national space projects we should seek to ensure that all participants 
contribute proportionally to their national wealth and resources and 
that they benefit proportionally to their investment. If we want to 
allow a developing nation to participate at a lower level, then we 
should treat that as a foreign-aid issue, not a space policy issue. If 
we are using space projects as instruments of foreign policy, then the 
goals and costs should be laid out explicitly, and exit strategies for 
all parties should be negotiated in advance. Developing a complex, 
large-scale technological system is difficult in the best of 
circumstances. Doing it with international partners complicates the 
enterprise in ways that make no technical sense, just political sense. 
We should nonetheless embrace those complications, for the political 
payoff is substantial. But all of the costs and benefits for all of the 
parties should be articulated and calculated in advance.

Question submitted by Representative Bart Gordon

Q1.  The Hubble Space Telescope, like the Chandra and SIRTF space-based 
observatories, could have been designed to work without the capability 
to be serviced by humans. Is servicing scientific spacecraft an 
appropriate task for humans in space? Is it an appropriate risk for 
humans in space to accept?

A1. Given the current limitations on our launch capacity, we should not 
use humans to service any space-based observatories. As was true with 
Columbia, none of the science being conducted is worth the risk of 
human life. What is more, servicing space-based observatories by humans 
actually raises the cost of the enterprise and limits the science that 
can be done with the available funding. Take the Space Telescope, the 
best known of the space-based observatories. It was designed to be 
launched on the Shuttle and serviced by Shuttle astronauts. Without 
that limitation, it could have been a more powerful and more versatile 
instrument. It need not have been limited to the size and weight 
limitations of the Shuttle. More importantly, it could have been placed 
in a higher orbit, where it would have been able to do more and better 
observations. And it could have been launched more cheaply on an 
expendable launch vehicle than on the Shuttle. What is more, several 
space telescopes could have been built and launched on expendable 
launch vehicles for the cost of launching, repairing, and servicing the 
Hubble. The cost of service and repair is so high with manned Shuttle 
flights, that it is actually cheaper to build and launch a second 
spacecraft than it is to visit and restore an existing one. And the 
second spacecraft can be an improved model, based on the experience 
with the first. The military has been operating its many and varied 
spacecraft this way for decades. The military is not known for cost-
control, but its enormously complex space program is nonetheless proof 
that human-servicing in orbit, even of very expensive spacecraft, is 
simply not necessary. The servicing of space-based observatories by 
NASA has been driven less by economy, safety, and efficiency than by 
the imperative to give the Shuttle something to do and to create a 
public impression that the Shuttle is useful. If we ever develop truly 
safe, reliable, and economical access to the whole range of Earth 
orbits, from low to geosynchronous, it may prove practical to send 
people to service orbiting spacecraft. In the meantime, we are far 
better off with autonomous free flyers monitored and controlled from 
Earth.

                   Answers to Post-Hearing Questions

Responses by Bruce Murray, Professor of Planetary Science and Geology 
        Emeritus, California Institute of Technology

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Chairman Sherwood Boehlert

Q1.  Please outline with some degree of specificity what you think NASA 
ought to be doing--and not doing--over the next five years in pursuit 
of your vision.

Q2.  At the hearing, you stated that the ``issue of on-orbit assembly 
needs to be understood,'' and that it ``may change the launch vehicle 
requirements significantly.'' Can you please explain what needs to be 
done to understand on-orbit assembly operations and how this may change 
the launch requirements. What recommendations do you have to improve 
the U.S. capability to perform autonomous operations on-orbit?

Q3.  If we are to send Americans on ambitious space missions, we are 
going to have to accept much higher levels of risk than those attendant 
in the current human space flight programs. What level of risk do you 
think is acceptable? How long is it likely to take to develop a program 
that could operate at an acceptable level of risk and how will we know 
what the risk level is? How can we ensure that the American people will 
accept a higher level of risk?

Questions submitted by Representative Ralph M. Hall

Q1.  A major focus of this hearing is on potential goals for the human 
space flight program. However, goals without adequate resources never 
become real programs.

     Why do you think that it has proven so difficult to get a 
commitment to and sustained funding for a human exploration initiative 
in the three decades since Apollo?

     What specifically do you think will have to be done to get such a 
commitment from the White House and Congress?

Q2.  The Chinese recently launched their first astronaut. They have 
indicated that they intend to follow up that mission with a sustained 
and ambitious human space flight program.

     How should the United States respond to the Chinese human space 
flight initiative?

Q3.  The most recent U.S. human space flight program--the International 
Space Station--involves a partnership of 15 nations.

     Should international cooperation be an intrinsic part of any 
future human space flight initiative, or do you think that a future 
initiative would be better managed as a U.S.-only undertaking?

     What are the pros and cons of international cooperation on future 
human space flight projects?

Questions submitted by Representative Bart Gordon

Q1.  The Hubble Space Telescope, like the Chandra and SIRTF space-based 
observatories, could have been designed to work without the capability 
to be serviced by humans. Is servicing scientific spacecraft an 
appropriate task for humans in space? Is it an appropriate risk for 
humans in space to accept?

Q2.  The Jet Propulsion Laboratory is perhaps the world's most advanced 
planetary research organization.

     What do you think can be learned about life on Mars using a purely 
robotic approach?

     At what point, if any, does a human presence on Mars become 
essential for further scientific advancement of our understanding of 
Mars?
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


                        STEPPING INTO THE FUTURE

                 A Workshop in Memory of the Columbia 7

    On April 29-30, 2003, The Planetary Society, the Association of 
Space Explorers, and the American Astronautical Society held a workshop 
at the George Washington University's Space Policy Institute about the 
future of human space transportation. The following conclusions have 
been endorsed by The Planetary Society and the American Astronautical 
Society and by a number of astronauts present at the workshop. ASE did 
not take a formal position on the conclusions.

Conclusions

    Human space exploration is a great and unifying enterprise of 
planet Earth. The loss of Columbia reminds us that astronauts are the 
emissaries of humankind as part of our civilization's aspirations for 
great achievements and new discoveries. The United States' commitment 
to human exploration reflects humankind's movement outward from Earth, 
to become eventually a multi-planet species. We do this to understand 
and cope with the limits of Earth, its finite resources and indeed its 
finite lifetime, and to satisfy the innate desire of people to advance 
civilization and understand their place in the universe. We do this not 
just for our own country, but also for all our planet's citizens. 
Furthermore, the space enterprise provides a unique means of building 
national intellectual, technical and personal capabilities. It is a 
commitment to a positive future.
    The Planetary Society, the Association of Space Explorers-USA, and 
the American Astronautical Society convened a group of experts at a 
workshop, in memory of the Columbia Space Shuttle crew, to assess 
launch vehicle requirements to meet the needs of human space 
exploration beyond Earth orbit. Our conclusions from this assessment 
are:

The Imperative

        <bullet>  There are strong societal imperatives for exploring 
        space. The natural curiosity to explore new frontiers coupled 
        with an instinctive desire to preserve the future of humankind 
        motivates our continued exploration of space. Space exploration 
        will provide new knowledge and resources for a more prosperous 
        and secure future.

        <bullet>  There are fundamental questions concerning our cosmic 
        origin, our future and whether or not we are alone in the 
        Universe. Science in pursuit of these questions can provide a 
        credible goal-oriented strategy for an evolutionary approach to 
        exploring deep space destinations with both robots and humans.

        <bullet>  The exploration of deep space by humans will be 
        energized by the goals of individual nations woven into an 
        international enterprise and infused with a sense of human 
        destiny in space.

The Destinations

        <bullet>  The most important scientific destinations for human 
        explorers are the Moon, Mars, Near-Earth Objects and the Sun-
        Earth Lagrangian point L2\1\ (for astronomical observatories).
---------------------------------------------------------------------------
    \1\ Lagrangian points (L1-L5) are points in space where the 
gravitational forces from the two most nearby influential gravitational 
masses (in this case the Sun and Earth) are in equilibrium.

        <bullet>  Mars is the ultimate destination for human explorers 
        in the foreseeable future. Consequently the robotic Mars 
        exploration program should progress beyond sample return to 
        robotic outposts in preparation for human presence.

A Strategy

        <bullet>  By adopting a phased approach to human exploration 
        beyond Earth orbit, we can develop a cost-effective program 
        that is exciting, scientifically rewarding and for which the 
        risks can be measured and managed.

        <bullet>  The initial stages of a robust human exploration 
        architecture can proceed using existing and currently planned 
        propulsion technologies.

        <bullet>  We see no essential role for continuing flight of the 
        Shuttle orbiter beyond its immediate goal of completing 
        construction of the International Space Station and early 
        transport of crew members to and from the Station. As soon as 
        an alternate mode of human transport into and from low-Earth 
        orbit (LEO) is available, which should be accomplished as soon 
        as possible, the Shuttle orbiter should be retired.

        <bullet>  Crew and cargo should be transported separately to 
        increase flexibility, reduce cost and reduce risk associated 
        with human space exploration.

        <bullet>  The under-utilized fleet of existing expendable 
        launch vehicles should play a major role in the next stages of 
        human space exploration, as well as in human and cargo 
        transportation into LEO.

        <bullet>  Increased investment in on-orbit operations and in-
        space propulsion technologies is required.

International Cooperation

        <bullet>  Exploration beyond Earth orbit is an intrinsically 
        global enterprise. It is unlikely that any nation acting alone 
        will commit the necessary resources for a major human 
        exploration mission initiative beyond Earth orbit.

        <bullet>  International partnerships provide tangible benefits 
        for human space exploration. These include broadening public 
        and political support, sharing of the cost and risk, adding 
        resiliency and enriching the scientific and technological 
        content.

        <bullet>  To this end all space faring nations should 
        strengthen mechanisms for exchanging information on human 
        exploration activities and plans, increase international 
        participation in robotic exploration missions, and explore 
        mechanisms for sharing critical roles among partners.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

</pre></body></html>
